<html>
<title> - STRATEGIC IMPORTANCE OF THE ARCTIC IN U.S. POLICY</title>
<body><pre>[Senate Hearing 111-259]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-259

           STRATEGIC IMPORTANCE OF THE ARCTIC IN U.S. POLICY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION



                               __________

                            SPECIAL HEARING

                     AUGUST 20, 2009--ANCHORAGE, AK

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
52-799PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             GEORGE V. VOINOVICH, Ohio
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      LISA MURKOWSKI, Alaska
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                           Professional Staff

                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                            Christa Thompson
                            Suzanne Bentzel
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)
                         Administrative Support
                         Katie Batte (Minority)





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Lisa Murkowski......................     1
Statement of Hon. Sean Parnell, Governor, State of Alaska........     4
    Prepared Statement of........................................     7
Statement of Admiral Thad W. Allen, Commandant, U.S. Coast Guard.    12
    Prepared Statement of........................................    15
Icebreaking Capacity in the Arctic...............................    15
Arctic Trends....................................................    15
National Arctic Policy...........................................    16
Supporting Execution of the National Arctic Policy Objectives....    17
National Arctic Capacity.........................................    19
Coast Guard Icebreaker Assets....................................    19
Statement of David Benton, Executive Director, Marine 
  Conservation Alliance..........................................    25
    Prepared Statement of........................................    28
Statement of Dr. Lawson W. Brigham, Professor of Geography and 
  Arctic Policy, University of Alaska Fairbanks..................    32
    Prepared Statement of........................................    35
Statement of Edward S. Itta, Mayor, North Slope Borough, Alaska..    38
    Prepared Statement of........................................    40
Statement of Mead Treadwell, Chair, U.S. Arctic Research 
  Commission.....................................................    41
    Prepared Statement of........................................    45
Additional Committee Questions...................................    55
Questions Submitted to Admiral Thad W. Allen.....................    55
Questions Submitted by Senator Robert C. Byrd....................    55
Questions Submitted by Senator Lisa Murkowski....................    56
Questions Submitted to Governor Sean Parnell.....................    58
Questions Submitted by Senator Lisa Murkowski....................    58
Questions Submitted to Edward S. Itta............................    59
Questions Submitted by Senator Lisa Murkowski....................    59
Questions Submitted to Mead Treadwell............................    61
Questions Submitted by Senator Lisa Murkowski....................    61
Questions Submitted to David Benton..............................    65
Questions Submitted by Senator Lisa Murkowski....................    65
Questions Submitted to Dr. Lawson W. Brigham.....................    67
Questions Submitted by Senator Lisa Murkowski....................    67

 
           STRATEGIC IMPORTANCE OF THE ARCTIC IN U.S. POLICY

                              ----------                              


                       THURSDAY, AUGUST 20, 2009

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                     Anchorage, AK.
    The subcommittee met at 2:35 p.m., in the Lew Haines 
Memorial Room, University of Alaska Anchorage Consortium 
Library, Hon. Lisa Murkowski presiding.
    Present: Senator Murkowski.


              opening statement of senator lisa murkowski


    Senator Murkowski. Good afternoon. We are calling to order 
the Homeland Security Subcommittee of the Senate Appropriations 
Committee. We are here today for a hearing on the strategic 
importance of the Arctic in U.S. policy.
    I would like to welcome all of you who have joined us. 
Again, good afternoon, and thank you all for joining us here 
today. I want to start off by first acknowledging Senator 
Robert Byrd, who is chairman of the Homeland Security 
Subcommittee of the Senate Appropriations Committee, and thank 
him for allowing us to have this field hearing here in 
Anchorage today.
    It is great to be back up in the State, and it is great to 
be here in Alaska and holding a hearing on the Arctic here. 
Most of the time we hold these hearings back in Washington, DC. 
We invite the Arctic experts from Alaska and from other places 
to participate, but there is so much that goes on within this 
region. And I am happy to be able to have Alaskans hear about 
them firsthand today. So this is a real opportunity for us, and 
I hope you all appreciate that.
    Now, before I offer brief opening remarks, I will take the 
opportunity to introduce our invited witnesses. We are 
privileged today to have Governor Sean Parnell join us this 
afternoon. Governor Parnell was elected to the State house of 
representatives back in 1992. He later went on to serve in our 
State senate. He was elected as Lieutenant Governor in 2008 and 
served with former Governor Sarah Palin, and then on July 26 of 
this year, Governor Parnell was sworn in as the 12th Governor 
for the State of Alaska. So I want to thank you and welcome 
you, Governor Parnell. I look forward to your testimony.
    We are also extremely privileged this afternoon to have the 
Commandant of the United States Coast Guard, Admiral Thad 
Allen, who is with us. Admiral Allen is the 23rd Commandant of 
the Coast Guard. He leads the largest component of the 
Department of Homeland Security comprised of nearly 90,000 men 
and women. Admiral Allen has a very illustrious background. He 
graduated from the U.S. Coast Guard Academy in 1971. His career 
has been filled with command both at sea and ashore. He has 
served as the commanding officer of Group Long Island Sound and 
captain of the port. He commanded Group Atlantic City and the 
Loran Station in the Kingdom of Thailand.
    Throughout his 38 years of service, Admiral Allen has 
demonstrated great leadership and certainly tremendous ability 
to effect change. We saw that in the aftermath of Hurricanes 
Katrina and Rita. He served as the principal Federal official 
for response and recovery operations and was the Chief of Staff 
of the Coast Guard after the tragedy of September 11, 2001. He 
was also responsible for leading Coast Guard forces as the 
Commander of the Atlantic Area and the U.S. Maritime Defense 
Zone Atlantic.
    Today Admiral Allen is leading the Coast Guard through 
significant modernization to better organize, train, equip, and 
deploy our men and women to meet the challenges of the 21st 
century. I thank you, Admiral Allen, and look forward to your 
testimony.
    Our second panel this afternoon is comprised of our Alaskan 
experts. The first witness will be Mr. David Benton. David is 
the executive director of the Marine Conservation Alliance 
based out of Juneau. He has got over 25 years of experience in 
national and international oceans governance issues. For about 
14 of those years, Mr. Benton represented the State of Alaska 
in international negotiations, and on national fisheries 
issues, he had a hand in negotiation of the majority of the 
international fisheries and oceans treaties that are enforced 
today in the North Pacific. Mr. Benton, it is a pleasure to 
welcome you here to the committee, and I might mention he has 
also served for 9 years on the North Pacific Fishery Management 
Council and was the first chair of the North Pacific Research 
Board which administers a comprehensive research program for 
the North Pacific, the Bering Sea, as well as the Arctic.
    Next on our second panel is Dr. Lawson Brigham. Dr. Brigham 
is a distinguished professor of geography and Arctic policy at 
the University of Alaska, Fairbanks. He is also a senior fellow 
at the Institute of the North here in Anchorage and at the 
Scott Polar Research Institute in the United Kingdom. From 2005 
to 2009, he was the chair and co-lead for the Arctic Council's 
Arctic Marine Shipping Assessment. He is a career Coast Guard 
officer. He served at sea and commanded four Coast Guard 
cutters, including a patrol boat. He has been on the Great 
Lakes icebreaker, a medium endurance enforcement cutter in the 
Atlantic, and the polar icebreaker, the Polar Sea. He has 
participated in many Arctic and Antarctic expeditions, 
including voyages aboard five different icebreakers.
    Next on our panel is Mayor Edward Itta of the North Slope 
Borough. Mayor Itta was elected mayor in November 2005, has 
been reelected in 2008, and over the past couple of decades he 
has served in a variety of leadership positions for regional 
government. He is President of the Inuit Circumpolar Council in 
Alaska, the U.S. arm of the international organization 
representing the world's Inuit people. He is the present local 
government representative for Alaska on the Outer Continental 
Shelf Policy Committee. He is past president and current member 
of the Barrow Whaling Captains Association and past 
commissioner and vice chairman of the Alaska Eskimo Whaling 
Commission and also a current member and an active whaling 
captain. It is a pleasure to have you with us this afternoon, 
Mayor Itta.
    And the final member of the panel is Mead Treadwell. Mr. 
Treadwell is currently the Chairman of the United States Arctic 
Research Commission. Mead was appointed to the Commission in 
2001 and was made chair by the President in 2006. Mr. Treadwell 
serves as a senior fellow at the Institute of the North, and he 
was previously with the Alaska Department of Environmental 
Conservation as Deputy Commissioner. He has represented the 
State of Alaska on U.S. delegations on three circumpolar 
government groups: the eight-nation Arctic Environmental 
Protection Strategy, the follow-on Arctic Council, and the 
Regional Governors Northern Forum. He is also a member of the 
board of the Alaska Science and Technology Foundation and on 
the board of the Prince William Sound Science Center and the 
Exxon Valdez Oil Spill Trustees Council's Policy Advisory 
Committee. So we welcome you, Mr. Treadwell.
    We are holding this hearing this afternoon to learn more 
about the significant changes that are occurring in the far 
north and how the United States must prepare for an ice-
diminished Arctic. We recognize that the Arctic is becoming 
more accessible due to a loss of summer sea ice and increases 
in technology, increased maritime activity relating to the 
transportation of goods, of oil and gas development, mineral 
extraction, tourism, as well as research, will demand new 
infrastructure and investment, as well as a greater presence in 
the region. So today's hearing will, hopefully, illuminate what 
some of these key issues will be.
    We recognize that the United States is an Arctic Nation 
because of Alaska and the region has always had great strategic 
value to the United States. Arctic policy must recognize new 
developments, including the impacts and the effects of climate 
change and the impacts of increased activity within the region, 
the significant energy and natural resources that have been 
identified, a growing understanding of the significance of the 
unique natural environment, and an increased awareness of the 
geopolitical importance of the Arctic.
    Now, I have recently introduced a couple bills in the 
Senate that will address some of the high priority needs that 
we have already identified. The first is based on 
recommendations of the Arctic Council's Arctic Marine Shipping 
Assessment. It is focused on developing maritime 
infrastructure. These include aids to navigation, port 
facilities, icebreaking escort, oil spill prevention and 
response, environmental monitoring, vessel tracking, and search 
and rescue capabilities.
    The second bill that we have introduced authorizes funding 
to monitor coastal changes and to provide for safe navigation 
by mapping Arctic waters, including our extended continental 
shelf.
    We are also working on the Federal funding for the 
refurbishment of one of our two existing heavy icebreakers in 
the Homeland Security appropriations bill. This recently passed 
the Senate. This funding will extend the service life of the 
Polar Star and allow it to join the Polar Sea in active duty in 
the Arctic, but it is not a long-term solution. I think we 
recognize that we must do more when it comes to our icebreaking 
capacity.
    The Arctic is unquestionably unique and the projections of 
an ice-diminished Arctic have profound implications for this 
region, its ecology, its environment, and its people. And how 
we address and adapt to these changes is truly the challenge 
and the opportunity that lie ahead.
    Again, I want to thank all of our witnesses for your 
attendance and your testimony today, and for those of you who 
have joined us within the audience and online, I hear a little 
bit of feedback there, but I think we can deal with that.
    With that, Governor Parnell, if we can start with your 
testimony, and I will state this to you and all of the 
witnesses. Your testimony will become part of the committee 
record. We ask that you summarize in any way but your full 
written statement will be included as part of the committee 
record.
    So with that, we will begin with you and, again, thank you 
for your appearance here today and your service to our State.
STATEMENT OF HON. SEAN PARNELL, GOVERNOR, STATE OF 
            ALASKA
    Governor Parnell. And thank you, Senator Murkowski. Thanks 
for hosting this field hearing in our State to address these 
important issues.
    The changing Arctic and the national policies really must 
form the basis of a new national Arctic doctrine of sorts. My 
hope is that the discussion today will inform development of 
that doctrine.
    Before I begin my remarks, Madam Chair, I too want to say 
thank you and recognize Admiral Allen of the U.S. Coast Guard 
and all the members of the Coast Guard and their families here 
in Alaska. Just this week, the Coast Guard helped save the 
lives of nine people in our State. And as I know you do too, we 
deeply appreciate the men and women who keep our coastline 
secure and our people safe. So I am here to say thank you as 
well to the Admiral and the members of the U.S. Coast Guard.
    As you know and as you said, Senator, Alaska is America's 
Arctic. It is our home. It is our history, our heritage, and 
our future. And Alaska is the only national link to the Arctic. 
The Arctic's abundant resources, human and natural, our 
strategic location, these all demand our attention. The people 
of Alaska understand and we eagerly accept our role in the 
advancement of national and international Arctic policy. We 
worked closely with the previous administration on national and 
homeland security directives outlining broad policies on the 
Arctic. We look forward to working with this administration and 
this Congress in the same way.
    So today I present Alaska's view of U.S. Arctic policies in 
five areas: our resources, national and homeland security, 
science, and foreign policy. In the Arctic, these policies are 
inextricably linked and must be acted upon jointly, and they 
have got to be discussed in the context of climate change.
    So let me begin by focusing on Alaska's resources, most of 
all, our human resources, Alaska's people. And make no mistake. 
Alaskans have been adapting for years. Changes in the Arctic 
affect us directly every day, and no one is more vested in 
Arctic policy than the people who subsist from the land, 
hunting, fishing, gathering, not just for food, but for 
survival of a culture. Collaboration with our Arctic residents 
is a must, and as Alaskans, we understand the need for that 
balance.
    Any conversation about the Arctic must also include 
Alaska's natural resources, our gold, zinc, coal, natural gas, 
and oil among them. These resources make the Arctic vital to 
American energy security. Alaska is America's Arctic energy 
bread basket. We have traditional and renewable sources of 
energy in staggering volumes here, and Alaska can play an even 
greater role in reducing the amount of oil and gas we import 
from abroad. We can be America's test bed for renewable and 
alternative energy sources.
    Offshore Alaska, the Beaufort and Chukchi Seas, those can 
be explored safely in the near term producing oil and gas for 
decades. Without these known traditional sources of energy, we 
risk higher-cost energy, higher taxes, and greater dependence 
on foreign oil. We can do this on our own soil. Let us not be 
led down the easy path to invest America's foreign aid dollars 
in exploration abroad. Let us keep it here. Let us keep it 
where Americans, where Alaskans can get the jobs and where 
environmental laws safeguard our land, seas, and wildlife.
    Turning to cleaner fuels, the State of Alaska is pursuing 
the construction of a natural gas pipeline. We want to bring 
the North Slope's abundant, clean natural gas to America's 
markets.
    We also remain fully committed to alternative and renewable 
energy. This is the place to field test every alternative. From 
wind turbines, to hydroelectric, to chip-fired systems that 
burn wood for fuel, Alaska is America's alternative energy 
center. I am confident that together we can bring traditional, 
renewable, and alternative energy to market and increase 
Alaska's contribution to our Nation's energy independence for 
years to come.
    Now let us turn to homeland security. Alaska is America's 
Arctic guardian. Our strategic location, resources, our people, 
these all compel strong funding for homeland security purposes. 
The Department of Homeland Security and its agencies have been 
strong partners in providing for the safety and security of 
Alaskans and our economy.
    The changing climate, diminished sea ice, as you have 
described, and increased military and commercial activity--
these require a greater Coast Guard presence. So I am here to 
seek funding for a new Coast Guard duty station or port on 
Alaska's western or northern coast. They need to move north and 
improve their capability. To provide homeland security, the 
Coast Guard must have new Arctic class icebreakers. In 
addition, the Department of Homeland Security and the Federal 
Emergency Management Agency must have authority to prevent 
long-term disasters, and I am talking about those that we can 
predict before they occur. Erosion threatens our communities. 
The Federal law was not written with such hazards in mind and 
does not provide the large-scale response these small 
communities need.
    So on to national security. As the summer ice retreats, 
opportunities for commerce, tourism, and transportation 
advance. As we have seen throughout the world's oceans, 
increased maritime traffic elevates both risks and threats. We 
can no longer assume that the Arctic is an impenetrable 
barrier. Instead, we have got to take steps to protect our 
Nation's people and our economy, our energy infrastructure. 
Alaska's strategic position as the northern crossroads also 
places us squarely between potential adversaries and the rest 
of the United States. So I am urging the Congress to support 
the ground-based missile defense system in Alaska and 
reconsider the proposal to scale back the placement of 
interceptors at Fort Greely.
    Turning to science, despite centuries of exploration and 
study, much about the Arctic remains a mystery. Standard 
weather and climate models are not sufficient for understanding 
and predicting trends and patterns. New models require fresh 
data and up-to-date research. The State of Alaska strongly 
supports the National Oceanic and Atmospheric Administration 
and its initiatives to improve its observations and research 
across the Arctic and to develop innovative models for 
forecasting weather. In the Arctic--this is something you can 
appreciate, Senator. The Arctic literally needs to be put on 
the map. Scientific research and economic exploration are set 
back by low-quality, decades-old mapping data. We need high-
quality maps of the Arctic, both land and sea.
    So turning now to foreign policy, for much of our history, 
the Arctic has been both ungoverned and ungovernable. Those 
days are over. Arctic nations have stepped up economic and 
military activity in the region. I am going to strongly urge 
the Senate to ratify the U.N. Convention on the Law of the Sea. 
Once ratified, the treaty will allow us to claim jurisdiction 
over the outer continental shelf behind the 200-mile limit. 
U.S. boundaries could grow into areas that may hold large 
deposits of oil, natural gas and other resources. Russia, 
Canada, Denmark, and Norway already have claims to Arctic 
territory, and we need a seat at the table.
    Climate change. Alaskans know this land. We deal with it 
every day. Some of our residents deal with the changes in the 
Arctic ice every day. The timing, extent, and nature give us 
all cause for concern. To define and address these concerns, we 
have formed the Climate Change Subcabinet to respond to 
immediate needs in rural villages and plan for future needs as 
well. And the subcabinet has turned recommendation into action. 
We are now working on coastline stabilization, emergency and 
evacuation planning, hazard mitigation planning, and training 
and exercises for the communities that need help most. And I 
want to say thank you to our Federal partners for their help in 
this process.


                           prepared statement


    So in conclusion, I just applaud you, Senator, for bringing 
this hearing to Alaska. These policies will have a profound 
effect on the Nation and on our State for generations. Alaska 
and the U.S. Government share a policy that is balanced and 
recognizes the diversity the Arctic offers. It highlights the 
Arctic's unique characteristics and consequent need for unique 
treatment. So I urge the Congress and the administration to 
continue the good work on Arctic policies. I encourage the 
development of a national Arctic doctrine that includes all 
stakeholders in the future of the Arctic. Alaska will 
participate and Alaska will contribute.
    Thank you.
    [The statement follows:]

                Prepared Statement of Hon. Sean Parnell

Introduction
    Thank you, Senator Murkowski, for this opportunity to address the 
Homeland Security Subcommittee of the Senate Appropriations Committee 
on one of the greatest challenges facing the Nation and the State of 
Alaska--the changing Arctic and the national policies necessary for its 
understanding, its protection, and its responsible development.
    Before I begin my remarks, Madam Chair, I would like to take a few 
moments to recognize and thank Admiral Thad Allen, Commandant of the 
United States Coast Guard, and all the members of the Coast Guard for 
their bravery and hard work in Alaska.
    Just this week, the Coast Guard helped save the lives of nine 
people in Alaska. A Coast Guard helicopter found two missing adults and 
a child near Ketchikan. With help from Alaska State Troopers, family 
and friends, the Coast Guard rescued another six people when a 20 foot 
pleasure boat overturned at Tee Harbor near Juneau. Unfortunately, one 
person lost their life in that incident. My thoughts and prayers are 
with his family and we deeply appreciate the men and women who keep 
America's coastlines safe and secure.
    As you know Senator Murkowski, Alaska is America's Arctic--it's our 
home, our history, our heritage, and our future. And Alaska is the only 
national link to the arctic and the only state that shares a border 
with two other arctic nations. Arctic policies affect every state and 
every citizen--Alaskans most of all, not just because of our strategic 
location on the globe--but because of what we have to offer. The 
Arctic's abundant resources; human and natural, and our strategic 
location for national security demand our attention. The people of 
Alaska understand and eagerly accept our role in the examination and 
development of national Arctic policy.
    We worked closely with the previous Administration on National and 
Homeland security directives outlining broad policies on the arctic. We 
hope to continue that collaboration with this Administration and 
Congress.
    Today, I present Alaska's view of U.S. Arctic policies in five 
areas: Resources, national and homeland security, science, and foreign 
policy. In the Arctic, these policies are inextricably linked. And, 
while I describe these issues individually, it is vital that this 
committee and the administration understand and act on them jointly. 
Domestic energy supplies support national and homeland security. 
Security enables development and protects the environment. Foreign 
policy enables international participation in scientific research. This 
must all be discussed in the context of climate change and how Alaska 
is adapting in light of Arctic policy.
Resources
    Let me begin by focusing on Alaska's resources--most of all, our 
human resources--Alaska's people. Make no mistake, Alaskans have been 
adapting for years. Changes in the Arctic affect us directly, every 
day. No one is more vested in Arctic policy than the people who subsist 
from the land--hunting, fishing and gathering, not just for food, but 
for the survival of their culture. Collaboration with our Arctic 
residents and local governments, is a must. Alaskans understand the 
need for balance.
    Any conversation about the Arctic must also include Alaska's 
natural resources--coal, gold, zinc, silver, copper, natural gas and 
oil. These resources make the Arctic vital to American energy security. 
Alaska is America's Arctic energy breadbasket. We have traditional and 
renewable sources of energy in staggering volumes here. Alaska can play 
an even greater role in reducing the amount of oil and gas we import 
from abroad. And we can be America's test-bed for renewable and 
alternative energy sources.
    The onshore Arctic areas, such as the NPR-A and the coastal plain 
of ANWR, hold great promise.
    Alaska is home to the Trans Alaska Pipeline System, which carries 
685,000 barrels of oil a day to the lower 48 States. This major supply 
of oil is key to our national energy security.
    Offshore Alaska, the Beaufort and Chukchi Seas, can be explored 
safely in the near-term, producing oil and gas for decades. Without 
these known, traditional sources of energy, we risk higher cost energy, 
higher taxes, and greater dependence on foreign oil. We can do this on 
our own soil. Let us not be led down the easy path to investing 
America's foreign aid dollars in exploration abroad. Let's keep it 
here--where Americans can get the jobs, and where environmental laws 
safeguard our land, seas, and wildlife.
    Putting the brakes on domestic energy production does not prevent 
global warming or end threats to species. Instead, delaying responsible 
exploration and development increases the problem by shifting resource 
extraction to less environmentally preferred fuels and locations.
    Turning to cleaner fuels, the State of Alaska is also pursuing the 
construction of a pipeline to bring the North Slope's abundant, clean 
natural gas to American markets. We have two competing private sector 
groups working diligently to permit a natural gas pipeline that can 
deliver 4.5 billion cubic feet of natural gas a day to the continental 
United States. Again, if we can turn on the supply of clean, American 
natural gas--from Alaska--we will reduce our dependence on imports and 
bring less expensive energy to homes across America.
    Unfortunately, current language in proposed climate change 
legislation would likely make the project uneconomic and would lead to 
the use of higher cost fuel sources before technology catches up.
    Alaska remains fully committed alternative and renewable energy, as 
well. This is the place to field test every alternative. From wind 
turbines, to hydro-electric, to chip-fired systems that burn wood for 
fuel--Alaska is America's alternative energy center.
    I am confident that together we can bring both traditional, 
renewable and alternative energy to market and increase Alaska's 
contribution toward our Nation's energy independence for years to come.
Homeland Security
    Alaska is America's Arctic Guardian. Our strategic location, 
resources and people compel strong funding for homeland security. The 
Department of Homeland Security and its agencies have been strong 
partners in providing for the safety and security of Alaskans and our 
economy.
    Melting sea ice and increased military and commercial activity 
require a greater Coast Guard presence. The Coast Guard needs to move 
north and improve its capability--our heavy ice-class icebreakers are 
on their last legs. To provide homeland security--the Coast Guard must 
have new Arctic-class ice breakers equipped for search and rescue 
missions, border protection, law enforcement, fisheries enforcement, 
infrastructure and environmental protection.
    Support for funding for those icebreakers is up to this committee. 
We need to fund a new Coast Guard duty station or port on Alaska's 
coast between Nome and Barrow to meet the new challenges of the Arctic.
    The Coast Guard needs to keep the promise of the Oil Pollution Act 
of 1990 and establish a research program for the Arctic. With 
information in hand, we can continue to work with the Coast Guard to 
improve our ability to prevent and respond to oil spills in the region.
    In addition, The Department of Homeland Security and the Federal 
Emergency Management Agency must have authority to act on disasters we 
can predict, not just those looming around the corner or the one we 
currently face. In western and northern Alaska, the sea ice no longer 
shields the coast from fall storms. The resulting erosion threatens the 
sustainability of some communities. The Federal law was not written 
with such hazards in mind and does not provide the mount the large-
scale response these small communities need.
    Exploration and development will bring more coastal and maritime 
infrastructure such as ports, repair facilities, fuel depots, 
pipelines, and transportation. These assets will need effective, 
enforceable security buffer zones to ensure continuity under all 
hazards.
National Security
    As the summer ice retreats, opportunities for commerce, tourism and 
transport advance. Already we see more mineral, oil and gas 
exploration--more vessel traffic and science missions. As we have seen 
throughout the world's oceans, increased maritime traffic elevates both 
risks and threats. Currently, the North Slope Borough and oil and gas 
producers on the slope, fill much of that void. We need the Federal 
Government to step in. We can no longer assume that the threat from the 
north to our oil production fields is not real. We can no longer assume 
that the Arctic is an impenetrable barrier.
    The United States must increase national focus on the Arctic, add 
resources to collect scientific data, and increase Coast Guard presence 
to address these new challenges and opportunities. This will provide 
the ability to develop the American Arctic's vast natural resources and 
is critical for the protection of strategic national infrastructure and 
assets.
    Alaska's strategic position as the northern crossroads also places 
us squarely in line between potential adversaries and the rest of the 
United States. I urge the Congress to support the ground-based missile 
defense system in Alaska and reconsider the proposal to scale back the 
placement of interceptors at Fort Greely. We play a critical role in 
national security and in the security of American allies.
Science
    Despite centuries of exploration and study, much about the Arctic 
remains a mystery. Standard weather and climate models are not 
sufficient for understanding and predicting trends and patterns. New 
models require fresh data and up-to-date research.
    The State of Alaska strongly supports the National Oceanic and 
Atmospheric Administration and its initiatives to improve its 
observations and research across the Arctic and to develop innovative 
forecasting models for next week's weather and next century's climate.
    I encourage scientific collaboration among the academic world, the 
Arctic nations, and non-governmental organizations to improve our 
understanding of fisheries, marine mammals, land animals and vegetation 
in the Arctic ecosystem. This research must be open and rigorous.
    The State continues its support of the use of unmanned aerial 
systems for Arctic operations and research. The Alaska Aerospace 
Development Corporation and NOAA are working on a plan for how best to 
make that happen. The technology exists; the stakeholders are ready; 
but the current regulations are inflexible and outdated.
    And the Arctic, literally, needs to be put on the map. Scientific 
research and economic exploration are set back by low quality, decades-
old mapping data. There is no accurate baseline to measure change, to 
identify trends and patterns, or predict potential outcomes. We need 
high quality maps of the Arctic--both land and sea. Funding for such 
priorities should not be based on population density, but instead on 
current and future strategic economic and environmental values.
Foreign Policy
    For much of its history, the Arctic has been both ungoverned and 
ungovernable. Even as the eight Arctic nations have increased economic 
activity, the Arctic climate has impeded economic and social 
development, transportation, and research. That era must end.
    I strongly urge the Senate to ratify the United Nations Convention 
on the Law of the Sea. Once ratified, the treaty will allow us to claim 
jurisdiction over the offshore continental shelf behind the 200-mile 
limit. U.S. boundaries could grow into areas that may hold large 
deposits of oil, natural gas and other resources. Russia, Canada, 
Denmark, and Norway have claims to Arctic territory under the auspices 
of the Law of the Sea. Without ratification, the United States. cannot 
fully participate in adjudication of these claims.
Climate change
    Alaskans have extremely close ties to the land and the sea and are 
sensitive to their subtleties and variability. The changes in the 
Arctic ice--their timing, extent, and nature--give us cause for 
concern.
    To define and address these concerns, Governor Palin formed the 
Climate Change Subcabinet to respond to immediate needs in rural 
villages, plan for the long term and determine research needs and the 
sub-cabinet has turned recommendation into action. We're now working on 
coastline stabilization, emergency and evacuation planning, hazard 
mitigation planning, training and exercises for the communities most in 
need.
    The Climate Change Strategy is in the final stages and will be 
presented to me this fall. We've had noteworthy partnerships with 
several Federal agencies in this process, and we look forward to 
continued work with the Federal Government as we address climate 
change.
Conclusion
    In conclusion, I applaud you, Senator Murkowski, on bringing to 
Alaska this hearing on the strategic importance of the Arctic in U.S. 
policy. These policies, whether long-standing or emerging, will have a 
profound effect on the Nation and on Alaska for generations. We must 
take a balanced approach to protect our food sources, thousands of jobs 
and the energy security provided by Alaska's oil and mineral 
development.
    Alaska and the U.S. government share a policy that is balanced and 
recognizes the diversity the arctic offers. And it highlights the 
Arctic's unique characteristics and consequent need for unique 
treatment.
    I urge the Congress and the Federal Administration to continue the 
good work on Arctic policies and encourage the development of a 
National Arctic Doctrine that includes all stakeholders in the future 
of the Arctic. Alaska will participate and Alaska will contribute. We 
are eager to work with Congress to manage all our resources.
    On taking office last month, I asked Alaskans and myself several 
questions: In the next 50 years, will Alaska move forward, or will time 
pass us by? Will each of us be a vital player, or will we stay on the 
bench? Will we just survive, or will we choose to thrive?
    Today Alaskans join me in stating that our state--and our nation--
must not be idle and passive; that we must not drift; that we must 
choose our destiny and work hard, as well, to achieve it.
    The Arctic is our future. We choose to move forward, and we choose 
to thrive.
    Thank you for your leadership and your service to our great State 
and to our Nation

    Senator Murkowski. Thank you, Governor. I appreciate your 
comments and not editorializing, because I do want to make sure 
that we have got time for questions from the full panel, but I 
appreciate your singling out what we in Congress can do in 
terms of advancing the Law of the Sea Treaty. I think we 
recognize that for purposes of just identifying that which we 
believe rightfully should be ours is important. And until we 
sign on and we ratify the Law of the Sea Treaty, we are at a 
disadvantage, but we are also at a disadvantage if we fail in 
our own mapping efforts. I know those of you who have been 
looking at this recognize that when we do not know what is out 
there, it puts us at a distinct disadvantage. So a couple 
points there.
    I wanted to ask you specifically. You have mentioned the 
national Arctic policy or directive and have indicated your 
support for that effort and the State's willingness to 
certainly be a participant. Do you believe that the State needs 
to have its own Arctic policy? Or how do we mesh the 
initiatives at the State level with what we advance from a 
national perspective?
    Governor Parnell. I think inherently Arctic policy is a 
national and international undertaking which effectively 
resides with the Federal Government. I think, though, that 
because our people and our State are impacted by that Arctic 
policy, I think the State deserves and needs a seat at the 
table. So my hope is to be an active participant as a State and 
as individuals in the State in development of that Arctic 
policy.
    Senator Murkowski. A couple of different things that are 
going on at the State level. You have mentioned the Climate 
Change Subcabinet and the fact that they have reported out with 
a series of recommendations. You have also mentioned the work 
that is going on with coastline stabilization and the efforts 
there. One of the things that I think we appreciate is that as 
we see erosion continue and continuing at an accelerated level 
in certain areas, it is more than just putting some additional 
riprap in. It is significant work. It is expensive to do. And 
at the Federal level, we are grappling with how we move forward 
with such an extensive initiative. I was able to recently 
restore the reauthorization that is necessary for the Army 
Corps of Engineers, the authority to make sure that they can 
move forward with that.
    But this is an area where I think from both the State and 
the Federal perspective we have got a lot of work to be doing 
together, and I would like just your feedback on how we can 
both be working to provide for a level of security and 
protection.
    Governor Parnell. I think we can do it in several ways, and 
I think we are doing it. One, I said that Alaska wants to 
participate and contribute, and I think we are full-on partners 
in that. So, for example, within the last year and a half, the 
Governor's office had requested about $24 million from the 
legislature for coastal erosion stabilization efforts. The 
legislature appropriated about $15 million of that request. So 
we are a financial partner in the effort. When it comes to 
individual communities, we are working hand in hand with 
Federal agencies to get the job done to protect our 
communities, and I think you are going to see that continue.
    Senator Murkowski. I have actually got an opportunity to go 
out tomorrow to Newtok to see how we are helping to move a 
community. I think one of the beautiful examples that we have 
with Newtok is it is a community that has taken initiative, but 
they are working with all of the different partners to help 
facilitate. The military is helping with the emergency 
evacuation. The State is a participant. The Feds are a 
participant. Everyone who is a stakeholder is engaged and is 
involved in really telling a good story with Newtok.
    Governor Parnell. Senator, can I just expound on that just 
for a moment?
    Senator Murkowski. Certainly.
    Governor Parnell. I think that is a wonderful example of 
Federal coordination, and we are grateful to the U.S. marines, 
the U.S. Navy for participating in that effort with us, with 
the Federal and State government, as well as working very 
closely with the local residents on that move.
    I also want to point out that it does not necessarily take 
a relocation effort. Sometimes these challenges look bigger 
because we take them in big chunks by saying we have to move a 
village. And that may be true over time, but we can also take 
significant steps to protect the life and safety of our 
residents. So, for example, with another village that is 
threatened by erosion, we might work together on an evacuation 
route, a road out of the village inland so that they can have 
safety from the weather. That, in turn, will lead to perhaps a 
new school, which in turn will draw village residents to a 
different location. So if we can work together to take these 
large problems, break them down into manageable sizes, and work 
together with the communities, I think we will have a win-win 
together.
    Senator Murkowski. Appreciate it. Thank you for your 
testimony, Governor. Thank you for being here today. We look 
forward to working with you on these issues and so many more.
    With that, I would ask you, Admiral Allen, to join us at 
the table.
    And for those of you that are on the line--I believe it is 
just various media outlets--I would ask you to please put your 
microphones on mute. We are picking up a lot of feedback and it 
is quite disruptive. So if you can all check your mute buttons 
and be quiet.
    Make sure you have got something that works there, Admiral. 
If you would please go ahead. Again, thank you and welcome.
STATEMENT OF ADMIRAL THAD W. ALLEN, COMMANDANT, U.S. 
            COAST GUARD
    Admiral Allen. Well, thank you very much, Senator. I do 
have a statement for the record. I would like to submit that 
and would make some opening comments. I actually had prepared 
an oral statement within the 5 minutes, but I thought it might 
be more instructive to tell you what I have done this week.
    Senator Murkowski. Great.
    Can I just ask again, those of you that are on the line to 
please make sure that your microphones are off. We are still 
picking up feedback. We will see if that gets it. Thank you, 
sir.
    Admiral Allen. Thank you, ma'am. Also, I want to thank you 
for two things. Number one, it is 92 degrees in Washington 
today. I am glad to be here.
    Senator Murkowski. We are glad to have you.
    Admiral Allen. I believe this is the first hearing I have 
ever done in my operational duty uniform. I just flew in from 
Dead Horse, so thank you for that as well.
    I left Washington on Monday morning. I come to Alaska every 
summer, mostly in August, to see how our forward-deployed 
personnel are doing on the North Slope. And this is our third 
year of doing that. This year, I thought it would be good to 
take a ``whole of government'' approach in doing that, and so 
while they are not here with me--they are fanned out across the 
State as we speak--I took with me on the plane Dr. Jane 
Lubchenco, the Administrator of NOAA and Under Secretary of 
Commerce. We had Deputy Secretary David Hayes from Interior and 
Nancy Sutley, Chairman of the Council on Environmental Quality, 
and Heather Zichal, who is the Deputy Advisor to the President 
and works for Carol Browner focusing on climate and energy 
issues.
    We flew into Nome and met with Mayor Michaels. We got on 
three helicopters and flew up to the village of Shishmaref. I 
met with the mayor there. We looked at the coastal erosion and 
the impact of climate change on that village, and you have just 
discussed that with the Governor here.
    One of the reasons we went there is that this summer we 
decided to make a difference in the forward deployment. We 
reached out to the communities and said, ``What do you need 
from us? We provide access. We bring people, and we bring 
equipment up here. Is there something else we could be doing?'' 
And we found out there are some things we could be doing at 
very low cost that would have a significant impact on the 
communities.
    In combination with our other services--this includes the 
Army, the Air Force, the National Guard, the Air Guard and the 
Navy--we have deployed medical teams to take care of dental 
work to help with the clinics. Our big surprise is the amount 
of popularity we have had for bringing veterinarian services to 
the North Slope especially in taking care of some issues 
related to rabid foxes and the dogs and the animals that are so 
important to our communities up there. It was clear to us that 
this is resonating, and it is clear to us that for a very small 
amount of money, you can leverage the resources you have and 
have a very large impact.
    We left Nome and went to Fairbanks and got a briefing from 
the University of Alaska at Fairbanks on changes in climate, 
some of the studies that are going on there, and the great work 
that is happening there.
    I had a chance myself to go out to Fort Greely. I looked at 
the ground-based missile interceptors and had a great 
conversation out there. The Coast Guard is involved in that 
work regarding the sea-based X-band radar and some of the work 
that is going on down at Kodiak. So that really helped to fill 
my knowledge out.
    We then went up to Barrow. We met with Mayor Itta, the 
elders, and the Alaska Eskimo Whaling Commission and looked at 
the issues up there. Again, we saw the immediate feedback from 
putting veterinary services and other services up there in the 
summer.
    I was over at Dead Horse this morning. I am down here right 
now.
    As you know, for the past three summers, we have moved 
forces to the North Slope. We know--and I like your term 
``diminished ice.'' There is always ice somewhere up there, 
ma'am, and we all know that. I am sure it is not appreciated 
elsewhere. We have had deployed forces up there for 3 years in 
a row, and we are learning. We are in the process of doing a 
northern latitude requirements study in the Coast Guard right 
now; the first phase of which will be done later on this year. 
Some things we are learning are that our traditional small 
boats do not operate well off the North Slope as far as 
launching and recovery, and we have much to learn from the 
Eskimo natives that operate up there, and we are talking with 
them every summer. We have long-range communications problems 
with our helicopters because of the lack of infrastructure, 
especially in high frequency nets, which we have to use to 
communicate and assure our assets are being safe. And as has 
already been stated, there are navigational challenges up there 
because there is lack of mapping data, and Automatic 
Identification System navigation is an issue moving forward, 
too.
    We continue to refine what we need to do up there. We will 
continue to deploy and operate up here every summer. I think 
the real question before us, as the Governor and everybody whom 
I have talked to has alluded, is: How do we transition from 
mobile deploying forces, seasonally to making a better 
footprint up there, not only for ongoing operations year round 
but to surge if something were to happen up there. With the 
increased shipping and use of the Arctic waters up there, 
whether it is ecotourism, increased traffic-related oil or gas 
exploration, we need to be able to carry out the responsibility 
the Coast Guard has in the Lower 48 regarding law enforcement, 
search and rescue, environmental response, and so forth.
    We hope sometime in the next 6 months to start putting 
together a requirements document that will generate what we 
really need to operate up there. We know that on the water, our 
small boats are not what is needed up there. Some other 
vehicle, whether it is an air boat, a hover craft, or something 
we are going to have to look at to be able to provide the right 
access and be able to operate on the water up there. Again, the 
type of helicopter and the communications are going to be an 
issue as well.
    If I was to summarize the Coast Guard's view of the Arctic 
and the strategic issues associated with that, I would probably 
give you four issues, ma'am.
    The first one has already been alluded to, and that is to 
maintain our current capability so we do not erode our ability 
to respond to an incident that occurs up there. Right now, as 
you know, there are three icebreakers in the Coast Guard 
inventory, and that is America's inventory. One is an ice-
strengthened research vessel, the Coast Guard cutter Healy, 
which is deployed as we speak to collect data for a potential 
claim beyond the continental shelf when we ratify the Law of 
the Sea Treaty.
    However, we have one icebreaker that is operational, the 
Polar Sea. The Polar Star has been laid up, and we are 
currently going through an evaluation of that to complete 
repair as we have been appropriated about $30 million. The ship 
was dry-docked recently, and we are generating a work list. It 
should be done sometime in the next 4 to 6 weeks. That will 
allow us to proceed and tell us what needs to be done. And as 
you have noted, the Senate has added $32 million in its 
appropriations this year.
    I have been asked several times what would it take to put 
the Polar Star back in operation, and the answer is the 
combination of those 2 foot mounts and about $62 million. And 
it would take time to make a long-term decision about where we 
need to go with icebreakers.
    We are not presupposing a decision to build icebreakers. 
What we need to do is to build a valid set of requirements 
based on better knowledge of what is happening up there, but in 
the meantime, our goal is to maintain current readiness and not 
let that degrade any further than it has.
    The second issue for us, as I have already alluded to, is 
to engage with our native partners up there and conduct 
operations. We will be up there in the summers. That will be 
for the foreseeable future. And then the goal is to transition 
to whatever we need to do after that. I say whatever we need 
because I think those requirements need to be solidified, but 
we should not take too long to do that. I think the next 6 to 
12 months should tell us something about that.
    The third issue would be, without being too glib, we need a 
``whole of government'' approach rather than a ``whole in 
government'' approach, rather than working by ourselves, 
digging out of our own holes. It is nice to be up here with all 
our partners traveling around the State, but it is also nice to 
see the various services out there operating together. 
Collectively with small contributions, they are generating 
tremendous, tremendous return on investment up there not only 
for us in terms of experience and making our people better 
leaders and better technically skilled people but also because 
of some of the invaluable services they bring to the people up 
there.

                           PREPARED STATEMENT

    And the fourth issue, as I have alluded to already, would 
be to generate solid mission requirements, based on data, to 
understand what it is we need to do up there in terms of 
effects. We can talk about a forward station. We can talk about 
a helicopter, but what we really need to do is to be able to 
respond to a search and rescue case, deal with an oil spill and 
deal with emerging homeland security or law enforcement issues 
up there, and I think we need to figure out what capability it 
is going to take to do that without presupposing the outcome. 
We will generate the right requirements, and hopefully at that 
point we will gain the support and the resources we need to 
effect that.
    I want to thank you again for having us here, ma'am, and 
thank you for your continuing support. And I would be happy to 
answer any questions.
    [The statement follows:]

              Prepared Statement of Admiral Thad W. Allen

    Good afternoon, Senator Murkowski. I'm pleased to be here today to 
discuss the Coast Guard's Arctic presence.
                   icebreaking capacity in the arctic
    Just over a year ago, I testified before Congress on Coast Guard 
icebreaking. I stressed the importance of maintaining our Nation's 
ability to project maritime presence and strength throughout the world, 
and specifically the Arctic region. In the past year, arctic policy was 
further defined by National Security Presidential Directive (NSPD) 66/
Homeland Security Presidential Directive (HSPD) 25 on Arctic Region 
Policy. This Directive provides specific policy objectives while 
acknowledging the effects of climate change and increased human 
activity in the Arctic region. In executing this direction, we must be 
prepared to address the impacts of more open water, an increasing 
population of maritime users operating in a fragile and challenging 
environment, and assertion of claims to the vast natural resources of 
the region. The Coast Guard, through the Department of Homeland 
Security and with the Departments of State and Defense must work to 
improve maritime domain awareness, preserve the global mobility of 
United States military and civilian vessels and aircraft, and project a 
sovereign United States maritime presence in the Arctic region.
    To that end, the Coast Guard has continued expansion of its 
operations in Arctic waters during open water periods while also 
ensuring its multi-mission capacity is available to support execution 
of Coast Guard responsibilities year round. As you know, the Coast 
Guard has three polar icebreakers, two of which are currently 
operational. The HEALY, a medium icebreaker, is capable of all Arctic 
operations and is specifically adapted for scientific research. She is 
currently operating in the Arctic conducting hydrographic mapping of 
the U.S continental shelf. Polar Sea, which is one of our two heavy 
icebreakers, is capable of all operations in the Arctic and Antarctic 
regions. She will conduct an Arctic West Patrol early this fall to 
support national science missions. The Coast Guard's third icebreaker 
and other heavy icebreaker, Polar Star, is not operational since being 
placed in ``caretaker'' status in 2006. Polar Star recently came out of 
dry dock in Seattle as part of ongoing engineering assessments being 
conducted as part of the project funded in the 2009 Appropriations Act. 
These three ships represent our Nation's current icebreaking capacity 
in the Arctic region.
                             arctic trends
    The Arctic environment is dynamic. Observations and trends have 
been reported that could increase the intensity of our operations and 
impact our access requirements:
  --Dynamic Changes in Ice Conditions.--The steady recession of the ice 
        edge continues to open new water in the summer months. As such, 
        dangers to shipping may increase because of the dynamic and 
        unpredictable movement of ice.
  --Expanding Resource Development.--Based on assessments by the U.S. 
        Geological Survey, there have been projections that an 
        estimated 22 percent of the world's oil and natural gas could 
        be located beneath the Arctic with some portion of 
        undiscovered, technically recoverable resources located within 
        the U.S. Exclusive Economic Zone (EEZ). Reflective of this 
        value, oil companies bid nearly $2.7 billion for Chukchi Sea 
        mineral rights.
  --Eco-tourism.--This industry continues to expand as cruise ships, 
        carrying hundreds of passengers, test the limits of safe 
        navigation in Arctic waters. To date, we have already observed 
        an increase by one in the number of adventure cruises from last 
        year's for Northwest Passage Transits. Two cruise ships 
        recently transited the Northwest Passage, one from the east and 
        one from the west with 164 and 184 passengers respectively.
  --Fish Stock Migration.--As the ice edge recedes and water 
        temperatures change, the North Pacific Fishery Management 
        Council reports an increase in fish stocks being caught to the 
        north. As a result, fishing vessels have been observed moving 
        further north, which could lead to increased foreign incursions 
        into the U.S. EEZ.
  --Sovereignty Claims.--With the increased level of open water comes 
        more ability to research and map the oceans floors. This 
        research, including hydrographic surveys and bottom sampling 
        may serve as precursors to international sovereignty claims to 
        extended continental shelves pursuant to the Law of the Sea 
        Convention.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                         national arctic policy
    The United States is an Arctic nation. As the ice edge continues to 
recede in the summer, the extent of navigable waters increase. As we 
adjust to this dynamic, it is critical to recognize the Arctic Region 
as environmentally fragile, rich in natural resources, and of 
significant national importance and international interest. We must be 
prepared to meet current and future demands. The objectives established 
in the Arctic Region Policy include:
  --Meeting national security and homeland security needs relevant to 
        the Arctic Region.
  --Protect the Arctic environment and conserve its biological 
        resources.
  --Ensuring natural resource management/economic development are 
        sustainable.
  --Strengthening institutions for cooperation among the eight Arctic 
        nations.
  --Enhancing scientific monitoring and research into environmental 
        issues.
  --Involve the Arctic's indigenous communities in decisions that 
        affect them.
    As Commandant, I believe the the Coast Guard's eleven statutory 
missions may have a significant role in supporting many of the 
objectives established in NSPD-66/HSPD-25.
    Additionally, the multi-nation Arctic Marine Shipping Assessment 
(AMSA) published in April 2009 provided a comprehensive assessment of 
the current uses and future impacts of increased accessibility and 
maritime activity in the Arctic. The report concluded that safe, 
secure, and environmental sound maritime commerce in the Arctic region 
will depend on adequate infrastructure to support shipping activity, 
search and rescue capabilities, short and long range aids to 
navigation, high-risk area vessel-traffic management, iceberg warnings, 
shipping standards, and comprehensive measures to protect the marine 
environment.
     supporting execution of the national arctic policy objectives
    One thing is certain today regarding the Arctic, there is more 
navigable ocean during summer months where there used to be ice, and 
the Coast Guard has statutory and regulatory responsibilities in that 
ocean. The Coast Guard is the Nation's primary maritime safety, 
security, environmental protection and law enforcement agency. As such, 
we hold a significant responsibility in executing the Arctic Region 
Policy. In order to better perform our anticipated role, we are 
developing an Arctic Strategic Plan (ASP) to ensure the Coast Guard is 
both prepared and able to engage and conduct statutory operations in 
the Arctic. From my perspective, in addition to our existing mission 
demands, the Coast Guard must actively participate in the multi-agency 
effort to address current and future challenges associated with the 
Arctic.
Meeting Homeland Security Needs in the Arctic
    As part of a multi-agency effort to implement the Arctic Region 
Policy, we continue to push forward and assess our Arctic limits. In 
the summer of 2008, we established Forward Operating Locations (FOL) on 
the North Slope. We employed Coast Guard small boats, helicopters, and 
Maritime Safety and Security Teams (MSSTs) in Prudhoe Bay, Nome, and 
Barrow to increase maritime domain awareness and test capabilities in 
the Arctic environment. We will continue those efforts later this 
summer, when there is the most open water, by redeploying Forward 
Operating Location bases in most of the same places. Currently, these 
FOLs operate on a limited basis due to weather conditions, distances, 
and a lack of shore based infrastructure. We will institute changes 
based on lessons learned last year, as we continue to develop and 
refine our knowledge base on operations in the Arctic.
    To evaluate activity trends in the Arctic, the Coast Guard 
commenced extensive Arctic Domain Awareness flights. Coast Guard C-130 
Flights originated out of a temporary Forward Operating Location in 
Kotzebue last summer and will continue later this summer. These flights 
help develop a complete awareness of all private and governmental 
activities in the Arctic.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Protecting the Maritime Environment
    To help protect the critical, pristine and fragile environment of 
the Arctic Region, we must continue to support pollution response 
capabilities in the region. Recognizing that oil spill clean-up is 
significantly more difficult in colder temperatures and ice-covered 
waters, enhancing prevention measures is even more critical as a means 
to mitigate risk. Moreover, the combination of a harsh environment and 
limited response resources and capabilities necessitates that 
awareness, contingency planning, communications amongst stakeholders 
are effective and efficient.
    While prevention is critical, so is response capability. We 
continue to exercise the vessel of opportunity skimming system (VOSS) 
and the Spilled Oil Recovery System (SORS) in the Arctic. Both of these 
systems enable vessels to collect oil in the unfortunate event of a 
discharge. The VOSS is deployable and capable of being used on a 
variety ships and the SORS is permanently stored and deployed from the 
225 buoytenders. The VOSS has been exercised in the Arctic on the Polar 
Sea and the SORS will be exercised on SPAR later this summer.
    To better understand the impact the northward movement of fish 
stocks into the Arctic will have on sustainability, a regional 
management plan is needed. The North Pacific Fisheries Management 
Council imposed a moratorium on fishing within the U.S. EEZ in the 
Arctic until assessment of the practicality of sustained commercial 
fishing in the region is completed. Regardless of the outcome of the 
assessment and follow-on management plan, it is certain the Coast Guard 
will play a critical role in its enforcement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Facilitating Safe, Secure, and Reliable Navigation
    With the deployment of the Coast Guard buoy tender SPAR to the 
Arctic last year the Service began an in-depth Waterways Analysis 
Management Survey (WAMS). This ongoing survey applies criteria 
described in the AMSA to assess safe shipping routes, aids to 
navigation, and vessel routing and traffic system requirements in the 
Arctic.
Supporting Multi-Agency Arctic Region Policy Implementation
            Strengthen Cooperation's Among the Eight Arctic Nations
    The Coast Guard continues to support international and multilateral 
organizations, studies, projects, and initiatives. Some key groups, 
projects and legal frameworks include the Arctic Council, AMSA, 
Ilulissat Declaration (2009), and the U.N. Convention on the Law of the 
Sea (UNCLOS), to which the United States has not yet acceded. In April 
2009, Coast Guard District Seventeen and the Canadian Coast Guard held 
a Joint Maritime Pollution Contingency Plan Table Top Exercise for oil 
spill responses in the Beaufort Sea. Consistent with such efforts, the 
Coast Guard will continue to engage Arctic Nations and international 
organizations to identify and meet current and future challenges 
associated with the Arctic.
            Involve the Arctic's Indigenous Communities in USCG 
                    Decisions That Affect Them
    Some of our biggest successes and lessons for the way forward have 
come from our continued engagement with Alaska Native Tribes. Their 
knowledge, assistance and collaboration have been invaluable to our 
safe operations and initiatives. For instance, we conducted boating 
safety exchanges and provided medical and dental outreach programs 
while operating in remote villages on the North Slope. We will continue 
to focus on working with these groups, while ensuring their equities 
are recognized and protected, as we adapt to the challenges associated 
with changing operations in the region.
            Enhance Scientific Monitoring and Research into 
                    Environmental Issues
    The Coast Guard continues to support the Arctic research efforts of 
the scientific community through ongoing operations onboard the CGC 
Healy and Polar Sea this summer. These missions will support the Naval 
Research Lab, National Science Foundation, Office of Naval Research, 
and the Department of State to continue mapping of the continental 
shelf. Additionally, Air Station Kodiak has and will continue to 
provide scientific research support from its C-130s through deployment 
of data buoys in the Arctic.
                        national arctic capacity
    While our summer operations continue to provide valuable lessons 
and help us gain better insight regarding the Arctic, we must 
acknowledge the seasonal limitation of these efforts. When summer 
season commercial activity expands, mariners will test the boundaries 
of safe navigation, and as the five Arctic nations continue to collect 
data to make jurisdictional claims, it is important to maintain an 
appropriate presence in the Arctic for law enforcement and response 
purposes with vessels capable of accessing the region. The expansive 
distances, severe weather conditions, and lack of land-based 
infrastructure continue to challenge our capabilities.
    As established by NSPD-66/HSPD-25 and noted previously, the Coast 
Guard has jurisdiction and statutory mission requirements over Arctic 
waters and the demands associated with those obligations will increase 
as waterways continue to open. Future mission requirements for this 
vast, remote, and exceptionally harsh environment are still being 
studied. The full multi-agency missions and asset gaps for the future 
have yet to be determined.
    In order to better understand our future roles, requirements, and 
gaps in both the Arctic and Antarctic, we are conducting a High 
Latitude Study, an in-depth mission analysis report. The results, which 
will be available in the summer of 2010, will allow us to better 
understand our mission needs in the Arctic, ensure we are better 
positioned to fill the critical roles through a comprehensive Arctic 
strategy to include a mix of assets and other resources.
                     coast guard icebreaker assets
    The Healy, commissioned in 2000, has an expected service life of 30 
years. The Polar Sea and Polar Star were both commissioned in the late 
1970s, and are fast approaching their extended service lives of 30 
years. The Polar Sea had a significant 2-year refit in 2006, extending 
its service life to 2014.
    We are currently engaged in a $30.3 million project on the Polar 
Star. Independent engineering assessments are being completed now, 
including completion of a brief dry dock in May, to ascertain the 
extent of work required to continue with this major overhaul. Extending 
Polar Star's service life could provide additional backup capacity for 
Healy and avoid a heavy icebreaking capacity gap when Polar Sea reaches 
the end of its already extended service life. However, the cost of this 
additional capacity, including the expense to operate and maintain both 
Polar Sea and Polar Star, must be weighed against the costs and 
benefits of other backup capacity options.
    Budget authority for the Coast Guard's polar icebreakers currently 
rests with the National Science Foundation (NSF) and has since being 
transferred in 2006. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               conclusion
    The Arctic is a vast and challenging environment going through 
significant changes. The unique nature of the region, magnitude of open 
water, and new users are leading to increased challenges to National 
sovereignty. As a Nation, we now have an Arctic Region Policy and the 
Coast Guard has a significant role in implementing that policy. We are 
pushing forward to meet our responsibilities using the resources 
available right now.
    To meet our national responsibilities in the Arctic, we must ensure 
we are prepared for the challenges associated with this unique and 
harsh environment. While we work to refine future mission requirements 
and identify the precise mix of assets needed to perform them, Coast 
Guard icebreakers stand ready to meet our current icebreaking needs in 
the Arctic.

    Senator Murkowski. Well, thank you, Admiral.
    Let me ask you this. We recognize that the existing 
infrastructure up north is limited at best and nonexistent in 
some cases. You have indicated that the goal here is to 
generate solid mission requirements, to use your terminology, 
to really understand what the requirements are first before we 
act. Did I understand that you ought to know this in about 6 
months, that there will be a requirements document?
    Admiral Allen. We have initiated a high-latitude study that 
will be in three parts. The first part is going to focus on the 
current requirements for icebreakers. The second will be future 
requirements, and the third will look at forward operating from 
the Northern Slope.
    To give you an example, if I could just pick a few places, 
there are three places where we can get very large aircraft to 
go further north, and we have been conducting Arctic domain 
awareness flights with our C-130 aircraft up to the ice edge 
and even further. We can fly out of Nome, we can fly out of 
Barrow and we can fly out of Dead Horse. They differ radically 
in the amount of logistical support that is available and our 
ability to bring numbers of people in and operate from there.
    So we would have to make a decision on where the need is 
and the requirement where you want to operate from. A 
helicopter in Nome might not do you any good for an event off 
Point Barrow and vice versa, and so we need to figure out where 
the risks are, what we want to achieve and what best 
accomplishes that. And then we need to look at the 
infrastructure that is available and how we would move people 
in to conduct command and control and be able to generate the 
type of effects we want offshore.
    Senator Murkowski. Well, we have had an opportunity to talk 
about the geographic reality that when you have got your assets 
located down in Kodiak and you need to move something up north 
somewhere around the Chukchi, that is a heck of a long haul.
    Admiral Allen. Yes, ma'am.
    Senator Murkowski. And yet basing them, whether it is a 
helicopter or otherwise, in an area where you do not have a 
hangar facility where you do not have runways that you need, 
where you do not have harbor for the boats, we are talking some 
pretty basic infrastructure needs. Is that correct?
    Admiral Allen. Yes, ma'am. If I could use an example. There 
is an extraordinary amount of work being done in Nome by Mayor 
Michaels. They have extended the jetties, as you know, out 
there, and they have been able to deepen the port somewhere 
between 20 and 24 feet, average 22 feet in depth. Now, some of 
our smaller vessels can get in there, but those are the ones 
that cannot accommodate the seas and the ice conditions that 
are up there for the ones that can (the polar breakers and the 
larger vessels) the last refueling stop is Kodiak. So depending 
on where you are operating, you are talking about 900 or 1,100 
miles from the gas station. Now, that is okay if you are a 
polar icebreaker because you have the sustainability and can 
carry the fuel and water to do that.
    So those are the types of things we need to talk about. How 
would you create the capability to do that, and how would you 
be able to create forward presence? You do not have to have the 
ports if you have the ships that have the sustainability, and 
those are the tradeoffs.
    Senator Murkowski. So, you are right now in a seasonal 
assessment. You are up during these few short months of the 
summer. What, if anything, is being done to assess the assets 
that we have in winter conditions? If you need to move a 
helicopter out, for instance----
    Admiral Allen. Yes, ma'am.
    Senator Murkowski [continuing]. Are we able to do what we 
need, given the assets that we currently have?
    Admiral Allen. If you want to talk about helicopters for a 
second, I can give you probably a good example there. We have 
two types of helicopters, an H-65 Dolphin helicopter and an H-
60 Jayhawk helicopter, a variant of the Blackhawk helicopter 
that the rest of the armed forces uses. Our H-65 helicopter is 
used largely on board ship, and they are shorter range. They do 
not have de-icing capability. The H-60's do have de-icing 
capability. So one of the things we have learned on deploying 
up there, you can move an H-65 up there in the summer. It is 
not the optimum. Even in the summer we have icing conditions. I 
was flying in an H-60 between Nome and Shishmaref the other 
day, and we moved into icing conditions in the summer. So an H-
65 might be at risk in operations up there. So the only 
helicopter that would have year round operational capability up 
there would be an H-60, but there are conditions when even an 
H-60 would not be able to fly, ma'am.
    Senator Murkowski. As far as our icebreakers go and our 
capacity, we have had the discussion about what the Congress is 
doing right now to put forward funding to bring into 
operational readiness one of our icebreakers. But in terms of 
our needed capacity, do we know--do you know at this point in 
time what we will need as an Arctic nation as we prepare for 
the additional commerce that we will see, whether it is energy-
related or tourism-related or what have you? What do you really 
believe our capacity will be needed to be?
    Admiral Allen. I think a good starting point is the 
assumptions related to our current fleet. When I came in the 
Coast Guard, I believe we had five icebreakers. We had them on 
both the east and the west coast. They did three major 
missions. We did the Pacific North of the Arctic, the Arctic 
West, if you will. We did the breakout of McMurdo Sound, a 
resupply, ultimately the South Pole Station, and we did Arctic 
East deployments, which were mainly the breakout of Tooele to 
support the Panzer Goose Operations of the Air Force at Tooele.
    Based on an agreement with the Canadians, when we built the 
Polar Sea and the Polar Star and downsized our fleet, we went 
to three polar icebreakers under the assumptions that the 
Canadians under a current agreement would break out Tooele. And 
under that agreement, if they needed something in the Arctic 
West up around the boundary line off the North Slope, then we 
would provide them services. That led us to believe that we 
could have three icebreakers: one ice-strengthened, the 
research vessel, the Healy, and the Polar Sea and the Polar 
Star. That would allow us to break out McMurdo and take care of 
the Arctic West and the research requirements.
    If there is an extensive requirement for us to reciprocate 
for what the Canadians are providing us in Tooele and we go 
below three icebreakers, all of a sudden--first of all, we 
become at risk of being able to meet our commitment. So even at 
our current readiness posture with the Polar Sea ready for sea 
and the Polar Star being laid up, if we were in McMurdo 
breaking out down there, had the Healy deployed, and there was 
a need to help the Canadians in response to what they do for us 
in Tooele, it starts to become problematic. If you move beyond 
that, you put additional requirements on, and then you start 
having to question whether or not the three icebreakers that 
are currently in the inventory are enough.
    We have been approached by my other service chiefs with 
whom I work and by Chairman Mullen about the optimal laydown. 
If you wanted to have an icebreaker available to go north or 
south and have one available year round, to have what we call a 
1-0 presence, it takes three ships to do that. And we have 
documented from the Department of Defense, if it were 
achievable, six icebreakers will be needed to do that. I am not 
sure we ought to leap to that conclusion without validating the 
requirements, but I think absolutely the three is a four.
    Senator Murkowski. But that too is part of this needs 
assessment that you are undertaking to determine exactly what 
that is.
    Admiral Allen. Yes, ma'am.
    Senator Murkowski. Let me ask about the Healy which is out, 
as you have mentioned, doing some of the extended continental 
shelf mapping which is so very important. Do you know how much 
more information we may need before we are able to--well, we 
cannot submit our claim, but in order to make an extended 
claim, do you know where we are in the mapping process?
    Admiral Allen. Well, ma'am, you are a little bit above my 
pay grade academically on this one. I do know we have been 
working very, very hard to gather the seismic data. As you 
know, under the Law of the Sea Treaty, as the Governor has 
stated, we can assert a claim beyond the 200-mile limit up to 
350 miles. That is based on seismic data that demonstrate that 
the outcropping is an extension of the continental shelf. The 
Healy has been involved for several years in doing that. Very, 
very important to this country. Regardless of where we 
ultimately go on the Law of the Sea Treaty, whether it is in 
accordance with the Law of the Sea or a unilateral claim, we 
have to be able to define that those are the limits of the 
shelf.
    So I would have to bring somebody in to help you interpret, 
where we are going out there, but we are doing our best.
    Senator Murkowski. Well, I appreciate it.
    Given what we know is happening in the Arctic and as you, I 
believe have said, all you know is that there is more water out 
there and you are in charge of it. How much does this change 
the mission of the Coast Guard all of a sudden--and I should 
not say all of a sudden, but by now having this expanded 
mission up north in terms of enforcement and just preparedness 
and readiness?
    Admiral Allen. It does not necessarily change our mission. 
It places new requirements on how we execute our mission in a 
place that is dominated by what I would call tyranny of 
distance, harsh operating environments, lack of infrastructure, 
as we have talked about. I have the same requirements in the 
territorial sea off the Barrow Spit as I do off the tip of Key 
West, Florida. I have the same responsibility to conduct 
fisheries boardings and to make sure the laws are being carried 
out within the EEZ whether it is north of the Bering Straits or 
in the Gulf of Mexico or off Georges Bank in New England.
    So it is a matter of projecting presence up there. It is a 
matter of U.S. sovereignty. It is a matter of being able to 
achieve the effects that are expected of us to accomplish our 
already-assigned missions in a place where the environment has 
been dramatically changed, and that really is the challenge.
    Senator Murkowski. And I will ask you one more question 
that is perhaps a little more politically charged. Most in the 
United States, I would dare say, do not believe or do not think 
of the United States as an Arctic nation. They do not 
appreciate much of what we experience up north, and as we see 
diminished or diminishing sea ice up there, the landscape is 
changing.
    As the Coast Guard is tasked with its overall mission 
around the country, is it a factor that you deal with that with 
the budget that the Coast Guard has and the mission that you 
are tasked with, that it could potentially be more difficult to 
get the resources and the assets that you need up north to 
provide for the level of protection simply because we are where 
we are? And again, most people do not view the Arctic as being 
something that we need to be responsible for right now.
    Admiral Allen. Well, I think you have hit the center of the 
issue, ma'am. We would consider that discussion to be an 
extension of the outcome of that high-latitude study that is 
going on right now.
    That is one of the dilemmas we have in the Coast Guard, and 
it is a good dilemma and a bad dilemma. The good news is we are 
a multi-mission agency. You put one ship out there. It can do 
five missions. The bad news is we are a multi-mission agency. 
You put one ship out there. It can do one mission at a time. So 
there is an inherent risk-management proposition associated 
with that. So we are never going to be completely optimized to 
cover all of our missions. We were never intended to be because 
that is the operational genius that pays so much back to this 
country.
    The question is what is the threshold and how does that 
threshold change when requirements change in a place like the 
Arctic. In a purely political sense, it is up to me as the 
Commandant to frame that discussion as somebody who has a 
vested interest in Alaska.
    I told somebody a while back when you compare us to another 
military service, what separates us is we do not deploy 
someplace to do our mission. We execute our mission where we 
live, and we become entwined in the DNA of our communities and 
the regions where we operate. I like to believe that because of 
that, we understand and know that. The question is--and you all 
raised it earlier--how do you transmit that to a larger 
audience where it is understandable? And you and I have had 
really great discussions in the past. It is probably because we 
are both Ketchikan brats, as we have talked about. But it is 
expanding that discussion to a larger circle and having it be 
understood. Frankly, I consider that a leadership role that I 
have to play as the Commandant of the Coast Guard and have been 
trying to play for the last 3 years.
    That said, we are committed to moving to the North Slope 
with the resources we have. We have moved resources around. We 
have made sure that we can have a presence up there. And I 
think we have improved what we have done up there every year, 
and while we are making these decisions and having this 
discussion, that remains our commitment to Alaska.
    Senator Murkowski. Well, I appreciate that. I appreciate 
that commitment. I appreciate all that the Coast Guard does to 
serve us here in Alaska and around the country.
    I look at the role that the Coast Guard is playing and will 
play up north and can only appreciate the incredible men and 
women that are serving us. I do not think we can say thank you 
enough. But I want to publicly recognize you and your 
leadership on how we are assuming the role as an Arctic nation 
and moving responsibly to lay the groundwork for what we know 
is coming in terms of increased activity up there. So again, I 
appreciate all that you do and your great, great leadership for 
this State and for this Arctic nation. So thank you.
    Admiral Allen. Well, I gratefully acknowledge that on 
behalf of my people, ma'am. Thank you.
    Senator Murkowski. You are with some of the best.
    With that, let us call up the second panel, if we may, and 
thank you, Governor Parnell and Admiral Allen.
    Okay, let us move on to our second panel. I have introduced 
each of the members previously. Again, I welcome you all. I 
will note that there is no particular order other than we 
decided to do it alphabetically. So we will begin the second 
panel testimony with you, Mr. Benton. I would again ask all of 
you if you can keep your testimony to within 5 to 7 minutes. 
Your full written testimony will be included as part of the 
record. David, why do you not go ahead and proceed?
STATEMENT OF DAVID BENTON, EXECUTIVE DIRECTOR, MARINE 
            CONSERVATION ALLIANCE
    Mr. Benton. Thank you, Senator Murkowski, and thank you for 
holding this hearing. I want to extend our appreciation to you 
on behalf of the seafood industry for all the work that you 
have done for us over the years on a whole range of issues.
    It may be a bit peculiar to have the fishing industry at a 
hearing on U.S. Arctic policy in some ways because currently 
there are no fisheries conducted in the U.S. EEZ. I think that 
it is a recognition that Alaska has taken a very interesting 
position, at least the seafood industry, the State, and the 
Fisheries Management Council, on how to address Arctic issues 
on fisheries. Anyway, I wanted to express my appreciation to 
you to provide us an opportunity to talk about that today and 
also to Senator Byrd for issuing the invitation.
    Senator, as I mentioned, I approached the hearing with some 
questions in my mind about how to present the unique approach 
that the seafood industry took. Our organization, the Marine 
Conservation Alliance, represents harvesters, processors, and 
coastal communities involved in the major groundfish and 
shellfish fisheries in Alaska. Probably 70 percent production 
is represented by our membership. So it is not a small 
organization, and it is companies that have a vested interest 
in being able to go fishing.
    Our association, however, worked with the North Pacific 
Fisheries Management Council to promote and initiate and 
eventually adopt--get the council to adopt the Arctic FMP which 
closes the entire U.S. Arctic to commercial fishing. The reason 
that the seafood industry took that position was a recognition 
on our part that the rate of change in the Arctic, the loss of 
sea ice is exceeding forecasts. It is quickly outstripping the 
level of science that we need to manage fisheries appropriately 
and on a sustainable basis, and frankly, the rate of change up 
there is putting a lot of other living marine resources that 
are ice-dependent under a lot of stress and is having very 
profound effects on the people that live around the Arctic 
coastline of Alaska, and we wanted to be part of the solution, 
not part of the problem.
    The council, as you know, successfully adopted that Arctic 
FMP. It is in front of the Secretary of Commerce now. We have 
urged the Secretary of Commerce, along with many others, to 
adopt that FMP and to put that policy in place.
    One of the reasons and maybe a driving reason for us, aside 
from those I have just mentioned, for getting the United States 
positioned in the way that it is is a recognition that with the 
loss of sea ice and the opening up of areas that have been 
inaccessible to date to potential commercial fisheries, both 
within our zone but also in the Russian zone, the Canadian 
zone, and most importantly, in the international waters of the 
Arctic Ocean--a recognition that the United States is going to 
have to take a leadership role in shaping policy up there to 
prevent impacts that we have seen in other parts of the world.
    And I want to mention the Bering Sea. We had quite an 
experience in the late 1970s/early 1980s when the 200-mile 
limits were adopted by the nations around the world. Many 
distant water fleets were being pushed out of the 200-mile 
zones that were being claimed. In the Bering Sea, those were 
fleets from China, Japan, Poland, Korea, Taiwan, and they were 
getting pushed out of the zones of the United States and the 
zones of Russia. And a number of those fleets wound up in the 
international waters of the Bering Sea in the so-called donut 
hole.
    There were no controls on those fleets. There was no 
resource surveys or scientific assessments of the status of the 
stocks out there that they were fishing on. There was minimal 
enforcement presence because the Coast Guard was primarily 
tasked, and appropriately so, trying to patrol our own 
boundaries. The Russian border guards were in the same 
position, and so there was virtually no enforcement of any 
regime in the international waters of the Bering Sea.
    It took us many, many years to secure a convention for the 
central Bering Sea donut hole. And frankly, the only reason 
that we were able, in my opinion--and I was deeply involved in 
those negotiations. The only reason that we were, at the end, 
able to secure that convention is because the pollock stocks 
collapsed. The fishery grew very quickly from virtually zero 
harvest out there to well over 2 million metric tons, and then 
collapsed. And when it collapsed, the distant water fishing 
nations agreed to the convention that should have been in place 
from the beginning.
    The reason I bring that up is I think that is an 
instructive lesson for what could unfold in the high Arctic.
    So it was our position--and certainly you in the Congress 
and you personally demonstrated great leadership with Senate 
joint resolution 17 to get the United States policy oriented in 
the right direction and moving. And it was our position that 
the United States had to be on a good, solid footing to then go 
to the rest of the world and say, wait a minute, we do not want 
to repeat what happened in the Bering Sea donut hole in the 
high Arctic in the international waters where there are no 
fisheries now and there is also no regime in place. I think by 
getting Senate joint resolution 17 adopted and signed by the 
President, that got the State Department oriented to make this 
a priority and to engage the rest of the international 
community on a path to try and at least perhaps get a 
moratorium on commercial fisheries beyond 200 miles. That was a 
very important step for us and I think it is going to serve the 
country very well.
    Just a couple of things I want to touch on very quickly 
because I know that we are somewhat short on time. Listening to 
the Commandant, Admiral Allen, I think that we all--and 
certainly the seafood industry owes the United States Coast 
Guard a huge debt of gratitude.
    In listening to his discussion about their assessments of 
their needs in the Arctic, one thing that I hope they keep in 
mind and certainly we would like for the Congress to keep in 
mind is the enormously critical and complex task the Coast 
Guard is already serving in the North Pacific and in Alaska. 
They have to patrol one of the longest maritime boundaries in 
the world and enforce the boundary. They have to enforce 
numerous treaties that are on the high seas that span the 
territory from Asia to North America. They have to enforce 
treaties in the Bering Sea, and now we are going to add to that 
requirement that they move into a whole new vast area and meet 
the challenges and they are significant challenges in the 
Arctic.
    In meeting those challenges, the Congress, I hope, fully 
appreciates the complexity of the task that the Coast Guard has 
now and the need to not diminish their current capability in 
meeting that task. They are already in our view doing a 
wonderful job, but they are stretched thin on resources and 
they are going to be more stretched thin. And so this needs to 
be new money, new resources, not just sort of shuffling the 
existing resources around to patch holes as they move forward. 
So I wanted to call your attention to that.
    And then the final thing, Senator, is the need for research 
and science. The Arctic FMP that the council adopted is going 
to be very dependent on what science gets done in the high 
Arctic. And that is true for a whole host of Arctic activities 
beyond fisheries. The research community has experienced a 
fairly significant increase in funds in recent years for Arctic 
research primarily I think in conjunction with NPRB-related 
research and also International Polar Year, and some of the 
funding increases have come about by those kinds of 
initiatives. But that is sort of a temporary thing.

                           PREPARED STATEMENT

    As the United States policy unfolds, we would strongly urge 
you to look at a model similar perhaps to the North Pacific 
Research Board for the Arctic that provides a long-term, stable 
source of funding for Arctic research. It needs to be new 
money. Again, it is sort of like the situation with the Coast 
Guard. There is never enough money for marine research. There 
are a lot of needs in the North Pacific Ocean and the Bering 
Sea that are still not being met, but this new challenge is in 
front of us. We have got to meet it. So we need to see if we 
can find new sources of money, and those sources need to be 
longer-term, not sort of pulses of appropriations that come and 
go because of the burdens that that places on the research 
community.
    With that, I will end my oral comments, and you have my 
written testimony for the record. Thank you very much.
    [The statement follows:]

                   Prepared Statement of David Benton

    Thank you, Senator Murkowski, for chairing this hearing today to 
discuss the strategic importance of the Arctic to the United States, 
and emerging issues regarding Arctic fisheries management and 
conservation. I also want to thank the Subcommittee Chairman, Senator 
Byrd, for this opportunity to come before the subcommittee on these 
important issues.
    For the record, my name is David Benton, and I am the executive 
director of the Marine Conservation Alliance (MCA). MCA is a broad 
based coalition of harvesters, processors, coastal communities, 
Community Development Quota (CDQ) organizations, and support services 
businesses involved in the groundfish and shellfish fisheries of 
Alaska. MCA was formed to promote the sustainable use of North Pacific 
marine resources by present and future generations. MCA supports 
research and public education regarding the fishery resources of the 
North Pacific, and seeks practical solutions to resource conservation 
issues. Our members collectively represent roughly 70 percent of the 
production of North Pacific fisheries.
    MCA has been actively engaged for several years now in the 
development of U.S. policy regarding the Arctic, and Arctic fisheries. 
MCA recognized early on that climate change in the high Arctic was 
causing a rate of change in that region that argued for a unique 
precautionary approach to fishery management. There are many concerns 
regarding the loss of sea ice and the potential for new fisheries in 
the Arctic not only within our Exclusive Economic Zone (EEZ), but also 
in the EEZs of Russia and Canada as well as the international waters of 
the Arctic Ocean beyond the 200 mile limits of any of the Arctic 
nations. These include concerns regarding our state of knowledge about 
Arctic marine ecosystems, the status of potential fishery resources, 
the effects fisheries might have on other living marine resources such 
as marine mammals and seabirds, and the potential for impacts arising 
from fisheries beyond our EEZ on the resources and people of the U.S. 
Arctic to name a few. Because of these concerns, we worked closely with 
the members of Congress including this Committee to secure passage of 
Senate Joint Resolution 17. Similarly we worked very closely with the 
North Pacific Fishery Management Council on the recently adopted 
Fishery Management Plan (FMP) for the Arctic.
    SJR 17 establishes a policy direction for the United States to 
engage the international community in negotiations to develop 
comprehensive international agreements for the management and 
conservation of fish stocks in the Arctic Ocean, and to take actions to 
prevent the development of commercial fisheries in the high seas of the 
Arctic until such comprehensive agreements are in place.
    The North Pacific Fishery Management Council adopted a Fishery 
Management Plan (FMP) for U.S. Federal waters north of Bering Strait 
that adopts an ecosystem approach to management, sets forth scientific 
procedures to gauge future fisheries, and closes the U.S. Arctic EEZ to 
commercial fishing until the scientific information is available to 
make a determination whether or not to initiate commercial fisheries.
    MCA believes that, taken together, these two initiatives form a 
solid foundation for U.S. policy. We have also been fortunate in the 
assistance to date from the Department of State and NOAA in pursuing 
these initiatives. Ambassador Balton at State has taken a lead role in 
pursuing implementation of SJR 17, and I want to publicly acknowledge 
his work. Additionally, NOAA Fisheries worked very hard with the North 
Pacific Fishery Management Council to help develop the Arctic FMP. Yet, 
considerable work remains to be done, particularly on the international 
front, to secure a sound, science driven management regime for Arctic 
fisheries. Madame Chair, today I would like to discuss these actions 
further, and steps that can be taken to protect United States interests 
in the Arctic.
    Information that is now readily available should leave no doubt 
that the rate of loss of sea ice in the high Arctic has exceeded 
earlier forecasts. The potential is for large areas of the Arctic Ocean 
to become ice free for large portions of the year. In conjunction with 
this trend, there is evidence that marine resources are redistributing 
themselves accordingly. For example, the distribution and migrations of 
ice dependent marine mammals and seabirds is changing rapidly and many 
of these species are experiencing environmental stress. Similarly, 
there is evidence of fishery resources such as salmon, crab, and 
groundfish moving west and north from the North Pacific into the 
Arctic, although comprehensive data are lacking. What data we have 
indicate that the distribution of salmon is expanding in the Chukchi 
and Beaufort Seas, and there is evidence that certain crab species and 
some groundfish may be moving northward into the Chukchi as well.
    Beyond our own waters, the status of fishery resources is less 
clear. There is some information regarding fish stocks in the Russian 
and Canadian EEZs, but like the United States, comprehensive data are 
lacking. In the case of the international waters beyond our respective 
EEZs data are even more sparse. With the retreat of sea ice and 
changing ocean conditions there is also the potential for species from 
the Atlantic side to move into the high Arctic waters on the Pacific 
side, yet there is little or no data available to assess this 
possibility.
    This lack of scientific information should mean that the nations of 
the world will restrain themselves until the necessary data are 
available. Unfortunately, the record is often just the opposite. The 
situation is similar to what occurred in the international waters of 
the Bering Sea in the early 1980's, a series of events we should avoid 
repeating if at all possible.
    During the late 1970's and early 1980's, foreign fleets were pushed 
out of the 200 mile zones of coastal states around the world. In the 
Bering Sea, where large fisheries were being conducted by a number of 
distant water fleets, this led to the rapid expansion of a multi-
national fleet entering the international waters beyond the Russian and 
U.S. zones. This area, referred to as the Donut Hole, had not been 
scientifically surveyed to assess stock status, there were no controls 
on the fishery, and enforcement consisted almost solely of the United 
States and Russians trying to patrol their respective maritime 
boundaries to prevent incursions into their domestic waters. These 
fleets came from Japan, China, Poland, and the Republic of Korea and by 
the late 1980's numbered several hundred vessels. They were 
concentrating on Pollock and harvests peaked at a reported 2 million 
plus tons before the stock collapsed.
    In the late 1980's the United States and Russia initiated 
negotiations with the distant water fishing nations with the intent of 
securing an international management regime to conserve the stocks and 
regulate the fishery. These negotiations lasted several years and only 
came to a conclusion when the pollock stock collapsed. The treaty that 
should have been in place from the beginning, before the fishery 
started, is now in place but the pollock resource remains at extremely 
low levels. There is no fishery in the Donut Hole now with the 
exception of tightly controlled experimental fishing to assess stock 
status.
    This experience should be a warning about how events may unfold in 
the high Arctic. Several non-Arctic nations are already establishing a 
presence in the region through research cruises and other means. There 
are fisheries in the Atlantic taking place north of the Arctic Circle. 
There are international fishery management agreements already in place 
for fisheries in the north Atlantic and Barents Sea with authorities 
extending into Arctic waters on the Atlantic side. There is talk of 
extending their jurisdiction. The European Union, among others, has 
indicated an interest in asserting influence in the high Arctic. The 
point being, numerous interests and nations that have been prevented 
from moving into the Arctic Ocean off our shores by the presence of sea 
ice are looking north.
    MCA believes that the United States needs to aggressively pursue a 
multi-pronged strategy to prevent what occurred with the Bering Sea 
Donut Hole from unfolding in the Arctic. This strategy needs to be 
built on developing bi-lateral understandings with our Russian and 
Canadian neighbors. It is in their interests just as much as it is ours 
to pursue a course of action to close the international waters of the 
Arctic Ocean to commercial fisheries now, and not repeat the experience 
we had with the Bering Sea Donut Hole. If we can secure agreement with 
Russia and Canada that there be no commercial fishing in the high seas 
of the Arctic Ocean, then the three largest Arctic nations can present 
a united front to the rest of the world with some likelihood of success 
in securing such an agreement.
    From our perspective this is the best way to realize the intent and 
purpose behind SJR 17.
    A closely related matter is the conservation and management of 
resources within the EEZs of the United States, Russia, and Canada. It 
is in the United States interest to engage our two neighbors in bi-
lateral discussions to ensure consistent management and conservation 
actions for transboundary stocks we might share between our respective 
EEZs. This is particularly true for Russia. The Chukchi shelf extends 
from Alaska across the maritime boundary to the Russian coast. Many of 
the marine mammals, seabirds, and fishery resources of the Chukchi move 
through Bering Strait which we share with the Russians. If fisheries 
develop on the Pacific side of the Arctic north of Bering Strait, they 
are most likely to start in the Chukchi and it may be the Russians who 
commence fisheries first. Because of the interconnectedness of 
resources within United States and Russian waters it is important that 
the two nations cooperate in developing complimentary scientific 
assessment and resource management programs now before fisheries 
commence.
    The same can also be said regarding the need to initiate bi-lateral 
talks with Canada. However, there is probably less urgency, as the 
likelihood of significant fisheries beginning in the Beaufort Sea in 
the near term is less than it is with the Russians in the Chukchi.
    It is our understanding that there has been some exploration of 
these matters with both nations, and MCA applauds those efforts. 
However, MCA also believes that serious bilateral negotiations need to 
commence in the near future to make progress. MCA recognizes that these 
bi-lateral talks will be time consuming and difficult. In both 
instances they will be complicated by other issues, including boundary 
disputes. However, failure to reach an understanding with our Arctic 
neighbors regarding fisheries will put at jeopardy the conservation 
efforts the United States initiated with the Arctic FMP. With this in 
mind, MCA urges the United States to segregate fishery talks from 
other, more controversial negotiations.
    A key component of a comprehensive strategy for U.S. Arctic 
fisheries involves actions within our own waters. MCA supports the 
adoption of the Arctic FMP and related regulations. Attached, for the 
record, is our recent letter to Secretary Locke requesting his approval 
of the Arctic FMP. Successful implementation of the Arctic FMP is 
contingent upon good scientific information on Arctic marine resources, 
including fish stocks, and the Arctic ecosystem. U.S. Arctic research 
in recent years has received significantly more attention, due largely 
to the International Polar Year with its emphasis on the Arctic. This 
will be a short lived boost, unless a stable, long term source of funds 
and resources is put in play for Arctic research.
    This Committee has, in the past, taken a lead role in developing 
stable sources of funding for marine research. In Alaska, the North 
Pacific Research Board is providing a long term vision and stable 
funding for marine research. The NPRB is in the process of conducting, 
in conjunction with the National Science Foundation, a multi-year 
multi-discipline ecosystem assessment of the Bering Sea. This $50 
million program will provide important insights into the Bering Sea 
ecosystem, and factors affecting it like climate change and loss of sea 
ice. A similar model could be looked at for Arctic research.
    The final component for a comprehensive strategy for the U.S. 
Arctic goes beyond fisheries considerations. The United States Coast 
Guard (USCG) has a critical and enormously complicated mission in 
Alaska. With search and rescue operations in two oceans and three seas, 
enforcing several international agreements spanning the North Pacific 
and the Bering Sea, patrolling one of the worlds longest contiguous 
maritime boundaries, and not to mention maintaining a robust 
enforcement presence in the Nation's largest domestic fisheries the 
USCG already has a lot on its plate. Now, with the opening of the 
Arctic and the need for an increasing presence in this vast region, MCA 
is concerned that sufficient new funding and resources be made 
available to the USCG to accomplish its new Arctic mission without 
diminishing its existing mission and presence in other parts of the 
North Pacific and Alaska. We strongly urge the Congress, and this 
Committee to fully fund the USCG mission in Alaska, and not allow this 
new challenge in the Arctic to undermine the excellence of the USCG in 
meeting the demands of its existing mission.
    Madame Chair, I want to thank you and members of the Committee for 
providing this opportunity to testify before you today. I will be happy 
to answer any questions you may have.
    Encl: (1) MCA Letter to Secretary of Commerce, July 24, 2009.

                              Marine Conservation Alliance,
                                         Juneau, AK, July 24, 2009.
Ms. Sue Salveson,
Assistant Regional Administrator, Sustainable Fisheries Division Alaska 
        Region, National Marine Fisheries Service, Juneau, AK.
Re: 0648-AX71 (PR) Arctic FMP
Attn: Ellen Sebastian.

    Dear Ms. Salveson: The Marine Conservation Alliance (MCA) wishes to 
express its support for Secretarial approval of the Fishery Management 
Plan for Fish Resources of the Arctic Management Area (Arctic FMP) and 
Amendment 29 to the Fishery Management Plan for Bering Sea/Aleutian 
Islands King and Tanner Crab (Crab FMP). The MCA is a coalition of 
harvesters, processors, Community Development Quota organizations, and 
coastal communities involved with Alaska groundfish and crab fisheries.
    Our support for adoption of the Arctic FMP includes the 
establishment of the Arctic Management Area, the approach used in the 
FMP to establish target and ecosystem component species groups, and the 
general prohibition on commercial fishing in the Arctic Management Area 
until stock assessments are completed. Based on stock assessments and 
other scientific analyses, and following the Council's thorough public 
review and decision making process, we expect future management actions 
to be taken, including establishment of commercial fisheries, in 
accordance with the national standards and other provisions of the 
Magnuson Stevens Act (MSA) and other applicable law. We urge the 
Secretary, and the National Marine Fisheries Service (NMFS) to approve 
the Arctic FMP and Amendment 29 in their entirety.
    MCA has supported the development and adoption of the Arctic FMP 
from the very beginning. We recognized early on that climate change in 
the high Arctic was causing a rate of change in that region that argued 
for a unique precautionary approach to fishery management. There are 
many concerns regarding the loss of sea ice in the Arctic, and existing 
scientific research hasn't answered these concerns. Preventing the 
incursion of commercial fisheries until the science is available to 
make sound decisions is the only logical approach to management in this 
region.
    Future decisions regarding whether or not to initiate fisheries in 
the Arctic Management Area will be guided by this FMP and the Magnuson 
Stevens Act. Authorizing a fishery will require an amendment to the 
FMP, with the full suite of analyses and public participation the 
Council process entails. Through this process, issues such as Essential 
Fish Habitat (EFH), defining optimum yield and how to achieve it, 
setting harvest specifications and determining overfishing limits, 
vessel licensing or effort control rules, fishery monitoring and 
observer coverage, controls, and impacts on ecosystem components will 
all have to be addressed. In addition, concerns regarding marine 
mammals, seabirds and other waterfowl will also have to be addressed 
and impacts avoided. The Council's deliberative process is well suited 
to ensure that this is a robust process that will in the end result in 
sustainable fisheries if they are authorized.
    To ensure that the Council process keeps pace with the rate of 
change in the Arctic, it is important that the Council and NMFS make 
scientific research in the Arctic a priority. MCA recommends that the 
NMFS and Council develop a suite of research priorities, including 
stock assessments, for the Arctic for implementation by NOAA. These 
research priorities should also be forwarded to the North Pacific 
Research Board (NPRB) for their consideration as well.
    In addition, we encourage NMFS and the Council to continue work 
through the committee process to develop further guidance and criteria 
for initiating analysis of potential new fisheries, including 
conditions that would need to be addressed if and when fisheries are 
authorized in the Arctic Management Area.
    Adoption of the Arctic FMP and Amendment 29 sets the stage for 
thoughtful and science driven deliberations regarding future fishery 
development in the Arctic region. These deliberations not only need to 
be guided by good science, but also by active engagement with the 
people who live along Alaska's Arctic coast. MCA fully supports efforts 
to include Alaska's Arctic residents in decisions that affect them. 
During development of the Arctic FMP, the Council made exceptional 
efforts to engage the residents, communities, and organizations 
representing the people of Alaska's Arctic. The Council has recently 
established a strong outreach program to continue this effort, as well 
as a new committee to more fully engage Alaska's subsistence 
communities in the fishery management process. We are confident that 
the Council will continue this effort to include meaningful 
participation by the people of the communities along the Arctic coast 
in future management decisions.
    As a final point, we also wish to encourage the Secretary to fully 
engage in international discussions regarding fishery management in the 
high Arctic. MCA believes that bi-lateral discussions with our Russian 
and Canadian neighbors are extremely important to ensuring coordination 
throughout the Arctic region. This coordination is necessary to ensure 
that the conservation actions taken by the United States through the 
Arctic FMP are complemented, and not undermined, by any management 
actions taken by our Arctic neighbors in their waters, or by other 
nations in the international waters of the Arctic Ocean. It would be 
unfortunate to have a repeat of our experience in Bering Sea ``donut 
hole'' in the Arctic.
    Thank you for this opportunity to comment.
            Sincerely,
                                               Dave Benton,
                                                Executive Director.

    Senator Murkowski. Thank you, Mr. Benton.
    Just so that you know, what we will do is we will have 
testimony from each of you and then I will come back and ask my 
questions of you at that time. So thank you.
    Dr. Brigham, welcome.
STATEMENT OF DR. LAWSON W. BRIGHAM, PROFESSOR OF 
            GEOGRAPHY AND ARCTIC POLICY, UNIVERSITY OF 
            ALASKA FAIRBANKS
    Dr. Brigham. Thank you, Senator. I am here again to flaunt 
the Arctic Marine Shipping Assessment which at least here is 
legislation implemented----
    Senator Murkowski. Why do you not go ahead and pull that 
mic just a little bit closer?
    Dr. Brigham. Sure. In fact, just so you know there is 
international interest, I go on Saturday to brief the Norwegian 
Ship Owners Association, the Norwegian Foreign Ministry, 
Norwegian Institute of Defense Studies, and DNB, which is the 
classification society, all in Norway about AMSA. So it is not 
only domestic but international interest in this important 
comprehensive study led by the United States, Finland, and 
Canada.
    I should remark that there are three complementary ways in 
which you can view this study. It is certainly baseline 
assessment for Arctic marine activity early in the 21st 
century, and we are quite confident that in the future all 
future studies would look to this study as really the baseline 
study and an important starting point.
    Second, I think everyone should know that this is an Arctic 
Council policy document. There have not been too many policy 
documents issued by the Arctic Council. It is an 
intergovernmental forum, but in this case, all eight countries 
have agreed and every word in this document painfully, as it 
took place, was negotiated by the eight Arctic countries. So in 
fact the 17 recommendations and all the words in this document 
can be really interpreted as a message of the Arctic states to 
the world on how they intend, including us, in very broad 
principles to protect Arctic people and the Arctic marine 
environment.
    And finally, this document is a strategic guide to all the 
ministries, all the departments of the eight Arctic states. It 
is also a strategic guide to the global maritime industry on 
what the Arctic states are thinking. It is a guide to the 
indigenous people, a host of stakeholders, all of which are in 
the Arctic today and coming to the Arctic through the century. 
The AMSA highlights a way forward and it also points to the 
significant research and infrastructure that is needed to be 
funded in the future for enhancing marine safety and 
environmental protection.
    There were 90 specific findings, and I will just summarize 
seven of them in very broad terms, some of which already folks 
have spoken about.
    The presence of Arctic shipping. Already we have the global 
maritime industry in the Arctic, and perhaps the regulatory 
environment, the regulatory system is not up to the arrival of 
the global maritime industry. Of course, that involves IMO, the 
International Maritime Organization, moving forward more 
quickly than it has in the past to enhance marine safety and 
environmental protection.
    Certainly a growing presence of large cruise ships in the 
Arctic. Perhaps today the most pressing issue for the Arctic 
states is the presence of cruise ships with 3,000 passengers in 
the high latitudes, particularly around Greenland in this case.
    Most of the traffic today supports natural resource 
development, but there is a specter of trans-Arctic navigation 
in the future, at least during a short summer season.
    We talked about today already sea ice changes, but the 
important point was already made that while there is a season 
of diminished ice, perhaps ice-free, whatever that means, most 
of the year through the century it is ice-covered, and the 
implications of that is that all ships in the future navigating 
the Arctic have to have some polar-class capability. So they 
have to have enhanced standards for operating in this 
environment.
    We did find in this study a general lack of uniform 
mandatory rules and an important point, nondiscriminatory 
rules, because we want international standards. So we saw a 
potpourri of different rules and standards in the Arctic and it 
is up to the IMO and the leadership of the Coast Guard at IMO 
representing the United States to move toward international 
standards which are mandatory.
    We found in the study that most of the marine activity in 
the future will be conducted by non-Arctic stakeholders, people 
with little knowledge of the Arctic, some knowledge, but 
perhaps the majority with little knowledge of the Arctic. There 
will be multiple users in many Arctic waterways like the Bering 
Strait, and obviously, there is a potential overlap of new 
marine operations in areas of traditional indigenous use. That 
is quite clear.
    Many uncertainties in the future of Arctic navigation: gas 
prices, oil prices, fee systems, sea ice variability, new 
discoveries, world trade patterns, et cetera. So it is very 
hard to define exactly what the future might be in numbers of 
ships, but clearly the future of marine operations is linked to 
the global economy and depends upon both global and regional 
factors.
    We talked about UNCLOS already, and the study reaffirmed 
that UNCLOS is the framework for governance of marine 
operations and overall use in the Arctic Ocean. It is an ocean 
we have to emphasize again to everyone from the Arctic states 
to the world. It is an ocean, folks. UNCLOS is the framework, 
the legal framework, for regulation, in particular, of 
shipping. IMO is the operative agency, the competent U.N. 
agency, to develop shipping rules and regulations, and then our 
part and your part is to embed those regulations in domestic 
law and those international standards.
    One of the final findings and the most important one that 
we have talked about today is marine infrastructure. There 
really is no superior present marine infrastructure in most of 
the Arctic. Some modern infrastructure along the Norwegian 
coast, some in northwest Russia, but for most of the Arctic, it 
is very different than the rest of the planet, the rest of the 
world's oceans. There is no infrastructure. Few charts. 8 to 10 
percent of the Arctic Ocean is charted to international 
standards. That leaves 90-plus percent to be surveyed. A little 
SAR, salvage, ship monitoring and tracking, AIS navigation, and 
on and on and on. You mentioned many of these, all termed 
infrastructure, all lacking in the Arctic. The most significant 
one today, though, is the hydrographic database for charting is 
certainly not adequate in most areas to support current and 
future Arctic marine activities to support them safely.
    There are 17 recommendations in the document. They are 
divided into three broad themes: enhancing Arctic marine 
safety, which is IMO level international work; protecting 
Arctic people and the environment; and building the 
infrastructure. I will not go through all 17. I will leave that 
to folks to read in the study. But I wanted to turn to several 
specific things that could be done in the United States Arctic 
with the outcomes of this study.
    All of the recommendations in AMSA apply to the U.S. 
maritime Arctic and all are of strategic importance. The 
outcomes of AMSA relate to broadly U.S. energy, economic 
security, as we know, environmental security, maritime 
security. The entire U.S. maritime Arctic was addressed in many 
ways in the AMSA study, and in a specific area, the Bering 
Strait region from about Point Hope south to the ice edge was 
studied in some detail because it is a region of significance 
for future traffic in and about the entire basin. And without 
further investment and development of a broad array of marine 
infrastructure in the United States Arctic, it would be very 
difficult to adequately address even a limited number of risk 
scenarios for emergency response in the region.
    And I will just read my specific immediate requirements 
that come from the AMSA.
    The first is really we do need a comprehensive risk 
assessment of future marine activity in the Bering Strait 
region. We have one ongoing, of course, in the Aleutian Chain, 
but really what we need is one from the National Academy and 
the Coast Guard and other agencies to perform that risk 
assessment to find out what are the challenges ahead.
    We need to strengthen and build an Alaska ocean observing 
system so that system can be responsive to all of the users 
today and in the future.
    Certainly we need to expand hydrographic surveying and 
charting, and the legislation you proposed will help that, but 
it has to be sustained into the future.
    We need to develop an enhanced capacity for what is called 
Arctic marine traffic awareness, a fancy term for really 
monitoring and tracking ships. And part of that is to work with 
our Russian colleagues in passing and sharing data in real time 
so we have a picture in real time of ship traffic in and 
amongst the Russian Arctic and the United States Arctic here in 
the Bering Strait region.
    We need enhanced cooperation with the Russian Federation in 
environmental response and SAR, and we have some of that with 
the Coast Guard leadership here in Alaska.
    An important one is the future mandatory standards I have 
mentioned. You have to embed that in domestic legislation in 
the future.
    We certainly need a mix of icebreaking capability not only 
for the deep ocean but for the coastal ocean. So the Coast 
Guard needs capability to operate in coastal seas, and the buoy 
tenders and the ships of the future need to operate in ice-
covered waters and in shallow waters around the coast.
    An important one that we were not able to orchestrate in 
AMSA was we need in the United States and the other Arctic 
states need a comprehensive Federal and State survey of Arctic 
marine use by, in this case, Alaska's indigenous communities. 
Each of the Arctic countries were asked and the permanent 
participants in the Arctic Council and indigenous people were 
asked to conduct a survey, provide information to us in the 
AMSA effort, and we did not get any response from any of the 
Arctic states or the indigenous groups, which was interesting. 
We need that survey so we can match up survey with new uses so 
we can figure out a regulatory and safe management of the 
region.

                           PREPARED STATEMENT

    And finally, we need enhanced support for oil spills on 
ice. I am sure you will hear about that in the future.
    The challenges are many for Alaska's extensive maritime 
Arctic. We certainly need a strategic vision of sustained 
support.
    I thank you for this opportunity to testify before you.
    [The statement follows:]

              Prepared Statement of Dr. Lawson W. Brigham

    Good afternoon Madam Chair. Thank you for continuing to focus on 
issues related to the U.S. Arctic and America's many, key roles in the 
circumpolar world. From 2005-2009, I was Chair and U.S.-Lead for the 
Arctic Council's Arctic Marine Shipping Assessment (AMSA). My remarks 
will focus on AMSA and how AMSA's many outcomes relate to Alaska and 
U.S. Arctic interests.
Introduction
    The AMSA 2009 Report was approved by the 8 Arctic Ministers at the 
Arctic Council Ministerial Meeting in Tromso, Norway on April 29, 2009. 
This comprehensive study of current and future Arctic marine activity, 
led by Canada, Finland and the United States, can be viewed in three 
important and complementary ways:
  --As a baseline assessment of Arctic marine activity early in the 
        21st Century. We are confident all future studies on the topic 
        of Arctic marine shipping will use this 2009 assessment as an 
        important starting point for their future work.
  --Second, as an Arctic Council policy document--the 2009 Report is a 
        negotiated document where the 17 AMSA recommendations have been 
        accepted by the 8 Arctic national governments. Thus, AMSA is a 
        `message' to the world from the Arctic States on how they 
        intend, in broad principles, to protect Arctic people and the 
        Arctic marine environment. During the April 2009 Ministerial 
        Meeting, the U.S. Delegation had a highly influential role in 
        AMSA gaining approval of the entire final report.
  --And third, as a strategic guide for the Arctic State governments, 
        the global maritime industry, indigenous people, and for a host 
        of stakeholders who intend to use the Arctic Ocean throughout 
        the century. AMSA highlights a way forward, but also indicates 
        that significant research and infrastructure need to be funded 
        to provide for enhanced marine safety and marine environmental 
        protection throughout the Arctic Ocean.
Central Issues of AMSA
    The AMSA 2009 Report identified more than 90 specific findings. I 
believe seven central issues express the overall sense of the 
assessment:
    Presence of Arctic Shipping.--The global marine industry has 
already arrived in the Arctic to support natural resource development 
and regional trade. Also, there is a growing presence of large cruise 
ships in Arctic waters, especially in Greenlandic waters. The vast 
majority of these voyages are destinational (meaning the ship sails 
north, performs some marine activity, and sails south). There are few 
trans-Arctic voyages today, but more ships may attempt trans-Arctic 
voyages during future summers of reduced Arctic sea ice or ice-free 
conditions.
    Arctic Sea Ice Changes.--Arctic sea ice continues to retreat--
visible examples are record sea ice retreats north of Barrow during 
summer and autumn--providing increased marine access and potentially 
longer seasons of navigation along all Arctic routes. However, the 
winter sea ice cover will remain and regions of the Arctic will be 
partially ice-covered in spring, summer and autumn. The regulatory 
implication of this variable ice coverage is clear: future ships 
navigating in these Arctic waters will require some level of polar or 
ice class capability.
    Arctic Shipping Rules and Standards.--There is a general lack of 
uniform, mandatory and non-discriminatory Arctic ship regulations and 
mariner, ice navigation standards for the Arctic Ocean. There are no 
specifically tailored, mandatory environmental standards developed by 
the International Maritime Organization (IMO) for vessels operating in 
the Arctic.
    Future User Challenges.--Arctic marine activity will include mostly 
non-Arctic stakeholders, multiple users in Arctic waterways, and the 
potential overlap of new marine operations with traditional indigenous 
uses.
    Uncertainties of Future Arctic Navigation.--The AMSA scenarios 
effort identified a large number of uncertainties that may define the 
future of Arctic shipping: legal and governance regimes; oil and gas 
prices; hard minerals/global commodities pricing (for example nickel, 
copper, zinc, and high grade iron ore); climate change and sea ice 
variability; new resource discoveries; transit fees; world trade 
patterns; the roles of the marine insurance industry; advanced Arctic 
ship technologies, and more. The future of Arctic marine operations is 
linked to the global economy and depends on global and regional 
factors.
    The United Nations Convention on the Law of the Sea (UNCLOS).--
UNCLOS provides a fundamental framework for the governance of Arctic 
marine navigation and overall marine use. Since most of the Arctic 
region is an ocean, UNCLOS sets out the legal framework for the 
regulation of shipping according to maritime zones of jurisdiction. 
Also AMSA notes that the IMO is the competent U.N. agency for issues 
related to international shipping including maritime safety, security 
and environmental protection. The IMO acts as a secretariat for most 
international maritime conventions and facilitates their implementation 
through the adoption of numerous codes and guidelines that become 
international rules and standards.
    Arctic Marine Infrastructure.--There is a general lack of marine 
infrastructure in the Arctic except for areas along the Norwegian coast 
and coastal regions of northwest Russia. Missing or lacking 
infrastructure include: hydrographic data; charts; communications; 
ports and port facilities; adequate environmental monitoring (for 
weather, sea ice and icebergs); search and rescue (SAR) capability; 
environmental response capability; salvage; ship monitoring and 
tracking (Arctic maritime traffic awareness); aids to navigation; and, 
more. AMSA states clearly that the vastness and harshness of the 
environment make conduct of emergency response significantly more 
difficult in the Arctic. Significantly, the Arctic's hydrographic 
database for charting is not adequate in most areas to support current 
and future Arctic marine activities. And, the observation network of 
meteorological and oceanographic observations important to safe 
navigation is extremely sparse and not adequate for increased Arctic 
marine transportation.
AMSA Recommendations
    AMSA's 17 recommendations are presented in the report under three 
broad, inter-related themes: (1) Enhancing Arctic Marine Safety; (2) 
Protecting Arctic People and the Environment; and (3) Building the 
Arctic Marine Infrastructure. These themes are fundamental to 
understanding the complexity of responding to increased marine use and 
to the breadth of current and future investment required to achieve 
enhanced marine safety and environmental protection throughout the 
Arctic Ocean. Implementing the AMSA recommendations will require 
extensive international cooperation and public-private partnerships. 
The following are selected comments on the AMSA recommendations.
    Under the first theme, Enhancing Arctic Marine Safety, the Arctic 
states have decided to support (together) efforts at IMO to strengthen, 
harmonize and regularly update international standards for Arctic 
vessels. They have decided to support efforts to augment global IMO 
ship safety and pollution prevention conventions with specific 
mandatory requirements for ship construction, design, equipment, 
crewing, training and operations in the Arctic. It would be a goal that 
all ships operating in the U.S. Arctic waters meet these future 
requirements and standards. Also, the Arctic states have decided to 
support development and implementation of a comprehensive, multi-
national Arctic search and rescue SAR instrument (including 
aeronautical and maritime SAR). The Arctic Council has already formed 
an SAR Task Force led by the United States to initiate drafting of such 
an instrument. The Arctic states have also agreed to explore the 
possibility of uniform Arctic safety and environmental protection 
regulatory regimes, particularly for the central Arctic Ocean.
    For the second theme, Protecting Arctic People and the Environment, 
the Arctic states have recognized the importance of engaging with 
Arctic communities with effective communication when Arctic shipping 
and other economic activities are envisioned. They also understand and 
support exploring the need for internationally designated areas for the 
purpose of environmental protection in Arctic marine regions; the IMO's 
``special areas'' or Particularly Sensitive Area (PSSA) designation are 
possible tools to study. The Arctic states have also decided to enhance 
the mutual cooperation in the field of oil spill prevention. It is 
important to note that AMSA identified the release of oil into the 
Arctic marine environment (either accidental release or illegal 
discharge) as the most significant threat from Arctic shipping. In 
addition the Arctic states have decided to engage with relevant 
international organizations (such as IMO and the International Whaling 
Commission) to further assess the effects on marine mammals due to ship 
noise, disturbance and strikes in Arctic waters.
    For the last theme, Building the Arctic Marine Infrastructure, the 
Arctic states recognize the critical importance of greatly improving 
marine infrastructure in the region so as to enhance marine safety and 
marine environmental protection. They have given their support to 
continued development of a comprehensive Arctic marine traffic 
awareness system (for ship monitoring and tracking) and to improve ship 
data sharing in near real-time. These efforts will require close 
international cooperation and the involvement of the maritime industry. 
The Arctic states have decided to continue to develop a circumpolar 
pollution response capability through circumpolar and regional 
agreements. They also understand the need to improve access to data and 
information in support of safe navigation and voyage planning in Arctic 
waters. These efforts would entail enhanced hydrographic surveys and 
improved systems for meteorological and oceanographic information.
AMSA and U.S. Arctic Requirements
    All of AMSA's recommendations apply to the U.S. maritime Arctic and 
are of strategic importance. The outcomes of AMSA relate broadly to 
U.S. energy and economic security, environmental security, and surely, 
maritime/naval security. The entire U.S. maritime Arctic was addressed 
in AMSA and a specific area, the Bering Strait Region, was studied as a 
region of significance to the future of marine transportation in the 
entire Arctic basin. Without further investment and development of a 
broad array of marine infrastructure in the U.S. Arctic, it will be 
difficult to adequately address even a limited number of risk scenarios 
for emergency response in the region.
    A review of the findings, recommendations and analyses of AMSA 
suggests the following select and immediate requirements for the U.S. 
maritime Arctic:
  --A comprehensive risk assessment of future Arctic marine activity in 
        the Bering Strait region.
  --Strengthening and building an Alaska ocean observing system that 
        can be responsive to the needs of an expanded number of marine 
        users throughout U.S. Arctic waters.
  --Significantly expanded hydrographic surveying and charting in the 
        Bering Strait region and in all U.S. Arctic waters as marine 
        use moves northward.
  --Development of an enhanced capacity for Arctic marine traffic 
        awareness--a system to monitor and track ships, particularly in 
        the Bering Strait region and across the North Slope--and 
        continued cooperation with the Russian Federation regarding 
        ship data sharing in near real-time.
  --Enhanced cooperation with the Russian Federation on Arctic 
        environmental response and SAR in the Bering Strait region.
  --Application of future mandatory standards and guidelines for Arctic 
        ships developed at IMO to U.S. Arctic waters through timely 
        implementation of maritime regulatory legislation.
  --Building a mix of icebreaking capability to meet U.S. national 
        interests in Alaska's Arctic coastal waters and strategic needs 
        throughout the Arctic Ocean.
  --Conducting a comprehensive federal and State of Alaska survey of 
        Arctic marine use by Alaska's indigenous communities to assess 
        the impacts of future marine operations in U.S. arctic waters.
  --Enhanced support for oil spills in ice research and continued 
        investment in scientific development of ecosystems-based 
        management and the large marine ecosystem (LME) concept as 
        tools for application in the U.S. maritime Arctic.
    The challenges of expanded marine use along Alaska's extensive 
maritime Arctic are many. The future will require a strategic vision of 
sustained support and a full realization that the U.S. maritime Arctic 
is important to our national security and economic interests.
    Thank you for the opportunity to testify before you today on AMSA 
and the Arctic. I am pleased to answer your questions.

    Senator Murkowski. Thank you, Dr. Brigham.
    Mayor Itta, welcome.
STATEMENT OF EDWARD S. ITTA, MAYOR, NORTH SLOPE 
            BOROUGH, ALASKA
    Mr. Itta. Thank you. I am honored to be here today, 
Senator, and especially grateful to you for the opportunity to 
sit on this panel, one of the first I believe that has happened 
relative to my home country. And it is interesting that the 
homeland security portion is tied into this.
    I want to lead off by saying that while I am the North 
Slope Borough mayor, my thoughts and feelings come from a 
lifetime spent in the Arctic as an Inupiaq Eskimo, as a whaling 
captain, and as a hunter under the guidance of elders and 
expert hunters like my father and his father before him as far 
back as we can remember, as well as my own experience as I just 
stated.
    I note that there are five general areas that are of 
importance, and I will just note them: fishing; tourism, i.e., 
cruise ships; marine transportation; and energy. I want to add 
a fifth, and that is where I am coming from and that is 
relative to the issue of subsistence and sustenance through 
subsistence and value of being Inupiaq as a culture. I want to 
focus today my discussions on the first and the fifth or the 
fourth and the fifth items I stated. Largely my testimony will 
be related to energy as it relates to subsistence and our 
culture.
    As our people have observed the increasingly rapid retreat 
of the multi-year ice pack and other symptoms of global climate 
change, one thing has become clear. Our land, the Arctic, is 
under a lot of stress, and it could be stressed further by 
commercial opportunities that arise as the polar ice cap 
continues to shrink. As residents of the Arctic, we are 
worried. As citizens of the United States, we are determined to 
see that human activity under these fragile conditions does not 
make things worse.
    In the next few minutes, I would like to share my ideas for 
making sure that a more accessible Arctic is not thrown into 
further imbalance by future commercial or industrial activity.
    The first thing I believe we need to do--and I am glad to 
hear that this is a general area of consensus of a lot of my 
colleagues--is to beef up the scientific research effort in the 
Arctic to make sure that we have adequate baseline data. We 
have to know the wildlife populations and the habitat before 
any of these activities in the outer continental shelf get 
underway. And I say this because if we do not, we will not be 
able to measure impacts or understand the impacts of the 
activities going forward. We need a line of reference, and we 
do not have that.
    A combined Federal, State, and local framework for 
collaborative research is already in place, and this is one 
that you are familiar with and that we thank you for 
supporting, and that is the North Slope Science Initiative. It 
needs adequate funding. It has got a great mission. It wants to 
combine the efforts of various agencies and entities so that 
there is some coordination in all the activities.
    Responsible resource development in an increasingly fragile 
polar world will also require strong regulatory protections. 
And I want to applaud you, Senator Murkowski, for recognizing 
this in your proposed language that requires any proposed 
offshore oil and gas production, to use pipelines to shore-
based facilities rather than tanker transportation across 
Arctic waters to distant infrastructure because we know most of 
the damage of oil spills has been caused in the transportation 
process. This is a fundamental safety precaution that must be 
in place in the event of OCS production.
    At the same time, the Federal Government has to apply 
existing regulations more vigorously in the offshore leasing 
process. That is the only way to prevent what has unfortunately 
happened in the last few years, when environmental reviews and 
other regulatory standards that are in place now have been so 
poorly applied that it forces us into court. And this is 
certainly not where I want to engage our oversight agencies. I 
do not believe that that is the answer, but I firmly believe 
that this is indicative of a problem that needs to be looked 
into out here.
    During the past 30 years, we in the North Slope have worked 
with industry hand in hand in support of onshore Arctic oil and 
gas development. During that three decades, one of the things 
that we have noticed is that individual projects can have a 
specific set of impacts, but in combination with other nearby 
projects, they can also have additional cumulative impacts. We 
think it is important for these to be separately monitored and 
analyzed in the course of development because while one project 
will not hurt a specific group of animals that migrate, a 
number of them will when you put them all together. There is no 
system in place right now to look at cumulative impacts as a 
whole, and we believe that that is an important area.
    When I talk about baseline science and cumulative impacts, 
I get often a lot of resistance, impressions of code words. 
Some people think that these kind of protective standards are 
beyond what is necessary, but this is how I look at it. We have 
heard widely publicized and widely promoted predictions 
relative to oil and gas in the Arctic OCS, numbers of $70 
billion that might be there in resource wealth. $70 billion. 
Such vast upside potential carries with it, I believe, a 
responsibility to use world-class standards and safeguards that 
minimize any potential costs in damage to the Arctic 
environment and the subsistence way of life. World-class 
safeguards should include zero volume discharge requirements 
like they have in Norway. Spill prevention and response 
measures should be viewed really as a good investment to 
industry that pays dividends in avoiding the cost of a spill 
response.
    I would also like to see a provision in Federal law that 
requires independent State licensed marine pilots on certain 
types of vessels crossing the Arctic Ocean both in the Chukchi 
and the Beaufort Sea. It is a preventive measure that makes as 
much sense in the Arctic as it does in Cook Inlet or in the 
Prince William Sound.
    I believe these kind of safeguards make even more sense in 
the Arctic than they do in development areas further south 
because we know as a people living there the Arctic is uniquely 
unforgiving, hardly any room for error and mistakes. We know 
this living life and death issues that we are aware of. Broken 
ice conditions, scenarios that have never been encountered 
before--broken ice conditions at various times of the year make 
any kind of a spill response virtually impossible, which means 
spill prevention is doubly, maybe triply, important.
    Also, the Arctic has very little emergency response 
capability, as my colleague here--and I might note that you 
have been active in the Inuit Circumpolar Council as the unit 
in Alaska that works with as a permanent participant through 
the Inuit Circumpolar Council--that the 17 points he mentions 
are vitally important. We have very little emergency response 
capability. And you mentioned we do not have safe harbors for 
vessels and whatnot in the event of a catastrophe or an 
accident in an area that is so vast and so remote, people have 
no comprehension of what it is that we are talking about.
    As we see this exploding interest in OCS resource 
development, marine shipping, and other uses, it is pretty 
clear to us that the Arctic needs a Coast Guard presence, and 
we wholeheartedly support the efforts, the good efforts, of 
Admiral Allen and his group. We need a year round Coast Guard 
presence in the North Slope and better navigational 
infrastructure. There are so many basic infrastructure items 
that are lacking now.
    And I do not want to end just on an entirely seemingly 
negative tone. We as a people know and understand the 
importance of energy relative to our needs of our country. We 
are U.S. citizens. Our North Slope Borough was founded and is 
funded through oil and gas. Our hope, our dream is to coexist 
and find a way to come together as the Arctic opens up further 
and further.

                           PREPARED STATEMENT

    So this is an exciting time in terms of the potential for 
new commercial activities in the Arctic, and as I stated, it is 
also a time for great concern for us as a people that live 
there. We have the most to lose if any mistakes are made over 
there in the Arctic waters. We cannot just relocate or move 
somewhere. We live there. This is what identifies us as a 
people, and the fate of the Arctic is our fate. And I hope, 
Senator, you in Congress will remember this, as you determine 
America's new role as an Arctic nation.
    Thank you very much.
    [The statement follows:]

                  Prepared Statement of Edward S. Itta

    I'm honored to be here today, and I'm grateful to you, Senator 
Murkowski, for the opportunity to sit on this panel. My title may be 
North Slope Borough mayor, but my thoughts and feelings come from a 
lifetime spent in the Arctic under the guidance of elders and expert 
hunters like my father, as well as from my own experience as a hunter 
and whaling captain.
    As our people have observed the increasingly rapid retreat of the 
multi-year ice pack and other symptoms of global climate change, one 
thing has become clear--the Arctic is under a lot of stress. And it 
could be stressed further by commercial opportunities that arise as the 
polar ice cap shrinks. As residents of the Arctic, we are worried. As 
citizens of the United States, we are determined to see that human 
activity under these fragile conditions does not make things worse.
    In the next few minutes, I'd like to share some of my ideas for 
making sure that a more accessible Arctic is not thrown into further 
imbalance by commercial and industrial activity.
    The first thing I believe we need to do is to beef up the 
scientific research effort in the Arctic to make sure we have adequate 
baseline data. We have to know the status of wildlife populations and 
habitat before OCS development gets underway, or else we won't be able 
to measure and understand the impacts of activity going forward. A 
combined Federal, State and local framework for collaborative research 
and data sharing is already in place through the North Slope Science 
Initiative. It just needs to be adequately funded.
    Responsible resource development in an increasingly fragile polar 
world will also require strong regulatory protections. I want to 
applaud Senator Murkowski for recognizing this in her proposed 
legislation that requires any offshore oil and gas production to use 
pipelines to shore-based facilities rather than tanker transportation 
across Arctic waters to distant infrastructure. This is a fundamental 
safety precaution that must be in place in the event of OCS production.
    At the same time, the Federal Government has to apply existing 
regulations more vigorously in the offshore leasing process. That's the 
only way to prevent what has happened in the past few years, when 
environmental reviews and other regulatory standards have been so 
poorly applied that it forced us into court, which is not where we want 
to engage with the oversight agencies.
    During the past three decades, we have worked with industry in 
support of onshore Arctic oil and gas development. One of the things we 
noticed over the years is that individual projects can have a specific 
set of impacts, but in combination with other nearby projects they can 
also have additional, cumulative impacts. We think it's important for 
these to be separately monitored and analyzed in the course of 
development, because most Arctic wildlife species migrate over vast 
distances and are susceptible to these cumulative changes.
    When I talk about things like baseline science and cumulative 
impacts, I often get a lot of resistance. Some people think these kinds 
of protective standards are beyond what is necessary. But here's how I 
look at it--we have all heard widely-promoted predictions that the 
Arctic OCS could contain $70 billion in resource wealth. Such vast 
upside potential carries with it a responsibility to use world-class 
safeguards that minimize any potential costs in damage to the Arctic 
environment and the subsistence way of life.
    World-class safeguards should include zero-volume discharge 
requirements like they have in Norway.
    Spill prevention and response measures should be viewed as a really 
good investment that pays dividends in avoiding the costs of a spill.
    I'd also like to see a provision in Federal law that requires 
independent, state-licensed marine pilots on certain types of vessels 
crossing the Chukchi and Beaufort Seas. It's a preventive measure that 
makes as much sense in the Arctic as it does in Prince William Sound, 
where it was put in place after the Exxon Valdez oil spill.
    These kinds of safeguards make even more sense in the Arctic than 
they do in development areas farther south, because the Arctic is a 
uniquely unforgiving place to operate. Broken ice conditions at various 
times of year make spill response virtually impossible, which means 
spill prevention is doubly important. Also, the Arctic has very little 
emergency response capability for an area that is so vast and remote. 
As we see this exploding interest in OCS resource development, marine 
shipping and other uses, it's pretty clear the Arctic needs a year-
round Coast Guard presence and better navigational infrastructure.
    This is an exciting time in terms of the potential for new 
commercial activity in the Arctic. It's also a time of great concern 
for the people who live there. We have the most to lose from mistakes 
that are made in Arctic waters. We can't just relocate if things go 
wrong, because the Arctic is our home. It defines us as a people, and 
its fate is our fate. I hope the Congress will remember this as you 
determine America's new role as an Arctic Nation.

    Senator Murkowski. Thank you, mayor, for your very 
articulate statement. I appreciate that. Thank you for being 
here.
    Now we go to Mr. Mead Treadwell.
STATEMENT OF MEAD TREADWELL, CHAIR, U.S. ARCTIC 
            RESEARCH COMMISSION
    Mr. Treadwell. Thank you, Senator, for having me here today 
to testify on the strategic importance of the Arctic in U.S. 
policy.
    As you know, Madam Chair, in 2007, the commission 
recommended to the President that we conduct in this country a 
new Arctic policy review. The last time one had been done was 
1994. That is a secret document which cannot be read by the 
general public, but because of the great changes we have seen 
witnessed in the Arctic, we thought the United States should 
have a new Arctic policy. That document approved is public. It 
is a national security presidential directive. We worked with 
the interagency process to see it born, but we really wanted to 
thank you for the extra effort we know you made to make sure it 
saw the light of day.
    We are now working in an interagency deliberation that is 
working to implement this policy, and at the same time, the new 
administration has got an ocean policy task force which is 
going to give us a chance again to look at the Arctic policy 
and make any corrections or fixes as it goes on. And that 
group, with Admiral Allen and the others that he mentioned, 
will be meeting tomorrow. So that is a very positive thing.
    In fact, yesterday I had the opportunity to join the 
Commandant, NOAA Administrator Lubchenco, Interior Under 
Secretary Hayes, and the two leaders from the White House 
environmental team on a flight which took us over the North 
Slope oil fields onshore and offshore. We released a buoy in 
the Arctic Ocean, saw the diminishing ice pack quite a few 
miles offshore. We saw a scampering polar bear on a barrier 
island, and we visited with North Slope Mayor Itta and his 
team. And thank you very much for a very nice lunch, Mr. Mayor.
    Clearly on the minds of our visitors was what next do we 
need to do in the Arctic as Arctic policy. And Madam Chair, 
there is a number of goals and objectives, but I bring them 
down to three things: investigation, investment, and 
international cooperation. Let me address each of these in 
turn.
    Investigation means research. Change in the Arctic requires 
a robust program of research. A global climate mitigation 
system, which we are working to try to develop, without Arctic 
and Antarctic research is like having a ship without a chart or 
a rudder. Research is also necessary to understand the resource 
potential of the Arctic and it has been mentioned before what 
is out there, what may be at risk from fishing or oil spills as 
shipping and industrial activity moves into the Arctic Ocean.
    We supported the AOOS workshop last January to begin 
thinking about how can we have an integrated Arctic Ocean 
research plan. There is some legislation pending, as you know. 
One thing I have heard a lot from the leaders of the new 
administration is that they want to be able to apply a spatial 
planning process in the Arctic Ocean, and we cannot do that 
appropriately without having the baseline research that has 
been discussed.
    Research is also necessary to help Arctic people, 
especially our indigenous peoples, respond to change, and while 
satellite pictures can show you the rapid retreat of sea ice, 
what you cannot see but should be just as concerned about is 
the rapid loss of indigenous languages spoken for thousands of 
years in the Arctic and with that loss, a tremendous loss of 
knowledge, culture, and identity goes with it.
    And while we are on the subject of people, it is the 
commission's strong recommendation that our national health 
research program dig deep, much deeper than before into the 
causes of the suicide epidemic that takes so many native youth, 
not just in Alaska where the rate is four times that of the 
national average but across the north.
    Investment. To meet our responsibilities in the changing 
Arctic, we need to have the means and the willingness to invest 
both capital and operating sums. We pay particular attention to 
the use of Coast Guard icebreakers, ice-strengthened research 
vessels, and sensor networks. We appreciate the fact that 
Congressman Young has introduced an Arctic Marine Shipping 
Assessment Implementation Act to address this investment need 
and that you and Senator Begich have introduced companion 
bills. The big ticket icebreaker issue I will talk about in 
just a moment.
    International cooperation. The policy of the United States 
also speaks directly to the need for international cooperation 
to accomplish many, if not all of our goals in the newly 
accessible Arctic. And I have heard my colleague here today 
talk about domestic regulation, and there are some new domestic 
regulations needed, but basically to make most of those stick 
in an ocean which is open to all, we need international 
cooperation. We need it in fishing. We need it in shipping, and 
frankly, we can have the best regulations on oil and gas on our 
shores, but if somebody is messing up on the other side of the 
Chukchi Sea, we have not done ourselves much good either. So 
international cooperation is needed there. It is needed with 
trans-boundary wildlife. We have to do a much better job 
supporting our co-management activities from the Arctic Eskimo 
Whaling Commission to the walrus group, to making the new polar 
bear treaty work. There is some great frustration there that I 
think we need to look into.
    We talked about the Law of the Sea. We talked about that 
before. The commission has recommended that that treaty be 
ratified by the Senate. We are doing the work to make a claim. 
To answer the question that you asked the Commandant, our 
original estimate was that it would be about a $75 million 
exercise. We are about a third year into that, spending about 
$6 million to $8 million a year. There is some more work to be 
done. We have learned a lot of new things in that process, and 
there is a long voyage just about to begin for this year's 
work.
    We had to work with all the nations bordering the Arctic 
Ocean to get the same rights to research throughout the Arctic 
Ocean that legitimate researchers have in Antarctica. If you 
look at that neighborhood on that map, Senator, you will notice 
that it is a fairly small ocean as oceans go. Right now, I 
think about 12 of the last 14 times we have requested access in 
Russian waters to take bottom grab samples and so forth, we 
have been denied permission to go in with our ships. Yet, in 
Antarctica any legitimate researcher can go anywhere or on the 
margin. And that is one problem that was not addressed in the 
Law of the Sea and that we have been urging our nations to 
address internationally.
    When it comes to fishing, the United States' plans for a 
moratorium on fishing in the high north could be much for 
naught unless we reach cooperation with Canada and Russia and 
those nations who would fish the high seas. Toward that end, 
the Arctic Research Commission is cosponsoring with the NPRB, 
the Department of State a conference here, the first 
international conference on Arctic fisheries, October 19-21 
here in Anchorage to at least get all those issues on the table 
with experts.
    Finally, to meet our Nation's research objectives, we not 
only need access throughout the Arctic but cooperation in 
establishing trans-boundary monitoring networks. And I will 
speak a little bit more to that in a moment.
    So this is the Homeland Security Subcommittee of 
Appropriations. Let me give you a few things within the purview 
specifically of this committee that you might want to look at.
    The commission is on record as supporting two polar-class 
icebreakers to replace the Polar Star and the Polar Sea, which 
are operating past the end of their service life. The policy of 
the United States--this has been a very difficult decision 
inside the administration. We understand the process that 
Admiral Allen spoke about. As a background for that process, 
the commission worked very hard to get a National Academy study 
that came up with the basic justification for the two new 
icebreakers. The ice is receding, but it can ridge up into 
conditions no other kind of icebreaker can handle besides a 
polar-class vessel, and we need an all-weather, all-hazards 
capability in the Arctic, as we do other places.
    Monitoring networks, imagery and mapping, including the 
Sustaining Arctic Observing Network, which relies on sea, air, 
land, and space sensing, terrestrial and space 
telecommunications infrastructure. That has been discussed. It 
is probably the most important legacy that we will leave in the 
science infrastructure area after the International Polar Year. 
A finer mapping of Alaska in the Arctic region will assist 
intelligence and defense objectives, as well as emergency 
response to storms and wildfires. This committee should be 
aware of the important work done by the National Ice Center. 
The idea of homeland security--basically it was the homeland 
security needs that have helped move forward the mapping effort 
that is going on now. I am very glad the Governor mentioned it. 
The State has been a full partner in this exercise, but if not 
for the intelligence community weighing in as part of homeland 
security needs, I do not think we would be moving forward.
    To underscore the importance of the Arctic observing 
networks, let me note this. The United States intends to embark 
this December with other nations on a global mitigation scheme 
for climate change by reducing greenhouse gas emissions. Two of 
the largest wild cards critical to the success of that 
mitigation effort involve feedbacks from the amplified air and 
water temperature of the Arctic region. Temperature rise can 
produce a massive injection of methane into the atmosphere from 
warming permafrost and from sources beneath the ocean. With 
receding ice comes a reduced albedo of the earth where much 
more solar radiation is absorbed by darker sea water instead of 
being reflected into space by whiter sea ice. An appropriate 
monitoring system, therefore, is a strategic asset for the 
world besides addressing the local issues that we have here. It 
is also going to allow us to have much better higher-resolution 
models to understand what is happening in various local parts 
of the Arctic, something that we found in the Arctic Marine 
Shipping Assessment we need very much.
    Oil spill research. Perhaps the most important near-term 
action this subcommittee could take as a result of this hearing 
is to join with us to help kick start a renewed Arctic oil 
spill research program. Madam Chairman, I had the opportunity 
after the Exxon Valdez disaster to work with the Congress to 
help write the Oil Pollution Act of 1990. The law set up a 
robust research program, including an interagency committee to 
coordinate oil spill research. That committee has not met 
regularly. It has not kept public records. It has not developed 
the kind of spill research program that the Congress expected. 
As a matter of oversight, we thought you should know that.
    Much of the Nation's oil spill research that is conducted 
in the Arctic is conducted through a joint industry program in 
Norway. A recent test there, costing over $10 million, showed 
promising results for a number of technologies, including 
burning, skimming, dispersants, coagulants, and bioremediation. 
But as Mayor Itta said, there is much more work to be done.
    I am confident the Nation has the means with the Oil Spill 
Liability Trust Fund to fund a program that Congress asked to 
be developed but has not been. That fund is $2.7 billion, 
replenishable from a nickel a barrel tax paid on oil imported 
into the United States. At present, that is about 15 million 
nickels a day, and at $70 a barrel, the cost of the tax is far 
less than 1 percent of the cost of oil. There are innovative 
ways just on the way the interest on this fund is used today, 
including to support the Denali Commission in repairing bulk 
fuel tanks and the Prince William Sound Oil Spill Recovery 
Institute. I believe that we should have a national program of 
at least $30 million to $50 million a year, and out of that, at 
least a $10 million program in the Arctic to address the issues 
that you have got. When you sell leases in the Chukchi for $2.7 
billion, when Mayor Itta explains to us why he feels he has to 
go to court, and we cannot even turn to an integrated, across-
the-Government, a whole Government approach, as the Admiral 
said, program on oil spill research, and it is about time we 
had one.
    There is a lot more I could say. I am going to leave time 
for questions. But I really appreciate the chance to be here.
    And I want to conclude my testimony by passing on a comment 
raised by Commissioner Vera Metcalf, a resident of Nome. In her 
capacity as a commissioner and as director of the Arctic Eskimo 
Walrus Commission, Vera has worked to help the Coast Guard, 
moving operations north, to have closer communication with 
Arctic residents and Arctic communities. To quote her, ``If 
there were a way for coastal communities to become more aware 
of important issues such as these, perhaps through town hall 
meetings, it would be helpful for us,'' Vera wrote. ``The 
Bering Strait is becoming more of a portal for all ship 
traffic, and I am sure there is some form of high level 
agreement with Russia for search and rescue, but the strait is 
a prime strategic area.''

                           PREPARED STATEMENT

    She is right. The Bering Strait, sometimes now called the 
Bering Gate, is a prime strategic area and the entire Arctic 
Ocean is as well. Work to make sure that activity in this part 
of the world's oceans is safe, secure, and reliable has just 
begun, and we look forward to working with the subcommittee in 
the years to come.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Mead Treadwall

    Senator Murkowski, thank you, Chairman Inouye and Chairman Byrd for 
the opportunity to testify today on the strategic importance of the 
Arctic and U.S. Policy.
    As a member of the U.S. Arctic Research Commission \1\ since 2001 
and chair since 2006, I can report that our Commission shares with you 
the understanding that the Arctic is a vital, strategically important 
region of the United States--and is getting more so.
---------------------------------------------------------------------------
    \1\ Mead Treadwell is chair of the U.S. Arctic Research Commission, 
www.arctic.gov. The Commission, established by the Arctic Research and 
Policy Act of 1984, has seven members appointed by the President to set 
goals for the U.S. Arctic Research Program. The director of the 
National Science Foundation serves as an ex-officio member of the 
Commission and chair of the Interagency Arctic Research Policy 
Committee (IARPC), which takes the Commission's established goals and 
coordinates approximately $400 million in annual Arctic research 
activities conducted by over a dozen federal agencies with Universities 
and international partners. Treadwell is Senior Fellow of the Institute 
of the North, founded by former Alaska Governor Walter J. Hickel. The 
Institute conducts research on Arctic policy, energy and fishing, 
infrastructure, defense and security issues. Treadwell is CEO of 
Venture Ad Astra, LLC, a private investment development firm. With Tim 
Wiepking, he co-chaired the Commonwealth North study group which 
published, May, 2009, Why the Arctic Matters: America's 
Responsibilities as an Arctic nation. http://www.commonwealthnorth.org/
index.cfm?fa=docjump&documentid=370
---------------------------------------------------------------------------
    In 1867, after a bloody Civil War, the United States struggled with 
whether we should become an Arctic nation. Detractors of the Alaska 
Purchase called it ``Seward's Folly.'' Russian America, which had 
supplied the world great quantities of whale oil and fur, was decried 
also as ``an icebox,'' a ``sucked orange'' with the bulk of its 
resources already exploited, or, my favorite, ``Walrussia.'' In 1959, 
Congress again struggled with Alaska: in the Statehood debate, a major 
issue was whether Alaska could support itself, and contribute to the 
Nation.
    Today, those who think about America's strategic interests know 
better. General Billy Mitchell, considered the father of the U.S. Air 
Force, predicted the strategic value of Alaska as the world entered the 
air age. An attack and occupation in the Aleutian Islands by Japan in 
World War II, which quieted ship and troop transport via the North 
Pacific's ``great circle'' route, further indicated the strategic value 
of Alaska's location. Since oil began flowing through the Alaska 
pipeline in 1977, America's Arctic has been a major producer of 
energy--helping the Nation buy less from foreign sources and increasing 
our national security thereby. A recent USGS estimate that 13 percent 
of the world's undiscovered oil and 30 percent of the world's 
undiscovered natural gas is to be found inside the Arctic Circle--not 
to speak of the vast tidal, wind, methane hydrates and unconventional 
fossil fuels, coal, geothermal, hydro energy resources also to be 
found--strengthens the case that the United States has strategic 
interests here.
    Clearly, our Arctic is no ``sucked orange.'' It is well understood 
that the Arctic helps feed, fuel, and defend America. Arctic fisheries, 
in the Bering Sea near here, or the North and Barents Sea near Iceland 
and Norway, lead the world in production. Global air transport criss-
crosses the Arctic to link the continents, and after 500 years of 
exploration and imagination about Northern Sea Routes, sea transport 
may, soon, as well. Arctic military assets--the DEW Line, our 
submarines, our sensors in the air and at sea, our soldiers, sailors 
and airmen--stood guard during the Cold War. The missile defense 
installation activated recently at Fort Greely does the same--sited on 
northern latitude ``high ground'' that puts it in position to deflect 
inbound ballistic missiles aimed at North America from the Middle East 
or the Western Pacific.
    In 1994, the United States issued, in secret, the first Arctic 
Policy written with public input. According to a press release at the 
time, that policy emphasized the opportunity for international 
cooperation to protect the environment, and led the United States to 
join the eight-nation Arctic Council. In 2007, our Commission 
recommended to the President that he conduct a new Arctic policy 
review--given the great changes we've witnessed in the North. The new 
Arctic Policy document approved earlier this year was the first public 
National Security Presidential Directive/Homeland Security Presidential 
Directive ever issued for this region, and it details, in response to 
change, a broad range of U.S. objectives in the North.\2\ The 
Commission thanks you, Senator Murkowski, for the extra effort we know 
you made with the President to get that policy signed last winter and 
released into the light of day. We participated in the interagency 
deliberation that developed this policy, and we are working now with 
fellow agencies in the U.S. government--from the Department of State, 
the Coast Guard in Homeland Security, the Department of Interior, NSF 
and NOAA, among them--to see it implemented.
---------------------------------------------------------------------------
    \2\ The text of NSPD-66 /HSPD-25, issued January 9, 2009, can be 
found at http://www.arctic.gov/news/2009%20Arctic%20Region%20Policy.pdf
    It states that the policy of the United States is to:
      --Meet national security and homeland security needs relevant to 
the Arctic region;
      --Protect the Arctic environment and conserve its biological 
resources;
      --Ensure that natural resource management and economic 
development in the region are environmentally sustainable;
     --Strengthen institutions for cooperation among the eight Arctic 
nations (the United States, Canada, Denmark, Finland, Iceland, Norway, 
the Russian Federation, and Sweden);
      --Involve the Arctic's indigenous communities in decisions that 
affect them; and
      --Enhance scientific monitoring and research into local, 
regional, and global environmental issues.
---------------------------------------------------------------------------
    Madame Chair, there are a number of goals and objectives in the 
policy, but as I think of the task of implementation ahead of us for 
the ation, it comes down to three things, ``i-words,'' if you will: 
investigation, investment, and international cooperation. Let me 
address each of these in turn:
    Investigation.--Change in the Arctic requires a robust program of 
research. Scientific research is necessary to understand climate 
change, and to guide the global response in both ``mitigation'' and 
``adaptation.'' A global climate mitigation program without polar 
(Arctic and Antarctic) research to back it up would be a ship without a 
chart--or a rudder.
    Research is necessary to understand the resource potential of the 
Arctic, and what may be at risk from fishing or oil spills, as shipping 
and industrial activity moves into the Arctic Ocean.
    Research is necessary to help Arctic people, especially our 
indigenous peoples, respond to change. While satellite pictures can 
show you the rapid retreat of sea ice, what you can't see--but should 
be just as concerned about--is the rapid loss of indigenous languages, 
spoken for thousands of years in the Arctic. With that loss, a 
tremendous loss of knowledge, culture and identity goes with it.
    And while we're on the subject of people, it is the Commission's 
strong recommendation that our national health research program dig 
deep, much deeper than before, into the causes of the suicide epidemic 
that takes so many native youth--not just in Alaska, where the rate is 
four times that of the national average, but across the North.\3\
---------------------------------------------------------------------------
    \3\ The U.S. Arctic Research Commission has established five 
thematic goals for the Nation's Arctic research program: Environmental 
Change of the Arctic Ocean and Bering Sea, Arctic Human Health, Civil 
Infrastructure Research, Natural Resource Assessment and Earth Science, 
Indigenous Language, Identity, and Culture. See http://www.arctic.gov/
reports_goals.html Those goals are carried out by an interagency 
process, headed by the Interagency Arctic Research Policy Committee 
(IARPC), http://www.nsf.gov/od/opp/arctic/iarpc/start.jsp
---------------------------------------------------------------------------
    Investment.--An accessible Arctic Ocean requires our presence. As 
I've heard my colleague, Coast Guard Commandant Admiral Allen, say 
about the Arctic many times, ``where there was once ice there is now 
water.''
    We pay particular attention to the use of Coast Guard icebreakers, 
ice-strengthened research vessels, and sensor networks (buoys, 
satellites, and other elements of monitoring networks in or under the 
sea, on the land, in the air and in space) in Arctic research. But as 
was shown in the Arctic Marine Shipping Assessment, completed by the 
eight Arctic nations this spring, the Arctic Ocean will need aids to 
navigation, hydrographic mapping, search and rescue, ports of refuge, 
and salvage capability as this ocean becomes accessible to the world. 
We appreciate the fact that Congressman Young has introduced an Arctic 
Marine Shipping Assessment Implementation Act to address this 
investment need, and that you and Senator Begich have introduced 
companion bills.
    Infrastructure investment onshore, to help our communities respond 
to rapidly eroding shorelines, is also necessary. As areas that were 
protected by ice are increasingly swamped by water, this committee and 
its sister appropriators have a choice to make--invest now, or send 
FEMA later. Our belief is you want to invest now, and we have urged an 
appropriate research program to guide that effort. Senator Begich, in 
his collection of Arctic bills introduced recently, addresses this in 
S. 1566, the Arctic Climate Adaptation Act.
    In other words, to meet our responsibilities in the changing 
Arctic, we need to have the means and willingness to invest both 
capital and operating sums.
    International Cooperation.--The policy of the United States also 
speaks directly to the need for international cooperation to accomplish 
many, if not all, of our goals in the newly accessible Arctic.
    The basis of cooperation in the Arctic is not just the eight-nation 
Arctic Council, but the global United Nations Convention on the Law of 
the Sea. For several years now, our Commission has recommended that 
treaty be ratified by the Senate. Doing so will help extend the 
territory of the United States in areas where the continental shelf 
goes outside our 200-mile limit. Our Nation is doing the work to make a 
claim, but we cannot sit at the table, make our claim or comment on 
those being made by four other Arctic nations in this ocean, until we 
ratify the treaty.
    We need to work with our Arctic neighbors, as well as other 
national partners, on other objectives as well. We should resolve our 
boundary with Canada in the Beaufort Sea region. We should work with 
all nations bordering the Arctic Ocean to get the same rights to 
research throughout the Arctic Ocean that legitimate researchers have 
in Antarctica. In the past several years, Russia has denied United 
States and other nations research vessels access inside their exclusive 
economic zone many times.
    When it comes to shipping, the policy contemplates cooperative 
efforts in establishing vessel traffic rules for areas like the Bering 
Strait, and common efforts to provide search and rescue in the Arctic 
Ocean.\4\
---------------------------------------------------------------------------
    \4\ The Commission provided staffing for leadership of the Arctic 
Council's Arctic Marine Shipping Assessment (AMSA), which established 
an eight-nation agenda for cooperation in Arctic shipping, much of it 
to be accomplished before the United Nations International Maritime 
Organization (IMO). See http://www.arctic.gov/publications/
AMSA_2009_Report_2nd_print.pdf
---------------------------------------------------------------------------
    When it comes to fishing, the United States' plans for a moratorium 
on fishing in the high North could be much for naught unless we reach 
cooperation with Canada and Russia, and those nations who would fish 
the high seas.\5\
---------------------------------------------------------------------------
    \5\ Toward this end, the U.S. Arctic Research Commission is among 
the sponsors of ``Managing Resources for a Changing Arctic,'' an 
International Arctic Fisheries Symposium October 19-21, 2009 in 
Anchorage, Alaska, designed to initiate international discussions for 
conserving and managing future fisheries in the Arctic Ocean, including 
managing migratory, trans-boundary and straddling fish stocks. http://
www.nprb.org/iafs2009/
---------------------------------------------------------------------------
    When it comes to oil and gas development, in our Nation or others, 
a common approach to high standards is advisable, through the Arctic 
Council or other means. Last fall, the United States and Canada held a 
conference here in Anchorage, supported in part by the Commission, to 
compare ways we can improve Arctic oil and gas development.
    Finally, to meet our Nation's research objectives, we need not only 
access throughout the Arctic, but cooperation in establishing trans-
boundary Arctic monitoring networks. There is much work to be done in 
this Arctic neighborhood.
    Madame Chairman, as this is the Homeland Security Subcommittee of 
the U.S. Senate's Appropriations Committee, let me conclude with a set 
of recommendations from the Commission's standing objectives that this 
Committee may wish to address.
    Homeland Security Infrastructure.--The Commission is on record in 
support of building two new Polar Class icebreakers to replace the 
Polar Star and Polar Sea, which are operating past the end of their 
service life. The policy of the United States is not yet as specific, 
but the need for an all-weather, all conditions maritime capability is 
clear. Ice is receding, but it can ridge up into conditions no other 
kind of icebreaker can handle. Our icebreakers are used for a variety 
of missions--from having a national presence in the Arctic Ocean (as 
well as in the Antarctic), being able to provide law enforcement, 
border protection, fisheries enforcement, environmental and other 
emergency response, and search and rescue. As well, these vessels are 
our primary platform for Arctic Ocean research. During time of war, 
these ships perform the functions of a naval vessel. If we are serious 
about maintaining safety, security, and the natural environment of the 
Arctic Ocean, we must have those icebreakers. If we are serious about 
being sure that our own rules and those of the Law of the Sea will 
stick, we must have these icebreakers. We can only get them if the 
Congress and the President make the funding commitment.
    Investments in shipping infrastructure are contemplated by the 
Arctic Marine Shipping Assessment Implementation Act, legislation I 
mentioned above that is proposed by all three members of Alaska's 
Congressional delegation. Those investments include aids to navigation, 
hydrographic mapping, spill response capability, automatic 
identification system receivers (AIS) to tell us when vessels are 
approaching, and other safety and security needs. AMSA showed us this 
is a new ocean for shipping, but one increasingly used today and one 
that could be heavily used soon.
    Monitoring Networks, Imagery, and Mapping, including the Sustaining 
Arctic Observing Network (SAON), which relies on sea, air, land and 
space sensing, terrestrial and space telecommunications infrastructure. 
Homeland security operations in the North, as well as scientific 
research, depend on a common infrastructure that includes appropriate 
means to understand weather and climatic conditions, such as sea ice, 
and to communicate that information anywhere on earth. We need space 
and air based imagery to detect change, both on near term for emergency 
response, and a long-term to support research and resource management. 
Finer mapping of Alaska and the Arctic region will assist intelligence 
and defense objectives, as well as emergency response to storms and 
wildfires. This Committee should be aware of the important work done by 
the National Ice Center, a joint operation of NOAA, the U.S. Navy, and 
the U.S. Coast Guard, which serves mariners information about ice 
conditions anywhere in the world. In 2006, the Commission sponsored a 
workshop with telecommunications providers and researchers to 
understand what capabilities exist to provide data, voice and video 
links to and from the highest latitudes within our jurisdiction. The 
Iridium network, for high latitudes especially, is an important asset 
for operations in the Arctic--whether they are research, security, 
tourism, fishing, or oil and gas development offshore. The United 
States serves as an ``anchor tenant'' for that network, and it is 
important to understand its strategic value as next generation 
satellites are designed and launched.
    To underscore the importance of the NSF-led program on Arctic 
Observing Networks, please note this: the United States intends to 
embark this December, with other nations, on a global mitigation scheme 
for climate change by reducing greenhouse gas emissions. Two of the 
largest ``wild cards'' critical to the success of that mitigation 
scheme involve ``feedbacks'' from the amplified air and water 
temperature of the Arctic region. Temperature rise can produce a 
massive injection of methane from Arctic sources, a greenhouse gas at 
least 23 times as potent as carbon dioxide. With receding ice comes 
reduced albedo of the earth, where much more solar radiation is 
absorbed by darker seawater instead of being reflected into space by 
whiter sea ice. An appropriate monitoring system is a strategic asset 
for the world in the objective of dealing with climate change. We need 
it to track how well mitigation programs are working. It will give us 
fair warning on other concerns as well, from shoreline erosion, change 
of ocean currents, ocean acidification that could damage or destroy 
certain fisheries.
    From the Commission's standpoint, Arctic Observing Networks are the 
most important legacy of the International Polar Year, and we are 
working through the process established in the Arctic Research and 
Policy Act to make sure the Senate Appropriations Committee has the 
specific information it needs to see a working network established. 
Agencies of the Department of Homeland Security, including the Coast 
Guard, FEMA, the National Ice Center, all will depend on this 
information to fulfill their missions.
    Oil Spill Research Program.--Perhaps the most important near-term 
action this subcommittee can take as a result of this hearing is to 
join with us to help kick-start a renewed Arctic oil spill research 
program. Madame Chairman, I had the opportunity after the Exxon Valdez 
disaster to work with the Congress as it crafted the Oil Pollution Act 
of 1990. That law provided for a robust oil spill research program, to 
be coordinated by the Interagency Oil Pollution Research Coordinating 
Committee. (IOPRCC) It also provided authorization for funding the 
program through the Oil Pollution Liability Fund, which collects a 
nickel per barrel from all oil produced or imported into the country. 
As a matter of oversight, the Congress should know that today that this 
program is not working. Helping it work, both nationally and within the 
Arctic, is within your committee's jurisdiction.
    The United States has collected billions of dollars from the sale 
of leases for oil and gas exploration in the Beaufort and Chukchi Seas. 
The risk of spills in ice we might need to deal with come not just from 
those prospects, but from ships and fishing vessels coming through the 
Bering Sea and Arctic Ocean, oil drilling in other areas, including 
Russia and Canada.
    Much of the Nation's oil spill research relevant to this region is 
conducted through a Joint Industry Program in Norway. A recent test 
there, costing over $10 million, showed promising results for a number 
of technologies including burning, skimming, dispersants, coagulants, 
and bioremediation. Recently Dr. John Farrell, the Commission's 
executive director and I visited with the SINTEF scientists in 
Trondheim who lead this program, and there is more work to be done.
    Likewise, the Commission recently asked former Commissioner Dr. 
Walter Parker to attend Canada's Arctic Marine Oil Program (AMOP) 
conference, and he reported to us that current research is in sore need 
of significant support.
    Twice in the past decade, the Commission has co-sponsored meetings 
of experts on Arctic spills to help develop a research agenda. While we 
give high credit to the work our workshop partners are doing at the 
Prince William Sound Oil Spill Recovery Institute in Cordova, Alaska, 
and the NOAA Coastal Response Research Center at the University of New 
Hampshire, we are concerned that no Arctic spill research program, 
broad scale and integrated across Federal agencies, can be said to 
exist.\6\
---------------------------------------------------------------------------
    \6\ See the Commission's 2004 Workshop Report written with the 
Prince William Sound Oil Spill Recovery Institute (OSRI), Advancing Oil 
Spill Response in Ice Covered Waters, http://www.arctic.gov/
publications/oil_in_ice.pdf Also, see the NOAA/University of New 
Hampshire Coastal Response Research Center's 2008 Workshop Report, 
Opening the Arctic Seas: Envisioning Disasters and Framing Solutions, 
issued January, 2009: http://www.crrc.unh.edu/workshops/
arctic_spill_summit/arctic_summit_report_final.pdf
---------------------------------------------------------------------------
    We don't believe that a robust research program can answer every 
concern we've heard voiced about OCS development and shipping by 
residents of the North Slope Borough, Madame Chair, but we are 
confident that the Nation can do a better job planning, and involving 
the public, in an Arctic oil spill research program. I'm also confident 
that the Nation has the means, with the Oil Pollution Liability Fund, 
to fund a program that Congress has asked to be developed but hasn't 
been.
    Before making this statement to you, I had conversations with the 
leaders of NOAA and the Coast Guard, with the Governor of Alaska and 
his Commissioner of Environmental Conservation, with the Mayor of the 
North Slope Borough and leaders at the Department of the Interior, 
which has issued OCS leases. We have heard from the oil industry that 
has bought the leases and they, too, while confident they can respond 
appropriately now to an accident, want to see a research program in 
place. The law calls for it, so let's do it. We have to come together.
    If the Interagency Oil Pollution Research Coordinating Committee, 
chaired by the Coast Guard, calls a meeting to start this process, we 
will help. We will do what we can to have the appropriate agency 
players, industry players, community leaders, and spill research 
specialists, including the Prince William Sound Oil Spill Recovery 
Institute, involved. We will take a proposal for funding, as a result 
of the Committee's work, to the President's science advisor and the 
Office of Management and Budget. We will encourage their plan to be 
adopted by the Interagency Arctic Research Policy Committee. We will 
work to help build ties between U.S. research efforts, the State of 
Alaska, and those of other nations. We will let you know, as the law 
requires, if the process is working, and we will let you know if it 
falls down.
    Billions of dollars are at stake in the offshore Arctic with 
decisions pending on oil and gas exploration. Our Nation's energy 
security is at stake, and the Alaska pipeline is running at only one 
quarter of its capacity. Statistics show that spills are a greater risk 
from shipping and fishing vessels, and those vessels are moving north. 
Whatever we do as a Nation, the ships and oil and gas exploration 
activities of other nations may have an effect on our Arctic shores. 
The time to start an effective, enduring Arctic oil spill research 
program is now.
    Homeland Security Research.--The Committee should be aware that the 
Department of Homeland Security supports a University Center of 
Excellence called CIMES (Center for Island, Maritime, and Extreme 
Environment Security), a partnership between the University of Hawaii, 
the University of Puerto Rico Mayaguez and the University of Alaska, 
Fairbanks.\7\ This group is looking into unique issues related to our 
Arctic infrastructure, and has projects to improve the use of space 
imaging and coastal radar for ship detection in Arctic waters. We see 
other areas of the Department's responsibility that could benefit from 
greater integration with the U.S. Arctic Research program. For example, 
as the Department looks at threats to critical infrastructure from an 
Electro-Magnetic Pulse Attack or a solar flare (the Compton effect or 
the Carrington effect) it should pay attention to the fact that close 
to 200 Alaska rural communities may have, as a result of these 
incidents, no power or telecommunication or air support whatsoever. As 
you look at the Department's plans in this area, we urge a 
consideration of Arctic need. Likewise, as the Department plays a major 
role in U.S. planning for a response to disease epidemics, such as bird 
flu, it can benefit from the understanding of migratory bird pathways 
conducted in the Arctic.
---------------------------------------------------------------------------
    \7\ USARC Commissoner Buck Sharpton of the University of Alaska, 
Fairbanks is CIMES co-chair. A description of CIMES programs may be 
found at http://cimes.hawaii.edu This author, in his capacity as a 
Senior Fellow at the Institute of the North, www.institutenorth.org, 
has written extensively on the need for national and local planning for 
Electromagnetic Pulse Attack and high-energy solar flares. The 
Congressionally created Commission to Assess the Threat to the United 
States from Electromagnetic Pulse Attack, www.empcommission.org, has 
made specific recommendations to the Department of Homeland Security on 
this subject.
---------------------------------------------------------------------------
    Extended Continental Shelf claim Research.--The Commission is a 
member of the interagency group guiding the Nation's work toward a 
claim for extended continental shelf under the Law of the Sea. Off 
Alaska alone, our claim could be greater than the size of California. 
We appreciate the work being done by the U.S. Coast Guard and urge full 
funding of this program, through several agencies.
    Energy Research.--While energy research is not specifically the 
purview of this subcommittee, I wanted to take the opportunity, Senator 
Murkowski, to thank you for your help in having the National Renewable 
Energy Laboratory place a staffer in Alaska. The Commission urged the 
Department of Energy to do so, as you did. We are concerned that the 
Arctic Energy Office, funded through the Department of Energy's Office 
of Fossil Fuels, is limited in the scope of work it can pursue. 
Alaska's energy needs require research and experimentation in a wide-
range of alternatives, based on places. Diversification of our energy 
supply, away from diesel, will help reduce the risk of spills. New 
energy sources promises to make life in some Arctic communities more 
economically sustainable. The U.S. Coast Guard oversees environmental 
issues at a large number of bulk fuel tanks throughout rural Alaska, 
and alternative energy options can help reduce the Coast Guard's 
expense, as well at that borne by the Denali Commission and the State 
of Alaska, in this area. We understand the Senate Energy Committee has 
a hearing on these issues at Chena Hot Springs later this week, and we 
wanted to draw the connection with Homeland Security.
    Let me conclude my testimony by passing on a comment raised by 
Commissioner Vera Metcalf, a resident of Nome. In her capacity as a 
Commissioner and as director of the Arctic Eskimo Walrus Commission, 
Vera has worked to help the Coast Guard--moving operations North--to 
have closer communication with Arctic residents and Arctic communities. 
``If there were a way for coastal communities to become more aware of 
important issues such as these (town-hall meetings?), it'd be helpful 
for us,'' Vera wrote. ``The Bering Strait is becoming more of a portal 
for all ship traffic, e.g., USCG and others in the region. I'm sure 
there is some form of high level agreement with Russia for Search and 
Rescue, fishing regulation, oil spills, but the Strait is a prime 
strategic area.''
    Madame Chair, Commissioner Metcalf is right. The Bering Strait, 
sometimes now called the Bering Gate, is ``a prime strategic area,'' 
and the entire Arctic region is as well. Work to make sure that 
activity in this part of the world's oceans is ``safe, secure, and 
reliable'' has just begun. We look forward to this subcommittee's 
understanding and support in the years to come.

    Senator Murkowski. Thank you, Mr. Treadwell, and those are 
good words to end on, ``safe, secure, and reliable.'' I think 
that is so much of what we are attempting to do here today in 
raising the awareness. Whether it is with the sustainability of 
our fisheries or whether it is a continuation of the 
subsistence lifestyle of our indigenous peoples up north, 
whether it is the marine transportation, it all comes down to 
safe, reliable, and secure.
    So much of what we have heard here today is how we prepare, 
and I think we are in almost an enviable position in many ways 
because we can actually prepare because we have got somewhat of 
a blank slate out there. In many ways, this is the last place 
on planet Earth where there are really no boundaries yet, and 
it is kind of wide open and evolving. We can be smart. We can 
be proactive. But it goes to the point that each one of you has 
raised and it is getting the information that we so desperately 
need, making sure that we have the research there, making sure 
that we are following the science and really working to 
prepare. From that research, you then build out, as the 
Commandant has said, the infrastructure so that we can respond.
    Our challenge will be to make sure that we have actually 
put things in place before we see the level of activity 
increase, and I think this is some of what we are facing when 
we are talking about cruise ships coming through, when we are 
seeing a level of marine activity and commerce that simply has 
not been there. These are the challenges that we face.
    I have a whole series of questions that I would like to 
ask. I am probably going to submit some in writing to you 
because I think they are important to include in the record.
    But as you noted in Vera Metcalf's comment, she says we 
should be having some town halls. Well, I have a health care 
town hall across town that I have got to get to by 5 o'clock. 
So I am going to have to be keeping an eye on the time.
    But I want to ask you each. So much of what we need to do, 
whether it is getting the funding for the icebreakers or for 
the research for the fisheries or making sure that we are using 
the science of the local people, the indigenous peoples that 
are there, comes down to a competition for funds. And it goes 
back to the question that I asked the Commandant. You have got 
a budget. You have got to figure out how you are covering the 
mission of the Coast Guard.
    Well, I think part of our challenge from an appropriations 
perspective--and that is the committee that we are sitting in 
today--it is all about making sure that people understand the 
need for the research, the need for what will be expensive 
infrastructure. How do we do a better job of really ensuring 
and convincing the American people that the Arctic is 
important? How do we do a better job of this?
    And, mayor, from your perspective, how can we better 
utilize the human assets that we have up north, the people who 
are most impacted by what we will see so that we can help other 
people in this country understand the importance of this 
region?
    It is a very general question, but I think it is a very 
real challenge for us. The people in Iowa are not connecting 
with what we need to be doing here, and they view my attempt to 
get dollars for Alaska as an Alaska issue. It is not an Alaska 
issue. It is an American issue. It is an Arctic issue.
    But help me in how we can better promote the importance of 
the Arctic. And I throw that out to any of you. Mayor, you look 
like you are reaching for the mic.
    Mr. Itta. I am going to take a shot at it here.
    I think our challenge is a matter of prioritization, to put 
it simply. Easier said than done, and I realize that. I think 
the biggest challenge is very similar to the issues we faced 
years ago and still face today as Alaskans. So many in America 
did not realize Alaska was a part of the United States and that 
we are U.S. citizens. I think this is a part of our challenge. 
How does what goes on in the Arctic relate to my life in Des 
Moines, Iowa? That is going to be the challenge, I think, that 
we face.
    Tied into all of this, I think in the back of everybody's 
mind is the whole issue of global climate change that I think 
everybody has a general knowledge of it but says, oh, that does 
not affect me.
    I think a more pointed program--I do not know that ``PR'' 
is the right word, but certainly we as a people in the Arctic 
with our knowledge can help any effort that the Federal 
Government may need, or even our State, to make what is 
happening in the Arctic relative to what is in the best 
interest of the United States of America. I think that is our 
biggest challenge, and it is a very difficult one for me to, 
just on the spur of the moment, say here is what we need to do.
    But I applaud you, Senator, for the perception that you 
have gotten here from the testimony today, and big changes are 
happening. Big changes are happening in historic terms. But it 
is not necessarily that we see massive change day to day, but 
we know historic change is happening in the Arctic. The first 
thing we do is worry and that is normal. And it is with us and 
it is not too healthy, but we observe things that are changing 
up there. I think if you can tie that connection to what we are 
trying to do not just for energy or fishing or maritime 
transportation systems, but how does that relate to what I am 
doing.
    So I am starting to repeat myself, so I will stop right 
there.
    Senator Murkowski. Well, I appreciate the perspective.
    Mead.
    Mr. Treadwell. I think the first message is that we feed 
America, we fuel America, we defend America. We help bring 
supplies in and out of America. Tens of thousands of people a 
week traverse the Arctic in aircraft, and you are likely to see 
more of that in ships. We are having a very large debate in 
Congress on climate change issues. Frankly, if any of the 
schemes being discussed are going to work, you have to keep the 
Arctic cold. If you do not keep the Arctic cold, you are going 
to see a massive amount of extra greenhouse gases. So for those 
strategic reasons, you have got to pay attention to the Arctic.
    Tactically, I think as David Benton has said, we have done 
a fairly good job in Alaska of trying to isolate and almost 
endow certain kinds of research projects. We have done it with 
the North Pacific Research Board. There is very good 
legislation on the North Slope Science Initiative. We are 
trying to find funding for it. I mentioned oil spills. There 
may be a way to craft that legislation as authorization 
legislation rather than appropriation legislation that does 
endow this. We have to figure out some way with the 
icebreakers.
    And frankly, the bill that you introduced on implementation 
of this puts us out in the international setting. I am very 
glad that the eight-nation Arctic Council has several Arctic 
observers who are other nations. Japan, China, Korea have all 
applied to come in or come in as observers now. And the 
importance there is that as Lawson said, you will have other 
nations of the world looking to use the Arctic. Well, we should 
demand of them, help us be partners to keep it safe. So that is 
why I emphasize the importance of international cooperation.
    But there are some endowments yet to be had that I think we 
can very honestly argue for. It is not earmarking sciences in 
Alaska. It is earmarking something that is strategic for the 
country.
    Senator Murkowski. And that argument needs to be made 
exceptionally clear.
    Dr. Brigham or Mr. Benton, do you want to add anything to 
that?
    Mr. Benton. I will take a stab at that.
    I am mulling over your general question because to me it 
really is fundamental to a problem that Alaska has across the 
board on many of the issues that affect our State. But this one 
is particularly poignant I think, because of the fact, as Mead 
pointed out, that the Arctic transcends the Nation. It is 
really a world issue. And as the mayor has pointed out, it has 
real consequences for cultures and traditions and people that 
have been around for a very long time and have a very unique 
place in the world.
    What I was mulling over is a somewhat similar situation 
that we had back in--again, go back to sort of the 1980s. We 
were having a horrible time with our salmon fisheries being 
intercepted on the high seas. It was at least a North American 
problem, if not a global problem. But people in Kansas, people 
in Iowa, people in Canada, a few of them cared. Most of them 
did not care. People down in California and Washington and 
Oregon really did not care. Yet it was causing a huge problem. 
There was a very large fleet operating anonymously out in the 
middle of the North Pacific, 1,000 vessels, 30,000 miles of net 
a night, high seas rip net fleet.
    Alaskans--and one in particular, Mr. Harold Spark, who is 
no longer with us, who is from Bethel--decided they had had 
enough and started a grassroots campaign of educating folks 
around the country. And the State and the Federal Government 
and particularly our congressional delegation joined in. And in 
not too long a period of time, we were actually able to get 
people to understand the significance of the problem by 
reaching out across a variety of venues.
    One of the key components there was that the environmental 
community joined with Alaskans, and they have a way of 
conveying messages that are important and they can convey them 
well. They know how to do that.
    On this one, on the Arctic issue, they are engaged, but I 
am not sure that they are engaged in a way that along with all 
the rest of us forms the kind of partnership that you are 
talking about or what I am getting from you that you are 
talking about, which is how do we elevate this in a way that it 
is a positive message of what we need to do. It is a call to 
arms, so to speak, because there are problems. But it is not 
just the gloom and doom stuff. It is what are we going to do 
about it and how are we going to do that and how are we all 
going to work together to get that to happen.
    So the scientific community, I think the State is there. 
The seafood industry--I mean, we have taken our stand and I 
think a fairly reasonable approach. What we really need is for 
all the different interests to rally around the message that 
this is a bigger problem and maybe quit fighting so much with 
each other and figure out how we are going to put that message 
out there in a positive way that helps you get the job done.
    And I would lay a gauntlet down to the environmental 
community when they will step up to that plate and work with 
the rest of us instead of sometimes--and in the case of the 
seafood industry, we get into a lot of quarrels every once in a 
while. That is legitimate, but in this one, we do not have a 
quarrel. I would sort of lay the gauntlet down to them on how 
are they going to work with the rest of the Alaskans to get 
that message out there and try and get some positive action.
    Senator Murkowski. Well, it truly is something that 
requires a cooperative effort amongst all sectors, but I think 
both Dr. Brigham--you and you, Mead, have mentioned the 
international cooperation that must go on, whether it is within 
the shipping regime or as the mayor has pointed out, there is 
very little room for error. And if somebody is not doing things 
environmentally sound on the other side of the Chukchi and 
there is an issue there, it does not stop at whatever border 
may be. We will see the implications.
    And I think the recognition is that now is the time for the 
level of cooperation with the other Arctic nations in so many 
different ways, as well as within our own country as we work to 
try to advance the priorities that I think must move forward so 
that we are prepared for this new Arctic. But it will take a 
great deal of effort and an awareness again of the significance 
of the region here.
    So I will put out the task to each of you, not only those 
of you that are testifying, but to all those that are 
interested. We have got a challenge ahead of us, but I think if 
we are proactive in building out the research, working 
collaboratively as we advance, whether it is development of 
infrastructure or ensuring that cultures and lifestyles 
continue as they have for centuries, we will have something to 
really look back at with pride in terms of what we have 
developed because we acted in a manner that was proactive 
rather than reactive. Too much of what we do is a reactive 
response because it happens. Well, let us get on top of the 
wave here and figure out how to make it work right.

                     ADDITIONAL COMMITTEE QUESTIONS

    Again, gentlemen, I have probably a minimum of 10 questions 
for each of you and may have more after this session here this 
afternoon that I will submit to you so that we can get those 
further for the record. So your homework is not quite done yet. 
But I thank you for not only your time and what you have given 
today for the record but for what each of you brings to the 
table on the issue of the evolving Arctic and how we can really 
demonstrate leadership as an Arctic nation. I look forward to 
working with all of you in the future as we move forward. But I 
thank you for your time and for those who have joined us, I 
thank you for your interest. We have got a lot of work to do, 
and I think it is good work because there is a level of 
excitement and opportunity, given the challenges that we face.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]

              Questions Submitted to Admiral Thad W. Allen

             Questions Submitted by Senator Robert C. Byrd

    Question. The Coast Guard established temporary Forward Operating 
Locations on the North Slope during the summer of 2008. What, if any, 
have been the challenges? What has the Coast Guard learned from this 
experience?
    Answer. The major challenges experienced by the Coast Guard during 
its deployments to northern and northwestern Alaska in 2008 and 2009 
are as follows:
  --Vast distances. Operations in the Arctic are constrained by the 
        time required for surface vessels and aircraft to cover vast 
        distances to reach the Arctic Ocean.
  --Lack of support infrastructure (e.g. berthing, resupply, repair 
        facilities, suitable runways, aircraft hangars, ports and small 
        boat launch & recovery locations, etc.).
  --Lack of an effective communications network/architecture.
  --Lack of accurate and timely weather forecasts/observations.
  --Age, special coverage, and data fidelity/confidence of the 
        navigation charts above the Arctic Circle are not sufficient 
        for increased operations of surface vessels.
    Significant lessons learned from those operations include:
  --Existing CG small boats/short range helicopters (i.e. HH-65) tend 
        to be ineffective due to operating conditions and geographic 
        remoteness.
  --Icebreakers or ice-hardened vessels with embarked helicopters are 
        necessary in hazardous and dynamic ice conditions.
  --Engagement with and input from the indigenous peoples is imperative 
        for mission effectiveness.. Their partnership is very valuable 
        as we incorporate their local area knowledge into Coast Guard 
        operations.
  --Broken sea ice is prevalent and can pose a hazard to boats and 
        ships in even the best summer conditions. Wind shifts can cause 
        broken ice to accumulate quickly trapping vessels and making 
        previously clear waters impassable.
    Question. The Coast Guard has no designated air stations north of 
Kodiak, Alaska and Point Barrow, Alaska. Is search and rescue capacity 
in the Arctic Region needed and, if so, what Coast Guard capabilities 
exist to meet this demand? What additional assets would be needed to 
carry out this mission?
    Answer. There are two Coast Guard Air Stations in Alaska: Sitka and 
Kodiak. During the summer, D17 maintains one HH60 helicopter at 
Aviation Support Facility Cordova. These operations patrol the Gulf of 
Alaska and the Bering Sea, but would be challenged to conduct SAR 
operations in the Arctic Ocean.
    The Coast Guard is conducting a High Latitude Mission Analysis, an 
analysis of the Coast Guard's missions in the Arctic region. This 
report will include an analysis of requirements for the Coast Guard SAR 
mission in northern Alaska and Arctic region.
    Question. The recession of polar icecaps is expected to make the 
Northern Sea Route over Russia feasible in the next 10-20 years. This 
route offers significant potential benefits to shippers through 
alternate routes. What steps has the Coast Guard taken to ensure that 
it has the capability and resources to address its full spectrum of 
missions in the Arctic?
    Answer. The Coast Guard is conducting a mission analysis to examine 
its mission needs in the high latitude regions. The report is scheduled 
to be completed in June 2010.
    Question. The Coast Guard may need additional icebreaker, surface, 
aviation, and shore assets to maintain and safeguard U.S. interests in 
the Arctic. Does the Coast Guard have cost estimates for this expanded 
role in the Arctic? If so, how was the estimate developed? If not, how 
will the Coast Guard go about developing a reliable cost estimate?
    Answer. The Coast Guard has begun an analysis to identify mission 
requirements to support current and projected operations in the Arctic. 
The study is scheduled to be completed in June 2010 and will provide 
the basis for a gap analysis of Coast Guard capabilities.
                                 ______
                                 

             Questions Submitted by Senator Lisa Murkowski

    Question. Admiral Allen. Thank you for your testimony and informing 
us of the Coast Guard's presence and changing mission in the Arctic. 
You briefly mentioned that the United States Coast Guard supports 
ratification of the Law of the Sea Treaty? Why?
    Answer. There are several key reasons why the Coast Guard supports 
the immediate accession to the Convention. Ninety-five percent of U.S. 
imports and exports are carried by water at some point. Foreign-flagged 
ships carry the vast majority of these products. The Convention 
provides a solid foundation for the effective enforcement of U.S. laws 
and international standards on these foreign vessels plying our waters. 
Joining the Convention would benefit the Coast Guard's robust port-
state control efforts and further ensure that foreign ships operating 
in our waters are safe and secure and that they do not harm our marine 
ecosystem.
    The Convention advances U.S. homeland and national security 
interests. It secures for military and commercial vessels, including 
Coast Guard ships and aircraft, navigational rights and freedoms 
throughout the world's oceans. These include the right of transit 
passage on, over and under international straits. Moreover, the 
Convention's provisions enhance the efforts of the Coast Guard to 
protect the security of ports used for international shipping, to 
enforce laws concerning maritime traffic in illicit drugs, weapons, and 
undocumented immigrants; illegal, unregulated and unreported fishing; 
and piracy.
    Question. If the Senate does not ratify the treaty, how does that 
affect your ability to carry out your mission in the Arctic and other 
places?
    Answer. Joining the Convention would significantly enhance the 
Coast Guard's ability to carry out its missions in the Arctic region 
and elsewhere in the U.S. 200-nautical mile exclusive economic zone 
(EEZ) by providing clear, internationally agreed-upon principles for 
operating in and governing ocean space. The Convention's provisions are 
consistent with U.S. marine environmental protection programs, in 
particular Coast Guard efforts to keep substandard and polluting 
vessels out of U.S. ports and coastal waters, including those in the 
Arctic. Failing to join the Convention would hamper many of those 
mission-related efforts. Additionally, the Coast Guard would not be 
able to make internationally secure claims on behalf of the United 
States to the vast living and non-living resources on the extended 
continental shelf in the Arctic region that includes the Bering, 
Chukchi, and Beaufort Seas. Remaining outside of the Convention 
undermines the missions of the Coast Guard and our long-term security 
interests.
    As the U.S. representative to the International Maritime 
Organization (IMO), the Coast Guard has long played a leading role in 
developing international standards including recent efforts to improve 
maritime safety and environmental security through enhanced 
construction and operating standards for ships sailing into the Arctic. 
The Coast Guard is also active in the work of the Arctic Council, 
composed of the eight Arctic States (United States, Canada, Denmark, 
Iceland, Norway, Sweden, Finland and Russia). Being an ``outsider'' to 
the Convention hampers U.S. negotiating positions at the IMO and within 
the Arctic Council, regional fisheries management organizations and 
other international forums, making it more difficult to achieve key 
U.S. policy objectives.
    Question. Admiral, your just briefly mentioned United States 
icebreaking capability. What are the next steps to increase our 
capability?
    Answer. Coast Guard priorities at this time are to continue to 
study the Coast Guard's mission requirements through the High Latitude 
Study, which will be received by the contractor in June 2010. The 
results will help the Coast Guard determine Arctic operational 
requirements including polar icebreaker mission requirements. However, 
in the interim, the Coast Guard has temporarily shifted assets to the 
Arctic for short periods in the summer to study cold weather impacts on 
equipment and assess the emerging changes in regional activity.
    Question. What is the Coast Guard's role in oil spill research and 
how much money does the Coast Guard spend annually on it? Should the CG 
have a larger budget for this and shouldn't we be getting more money 
out of Oil Spill Liability Trust Fund for oil spill clean-up research?
    Answer. Oil spill research and development (R&D) is primarily 
supported through the Coast Guard's Research and Development Program. 
Following the Exxon Valdez spill and the subsequent passage of Title 
VII of the Oil Pollution Act of 1990 (OPA 90), Coast Guard oil spill 
R&D focused on four areas of emphasis: (1) spill response planning and 
management; (2) spill detection and surveillance; (3) vessel salvage 
and on-board containment; and (4) spilled oil cleanup and alternative 
countermeasures. In addition, Section 7001(a) of the OPA 90 established 
the Interagency Coordinating Committee on Oil Pollution Research. The 
purpose of the Interagency Committee remains twofold: (1) to prepare a 
comprehensive, coordinated Federal oil pollution R&D plan; and (2) to 
promote cooperation with industry, universities, research institutions, 
State governments, and other nations through information sharing, 
coordinated planning and joint funding of projects. The Coast Guard 
serves as the chair of this committee.
    Coast Guard oil spill R&D is funded from the Coast Guard Research, 
Development, Testing and Evaluation (RDT&E) appropriation, of which a 
portion is derived from the Oil Spill Liability Trust Fund. New 
capabilities for responding to oil and hazardous chemical spills have 
been achieved from leveraging RDT&E funds in the past few years. These 
included manuals for fast water response, in-situ burning, enhanced 
chemical prediction models, and improved planning and response guidance 
for the Coast Guard's Strike Teams.
    The fiscal year 2010 President's Budget includes $560,000 to 
address oil spill research and requirements as a part of the RDT&E 
request.
    Question. As you mentioned, the icebreaker Healy is in the Arctic 
Ocean again this summer doing some extended continental shelf mapping 
with the Canadians. How much more information do we have to do in order 
to make an extended continental shelf claim?
    Answer. The multi-agency Extended Continental Shelf (ECS) Task 
Force mapping the ECS is chaired by the Department of State with co-
vice chairs from the Department of the Interior and the National 
Oceanic and Atmospheric Administration. The Task Force is coordinating 
the collection and analyses of relevant data and will prepare the 
necessary documentation to establish the proposed claimed limits of the 
U.S. continental shelf in accordance with international law. 
Additionally, prior to submitting an ECS claim the United States must 
first ratify the United Nations Convention on the Law of the Sea to 
become a party to it. The Coast Guard provides the platform from which 
the mapping is conducted; however, it is not the agency that will file 
any ECS claims.
    Question. Presently, the National Science Foundation has funding 
authority over the U.S. Icebreaker program. Can you give me an update 
on your progress to move that authority back to the Coast Guard?
    Answer. The current MOA, which was an implementing agreement with 
respect to planning and operation and maintenance of icebreaker 
activities and assets, is under review as both agencies seek ways to 
improve management and execution of these activities.
    Question. The U.S. Geologic Survey has identified significant 
energy resources in the off shore waters of the Chukchi and Beaufort 
Seas. How much does this change the mission for the Coast Guard?
    Answer. The identification of potential resources in these areas 
does not impact Coast Guard missions. The tempo of existing Coast Guard 
missions might increase if and when commercial interests establish 
production facilities that significantly change human presence and 
maritime traffic in these areas. The Coast Guard has begun an analysis 
to identify mission requirements to support current and projected 
operations in the Arctic.
    Question. Do you believe that the Coast Guard, and potentially the 
Navy, may need a deepwater port in the Arctic?
    Answer. Operational resource requirements will be determined by a 
variety of both internal and external studies and assessments. The 
Coast Guard has contracted a study of current and future Arctic and 
Antarctic influences and drivers and their relation to Coast Guard 
missions in the high latitude Polar Regions. The study will provide the 
Coast Guard's perspective of current and projected polar mission 
requirements and the gaps in capabilities needed to execute its 
missions in these critical regions. The expected delivery of the final 
report from the contractor is June 2010.
                                 ______
                                 

              Questions Submitted to Governor Sean Parnell

             Questions Submitted by Senator Lisa Murkowski

    Question. The last administration has come out with a National 
Arctic Policy. Do you believe that the State of Alaska should develop a 
State policy as well?
    Answer. While the State does not have a formal Arctic policy, we 
are highly engaged on Arctic issues. As the only State in the United 
States that extends into the Arctic Circle and borders the Arctic 
Ocean, this is a necessity for Alaska. A few areas where Alaska has 
been involved in Arctic policy include: support for a moratorium on 
fishing in the U.S. Arctic Ocean Exclusive Economic Zone, development 
and management of the State's oil and gas leasing program, 
participation in the Arctic Council, and the work of the State's 
Climate Change Sub-Cabinet. We are looking for ways to better 
coordinate the work of our agencies with respect to the Arctic and are 
considering the value of a formal policy statement.
    Question. I am also looking forward to the State's climate change 
strategy that will be presented this fall. Do you anticipate that it 
will have a robust implementation process to accompany it?
    Answer. The Climate Change Sub-Cabinet is working through the 
process of completing the Alaska Climate Change Strategy. This process 
will include consideration of recommendations from stakeholders and 
public review of a draft proposal before that draft is submitted to my 
office. In the meantime, the sub-cabinet has already implemented a 
number of key actions in urgent situations like those in coastal 
communities threatened by flooding and erosion. The State will support 
efforts in this area, but hopes to continue collaboration with local 
governments, Federal agencies, Alaska Native communities, academia, 
non-governmental organizations, and industry.
    Question. You mentioned that the State of Alaska is working on 
coastline stabilization. I was recently able to restore the 
authorization for the Alaska Coastal Erosion program within the Army 
Corps of Engineers authority. While there is a substantial Federal 
funding component required, there is a tremendous need for increased 
funding overall. Is the State of Alaska considering spending more money 
to assist with this effort?
    Answer. There are many Alaska communities that are at risk from 
erosion and flooding. Alaska's Climate Change Sub-Cabinet, chaired by 
Environmental Conservation Commissioner Larry Hartig, has looked 
closely at the needs of communities whose situation likely will he made 
worse by warming and other predicted effects of climate change. The 
Sub-Cabinet has focused their efforts on prioritizing the needs of the 
most at-risk communities.
    The Sub-Cabinet formed an Immediate Action Workgroup specifically 
to make recommendations on actions that need to be taken in the near 
term to avoid loss of life, loss of critical services, infrastructure, 
or substantial loss of property in the most at-risk communities. The 
Governor's budget included requests for $24.2 million in State general 
funds over the past two legislative sessions based on the Sub-Cabinet's 
recommendations for specific projects and also mitigation, planning, 
and permitting. The legislature has funded $15.4 million of these 
general fund requests over that time period.
    I am very appreciative of your efforts to restore the authorization 
for the Alaska Coastal Erosion program within the U.S. Army Corps of 
Engineers (USCOE). The State has worked closely with the USCOE and 
understands the tremendous need for funding in order to address the 
recommendations of the Climate Change Sub-Cabinet.
    I am currently working with State agencies to develop the fiscal 
year 2011 operating and capital budgets that will be released to the 
public in December. Positioning us for economic development and 
strengthening Alaska's families continue to be my priorities. I will 
carefully consider the recommendations of the Climate Change Sub-
Cabinet in developing the budget and how the State's efforts can best 
leverage Federal funding for coastal erosion.
    Question. You mentioned the Department of Homeland Security and the 
Federal Emergency Management Agency and their inability to act on 
disasters that they can predict. Do you believe that Federal law must 
be changed in order to allow FEMA to have this new authority?
    Answer. The Stafford Act governs Federal response to disasters. I 
believe the act is sufficiently broad in its authority to enable just 
such a flexibility. However, the implementing policies at FEMA seem to 
be written to limit action until the disaster is almost upon us. This 
policy has been reinterpreted in recent years as evidenced by pre-
landfall disaster declarations for approaching hurricanes.
    Alaska is leading a discussion among the States on ``imminent'' and 
``inevitable'' disasters and will meet soon with FEMA leaders on 
changing the older, more rigid policies. I am confident the new 
leadership at FEMA will commit to working with the States to amend 
existing policy to acknowledge the merit of early action to save lives 
and property and to prevent excessive recovery costs.
    Once again, thank you for the opportunity to discuss these 
important topics with you. If you should need any additional 
information, please do not hesitate to contact me.
                                 ______
                                 

                 Questions Submitted to Edward S. Itta

             Questions Submitted by Senator Lisa Murkowski

    Question. Mayor Itta thank you for your testimony and the 
perspective of the Borough and residents of the North Slope.
    Answer. I was honored to speak at the hearing on August 20, and I'm 
grateful to you, Senator Murkowski, for the opportunity to be part of 
this important discussion. My title may be North Slope Borough Mayor, 
but my thoughts and feelings come from a lifetime spent in the Arctic 
under the guidance of elders and expert hunters like my father, as well 
as from my own experience as a hunter and whaling captain.
    Question. You spoke about the dramatic environmental changes that 
are occurring in the Arctic and how they are affecting the residents of 
the North Slope. How are you adapting to these changes?
    Answer. We are seeing our permafrost melt. Our ice cellars are 
melting, which could cause real problems if this trend continues. 
Without ice cellars, whaling captains have nowhere to store our maqtaq 
for community distribution throughout the year. This scenario could 
require that we buy commercial frozen storage lockers and pay for their 
substantial power demands in order to manage the quantities of maqtaq 
we have to deal with.
    Changing weather and ice conditions are making the spring bowhead 
whale hunt noticeably more dangerous. We find pockets of thin ice near 
the shore where, in the past, ice was 4 or 5 feet thick. This makes 
travel on the shorefast ice very dangerous, and there is really no way 
to adapt to these dangers, except to stay off the ice, which would mean 
abandoning our spring hunt.
    We have seen a shift in wind patterns. The east wind has shifted to 
the northeast, which tends to keep the leads closed. Ocean currents 
that normally run east to west have shifted to the opposite direction, 
preventing leads from opening in the spring and preventing hunters from 
getting to the whales. By the time leads open up, we have often missed 
opportunities to hunt.
    The spring hunt has been notably less successful. We have had to 
meet our subsistence needs during the fall hunt, which I believe is 
even more dangerous. Hunters are traveling great distances into ice-
free waters now, and we have seen an increase in swells. Storms appear 
much more quickly now.
    The ocean also seems to be warmer now. If this is true, warmer 
water will have an impact on the entire food chain.
    Even the migration pattern of caribou seems to have changed. For 
example, herds normally travel from east to west. This year, the 
caribou were traveling from west to east. Scientific research is 
required to determine the long-term impacts of these behavioral shifts.
    All of these changes require adaptation by our people, and some of 
them don't allow for adaptation. But I'm also worried about how the 
animals will adapt, which is also a question begging for research.
    Question. Mayor Itta, as a whaling captain, how are the 
environmental changes you are experiencing affecting the bowhead whale 
migration and hunt?
    Answer. My comments in response to the first question address this 
question as well.
    Question. How would you recommend the residents of the Arctic can 
be more involved in the decision-making process?
    Answer. Discussions that lead to policy need to involve the people 
of the Arctic. We want to be involved. We need to be involved. We know 
what is going on in the Arctic and our traditional knowledge needs to 
apply to the Federal Government's policy in the Arctic. People who live 
up here will feel the impacts of climate change and development every 
day. Over the next few years, our people will be faced with more 
competing uses close to home, and impacts will accumulate with the 
stepping-stone pattern of westward industrial expansion. I believe we 
can coexist with development, but the Federal Government needs to work 
with local communities to place a greater emphasis on communication, 
collaboration, science, traditional knowledge, and respect for 
subsistence.
    Revenue sharing for local communities is one way to guarantee that 
the people most directly affected will have the capacity to participate 
in the official dialogue, which occurs in the context of voluminous 
documents to review and comprehensive comments to assemble. Our 
communities do not have this capacity, and it prevents their meaningful 
participation in the process.
    No stakeholder on the North Slope can go it alone and hope to 
succeed. Our success in the long term will be directly linked to our 
ability to work together.
    Question. Mayor Itta, you talked about a number of initiatives 
including the development of a marine harbor. I know that the harbor 
study was authorized in the 2007 Water Resources Development Act but 
that very little has been done so far. Is the Army Corps of Engineers 
looking at this project and how much has the borough been involved?
    Answer. We have not had any specific conversations with the Army 
Corps of Engineers in regard to a marine harbor, but this is something 
the North Slope Borough would have an interest in discussing. Future 
discussions would have to involve the City of Barrow, Arctic Slope 
Regional Corporation, and all affected village corporations.
    Question. You have been outspoken about your concerns for offshore 
energy development. What kind of role do you see the Coast Guard 
playing in providing you the assurances you will need that the 
development can be safe?
    Answer. Offshore development and increasing vessel traffic point to 
the need for an effective U.S. Coast Guard presence. Congress should 
fund a year-round Coast Guard station and needed infrastructure with 
oceangoing and airborne response capabilities on the North Slope. The 
Arctic coast must have the same protections that our other coasts 
enjoy. A year round presence to monitor ocean activity is a must. It 
takes huge dollars but without the Coast Guard the Federal Government 
is flying blind in the Arctic.
    Effective oil spill prevention and response in the Arctic Ocean are 
predicated on active monitoring of vessel traffic and swift emergency 
response capability in times of crisis. The U.S. Coast Guard plays a 
primary role in these activities in other coastal oil provinces, and 
extreme Arctic conditions justify an important role for the Coast Guard 
in the Beaufort and Chukchi Seas.
    Increased needs for navigation aid placement, vessel traffic 
management, ship compliance inspections, security considerations and 
emergency response capability clearly suggest that enhanced Federal 
safety infrastructure and maritime resources need to be committed to 
this region. These needs include an expansion of the Marine Exchange 
with real-time data sharing that includes the NSB, the Barrow Arctic 
Science Consortium (BASC) and AEWC.
    I want to thank you Senator Murkowski for stepping up to the plate 
an asking Congress to support funding for ice breakers in the Arctic, 
along with better infrastructure for navigation aids and vessel traffic 
management.
    I am also pleased with your efforts to ensure that offshore oil and 
gas is not transported by tanker in the Arctic marine environment, 
where broken ice conditions can threaten shipping routes with little 
warning. A marine tanker accident like the Exxon Valdez oil spill in 
the Beaufort or Chukchi Seas would have a truly devastating impact on 
the Arctic marine environment and the way of life of the Inupiat on the 
North Slope.
    I hope your legislation is able to sail through Congress, or maybe 
I should say, plow through the legislative process like a brand new 
icebreaker.
                                 ______
                                 

                 Questions Submitted to Mead Treadwell

             Questions Submitted by Senator Lisa Murkowski

    Question. How do we convince the American people that the Arctic, 
and what is happening in the region, is important?
    Answer. Assets in the Arctic feed America, fuel America, defend 
America, inspire America. They maintain biodiversity for species seen 
less in other parts of the world. Arctic cold helps regulate the 
earth's climate and contain perhaps 25 percent of the world's 
terrestrial carbon stored within the permafrost or the boreal forest. 
America's Arctic is strategic not just for defense, but as a crossroads 
for the world's air travel today and ship travel, soon, tomorrow. 
Hardly any route used between North America or Europe and East Asia 
gets between those places without traversing some part of the Arctic 
airspace or sea. Even today, much North America-Asia ship traffic plies 
the Great Circle Route which passes north of the Aleutians.
    Are these assets important? To those that understand them, of 
course!
    To convince the American people of the importance of the Arctic, it 
is best to focus on both opportunities and risks. Prospects of Arctic 
shipping have attracted explorers to the North for over 500 years--and 
that opportunity, understood and pursued correctly, has attracted 
attention. Arctic energy prospects, estimated as huge by the recent 
U.S. Geological Survey report, represent another opportunity for our 
Nation, which is struggling to diversify and find cleaner sources of 
energy.
    News of risks to Arctic resources, or risks to the Nation from 
ignoring competition and security issues in the Arctic, is another way 
to attract the public's attention. We hear about Russia planting a flag 
at the North Pole, and wonder if our own borders, prerogatives, 
national interests and territorial claims under the Law of the Sea will 
be respected. We hear about receding ice, and wonder if the critters, 
much less the people, who depend on the ice platform for their 
livelihood, will be affected. We hear about Alaska coastal villages 
wasting away, as the seasonal breakwall of sea ice is there less time 
to protect against storms (we also hear about melting permafrost, 
shoreside, caused in part by a warmer ocean nearby), and we wonder how 
those communities will survive. We hear warnings of ocean 
acidification, and wonder if we can reverse the trend of carbon 
absorption by the ocean in time to avoid effects on the food chain, and 
species we enjoy, such as crab. We hear about the reductions of oil 
flow in the trans-Alaska pipeline, and wonder if new Arctic resources 
can replace them to continue to reduce U.S. dependence on foreign 
sources.
    Commissioner Vera Metcalf wrote to me, as I prepared this answer, 
saying, ``I believe that the average American will respond to national 
security in the Arctic as it continues to be ice-free especially as the 
Northwest Passage becomes even more accessible possibly to, e.g., 
terrorists, drug runners, etc. Recently, we had a small boat with a 
family that sailed all the way from northern United States to Port of 
Nome through the NWP and no one was aware of this. Nothing happened, 
but would been a safety issue if a storm came up. Seems that we will 
have more of these types of activity if ice continues to diminish.''
    Finally, the unique features of the Arctic have their own inherent 
interest for the American public. During the International Polar Year, 
agencies supporting research--and researchers themselves--drew 
significant attention to their work through public and educational 
outreach programs. The ``IPY wave'' of publicity will continue as 
results of data collections are published. The Nation's continuing 
Arctic Research Program, which follows the goals set by the U.S. Arctic 
Research Commission, has outreach and educational components tied to 
most research grants or agency science.
    From the Commission's standpoint, we have promoted Arctic research 
as necessary homework for the Nation and the world--for strategic 
purposes, environmental protection and understanding climate change, 
understanding whether mitigation approaches will work, and finding new 
economic opportunity. Arctic research also expands basic human 
knowledge about the planet, and helps us protect and maintain some of 
its hardiest, oldest, and unique cultures.
    Question. You talked about the need for increased oil spill 
research. How would you recommend we move forward to put together an 
integrated Arctic spill research plan?
    Answer. The Oil Pollution Act of 1990 has all of the ingredients to 
produce a viable Arctic research plan, if those mechanisms are used. 
Some additional work by the Congress and the administration would be 
helpful. The Commission will shortly publish a White Paper on these 
issues, but specific steps to move forward are suggested here:
    An Interagency Oil Pollution Research Coordinating Committee, 
created by the Act and chaired by the U.S. Coast Guard, needs to meet 
regularly, involve state environmental agencies, industry and academic 
institutions as it did in the beginning, and produce a regularly-
updated plan. Notices of meetings, minutes, and agendas should be 
posted online for the public to see. Congress should exercise its 
oversight and OSTP should exercise its coordination powers to ensure 
the research provisions of OPA 90 are followed, with full participation 
by USCG, NOAA, MMS and other DOI agencies.
    The plan should be, as suggested by an early National Academy 
review, prioritized to reduce the greatest risks in the chain of oil 
exploration, production, transport and use.
    For its Arctic/subarctic work, the Committee should coordinate 
closely with the Commission, the Interagency Arctic Research Policy 
Committee (IARPC), two government funded research programs with ties to 
NOAA (the Prince William Sound Oil Spill Recovery Institute in Cordova, 
Alaska, created by OPA 90 to deal with Arctic/subarctic spill research, 
and the Coastal Response Research Center at the University of New 
Hampshire. It should work closely with Canadian efforts, including the 
regular Arctic Marine Oil Program (AMOP), and Norwegian efforts, 
including the Joint Industry Program conducted by SINTEF with--among 
other sources--United States and private funding. It is appropriate and 
necessary to involve the State of Alaska and the Boroughs of Alaska's 
North Slope, Northwest Arctic, western, Aleutian Coasts and Gulf Coasts 
where oil development is occurring or proposed, and marine 
transportation in Arctic/subarctic conditions is occurring.
    For its work nationwide, including the Arctic, the Committee should 
find a ``tie'' to the Nation's science coordinating body, the National 
Science and Technology Council chaired by the White House Office of 
Science and Technology Policy. (We have recommended the same tie for 
the IARPC, and urge further coordination with the interagency processes 
related to marine transportation and to oceans policy overall.)
    The administration and the Congress should make sure that 
extramural, competitive, grant funding for research is regularly 
available in the significant amounts contemplated by the Oil Pollution 
Act of 1990. The Oil Pollution Liability Fund (OPLF) has the capacity 
to replenish annual expenditures from the eight cent a barrel tax on 
all oil produced or used in the Nation. We recommend funding for all 
national programs at the rate of $30 to $50 million per year. Funding 
should not only be directed to technological improvements that decrease 
the risk or spills and improve response, but it should also make sure 
the basic biological assessments are conducted in areas susceptible to 
spills where that baseline work is not already occurring.
    Given recent lease sales earning close to $3 billion in revenues to 
the United States, other offshore development in Arctic/subarctic ice 
covered areas that will serve U.S. markets, and the increasing amount 
of shipping of all types occurring in the Arctic Ocean, we recommend an 
annual budget of $8-10 million from the OPLF, through the USCG's 
competitive program, OSRI and CRRC, to meet concerns raised about the 
need for oil and ice research.
    We endorse the approach in Senator Begich's legislation calling for 
the National Academy's help in reviewing research needs in this area.
    We support the approach taken in legislation pending in both houses 
of Congress that would expand the endowment from OPLF available for 
OSRI funding, and believe the same funding model may be appropriate to 
ensure multi-year funding for oil in ice research sponsored by the 
Coast Guard, NOAA, and MMS.
    We support the approach taken by legislation (separately introduced 
by the Alaska delegation; pending now as a provision in the House-
passed Coast Guard Authorization Bill) to implement the findings of the 
Arctic Marine Shipping Assessment, and urge funding of the 
authorization.
    Question. How do we keep the momentum of the International Polar 
Year going and capitalize on the volume of research that has been done?
    Answer. We urge the Congress to hold a post-IPY hearing to consider 
scientific results of this effort, as those results come in. An 
appropriate time might be the summer of 2010.
    We urge the Appropriations Committee to insist that the provisions 
of the Arctic Research and Policy Act are followed so that the 
Congress, the academic community and the public are specifically aware 
of the funding directed to Arctic research by our Nation. At this 
point, the ARPA requirement for a ``cross-cut'' budget is not regularly 
fulfilled, and never--for a decade or more--has a summary of Arctic 
research spending been presented with sufficient time for the 
Commission and the Congress to review.
    We believe the United States has good Arctic research goals which 
are spawning renewed plans by IARPC in five separate areas. These plans 
will, if funded, be a significant legacy to the International Polar 
Year.
    We urge the full capitalization of the Arctic Observing Network 
IARPC has committed to as part of the Study of Environmental Arctic 
Change (SEARCH) program. Congress should request specifics on capital 
and operating funding needs and ensure that the $60+ million initial 
funding provided through NSF is followed with an operating and 
reporting commitment by a Federal agency charged with monitoring, 
probably NOAA.
    Question. What do you see as the next step in Arctic Ocean 
scientific research?
    Answer. In the same way the Nation has launched an integrated 
scientific effort in the Bering Sea, agencies and funding entities 
should come together to develop and fund such an effort in the Arctic 
Ocean.
    We believe an MOU between NOAA, NSF, the North Pacific Research 
Board, OSRI, and the Navy, as a minimum, would help bring this funding 
effort forward.
    We support the study design planning effort proposed by Senator 
Begich's legislation.
    We believe the call for Arctic Ocean ``baseline'' science, 
discussed in the work of the President's Ocean Policy Task Force, is 
appropriate, and that there is significant work done already by Federal 
agencies, academic institutions, and industry (usually as a result of 
government stipulations) to serve as the foundation of that work.
    We support strong integration of local and traditional knowledge, 
and funding of marine mammal co-management groups through NMFS and 
USFWS to maintain the significant research contribution these groups 
make.
    We urge funding agencies to work more closely with CDQ groups in 
the Bering Sea region to include the science these groups are doing 
with the State of Alaska in baseline studies.
    We support stronger efforts at international coordination with our 
neighbors, Russia and Canada. We urge the Arctic nations to work out a 
stable regime for access to scientific research vessels in the Arctic 
Ocean--researchers have that stable access in Antarctica, but access 
for research in the Arctic Ocean is decreasing as nations make their 
extended continental shelf claims. Regular bilateral science meetings 
at a high level to focus on Bering Sea and Arctic issues are necessary; 
the number of missed opportunities, missed field seasons, and cancelled 
voyages/expeditions has brought us to an untenable stage.
    Question. As Chairman of the U.S. Arctic Research Commission, you 
are very familiar with the scientific research occurring in the Arctic. 
How do we develop the international cooperation we need for coordinated 
research?
    Answer. The Commission has worked to fulfill its responsibility to 
help build scientific cooperation by being involved in existing 
coordinating mechanisms and helping to sponsor international workshops 
and science planning efforts on specific topics. We have also made 
field trips to meet with our science partners firsthand; including 
Japan, Canada, Norway, Finland, Iceland and Greenland. We have received 
delegations recently from Japan, China, Norway, Canada, Iceland, and 
Russia. We coordinate closely with the Department of State, the NSF and 
NOAA, among others in government. The International Arctic Research 
Center at the University of Alaska Fairbanks (UAF) is supported in 
large part through a U.S.-Japan agreement made during the Clinton 
Administration, and we highlighted those joint efforts during recent 
visits to Japan. We have a counterpart Commission in Canada that we 
work with closely, and other Arctic or polar coordinating groups we 
work with in many other nations.
    For the Congress, we would like to highlight these international 
issues:
  --As mentioned above, we have a problem of regular access in the 
        Russian EEZ that could get worse as Russia's extended 
        continental shelf claims are realized. An international 
        agreement to guarantee the same access in the Arctic Ocean that 
        is allowed in Antarctica would be an optimal approach; at the 
        very least this issue should be raised with Russia at every 
        opportunity and a mechanism, such as the regular bilateral 
        meeting suggested above, would be useful.
  --Full design, capitalization and operation of a Sustained Arctic 
        Observing Network will require strong cooperation among Arctic 
        nations and others conducting research in the region. We 
        believe political leaders responsible for funding this program 
        should regularly review--both in the appropriations process and 
        in joint cooperative meetings of GEOSS, IPCC, WMO, IASC, the 
        Arctic Council and Arctic Parliamentarians. This network will 
        be valuable to the world as we measure greenhouse gas emissions 
        more exactly as part of a climate change mitigation scheme.
  --International educational exchange programs, including Fullbright 
        Fellowships and exchanges through the University of the Arctic, 
        are important to building continued collaboration in Arctic 
        research. Congress can help long-term collaboration by 
        supporting these programs and others like them.
    Question. Do you believe we have enough funding for Arctic Research 
in the United States? How much more do we need?
    Answer. The Commission cannot answer this question on a holistic 
level because the interagency cross-cut, summarizing the Arctic 
research budget, is not provided as required by the Arctic research and 
policy act. We are on record, however, as noting discrepancies between 
the plans of the United States to conduct Arctic research, and the 
absence of funding for some of those research priorities.
    To highlight a few:
  --The Commission has urged the United States to replace its aging 
        polar class icebreaker fleet with at least two vessels. These 
        vessels would not solely be dedicated to research, but would 
        ensure the United States has an all-weather, all conditions 
        capability for the entire suite of Coast Guard Arctic missions. 
        We urge funding for other research infrastructure, including 
        cabled observatories proposed in the Beaufort Sea and Bering 
        Strait region, completion of the Barrow Global Climate Change 
        Research Facility, and other items included in the Commission's 
        2007 and forthcoming 2009 goals report.
  --The Commission has urged the Congress to support funding for 
        studies by the National Academy of Sciences, Institute of 
        Medicine, to help develop a rigorous research plan to deal with 
        the suicide epidemic in rural Alaska. We estimate that funding 
        need at $1.2 to $1.5 million for the Institute of Medicine 
        Study, and we urge an increment in funding for suicide research 
        at NIH, and for pilot intervention programs funded by HHS 
        through tribal health entities and the State of Alaska.
  --The Commission has urged the Congress to dedicate income and 
        receipts from the Oil Spill Liabilitly Fund of at least $30 
        million per year, $8-$10 million per year directed to Arctic 
        research, for problems of oil spills in the Arctic. An 
        appropriation of $450,000 to $500,000 to support a National 
        Academy review of research needs in this area, authorized by 
        Senator Begich's proposed legislation, is also recommended.
  --The Commission has urged creation of a significant baseline 
        integrated Arctic Ocean study program, modeled after joint 
        agency and North Pacific Science Board work in the Bering Sea 
        region. We recommend NRPB and NSF be provided $60 to $65 
        million for a 5 or 6 year study to design the program with the 
        National Academy's help, and appropriate funding thereafter.
  --The Commission urges the Administration and the Congress to fund 
        science plans developed by IARPC in response to Commission 
        goals. New funding may be necessary to accomplish the SEARCH 
        science plan, including the Arctic Observing Network and Arctic 
        Ocean Science goals, Arctic Health research, an Arctic 
        Infrastructure research program being developed (which would 
        incorporate a wide range of infrastructure problems in the 
        North as well as the oil spill research program urged above), a 
        Resource Assessment Program which includes funding for the 
        Alaska Mineral Resource Assessment Program promised in the 
        Alaska National Interest Lands Conservation Act (ANILCA) of 
        1980, and a program being developed at IARPC to support 
        indigenous language, identity and culture. That last goal was 
        the first humanities/social science interagency goal 
        recommended by the Commission, and we urge Congress to support 
        more regular funding for research of this type in the Arctic.
  --The Commission believes the work of wildlife co-management groups 
        in Alaska, which contribute significant data important to 
        management of whales, walrus, polar bears, seals, sea lions, 
        and sea otters, should be regularly and fully funded. 
        International support to gain similar data from Russia, once 
        provided through mechanisms of USAID, need to be replaced in 
        some manner, given that trans-boundary assessments are 
        necessary to have complete data on trans-boundary populations 
        of wildlife.
    Question. The United States, through the signing of the Illulisat 
Declaration with the other Arctic coastal states, recognized that the 
law of the sea provides for the essential rights and responsibilities 
in the Arctic. The signing states reaffirmed their commitment to this 
legal framework and to the orderly settlement of any possible 
overlapping claims. Do you agree that the Law of the Sea Treaty is the 
only governance structure that we need in the Arctic?
    Answer. The Law of the Sea is not the only governance structure 
that we have in the Arctic, but it will serve as the umbrella for most 
of the needs we've currently heard discussed that should be considered 
for ecosystem based management of this new ocean.
    Among those needs are agreements to promote safe, secure and 
reliable shipping identified in the Arctic Marine Shipping Assessment, 
and authorized by the House version of the Coast Guard Authorization 
bill now pending. A recent conference in Anchorage discussed the need 
for increased scientific cooperation (and potential international 
management of trans-boundary stocks or Arctic high-seas fisheries) 
related to Arctic fisheries that may develop with changing climate and 
increasing access.
    The Arctic ecosystem is impacted by trans-boundary contaminants 
that are covered by treaties the United States has also, so far, not 
ratified. A new, transboundary effort or agreement to reduce soot and 
other short-term forcers of climate change, may also be appropriate 
after the Arctic Council's Task Force considers this issue further. 
Heavy metals and persistent organic pollutants are changing the food 
Arctic residents consume or produce for export. Soot, we have learned, 
may be responsible for the exacerbated melting of sea and glacier ice 
in the polar regions.
    On the issue of access to parts of the ocean for researchers, the 
Law of the Sea grants coastal states the ability to veto research that 
requires a minimal, even a ``grab sample'' of dirt from the ocean 
bottom inside a nation's economic zone or extended continental shelf. 
Other important work, including geological drilling or bottomfish 
population surveys, can be impacted by these restrictions. The 
Commission believes a scientific agreement of some sort to define the 
rights of science in the region is appropriate. Stronger bilateral 
efforts with Russia, including agreements to address access, could also 
resolve the problem.
    Thank you for the opportunity to respond to these questions.
                                 ______
                                 

                  Questions Submitted to David Benton

             Questions Submitted by Senator Lisa Murkowski

    Question. It is clear that the fishing industry is seeing some 
major changes in stock location. How is the industry adapting to this?
    Answer. Fortunately, in Alaska industry has many of the tools it 
needs to adapt to changing stock distribution in existing fisheries, 
especially in the Bering Sea. First and foremost, fisheries that have 
catch share programs such as the AFA pollock fishery, the Amendment 80 
flatfish fishery, the halibut/sablefish longline IFQ fishery, and the 
CDQ fishery have the ability to modify fishing operations to adjust to 
changing conditions. Catch share programs allow individual fishermen, 
or fishing companies, to plan fishing operations to account for longer 
run time to more distant fishing grounds, to avoid or adjust to weather 
conditions which is both a safety and efficiency issue, or in some 
fisheries operate within the coop structure to reduce the number of 
vessels involved in a fishery and thus improve efficiency.
    There is also concern about the effects of climate change on stock 
status and the potential for overfishing. The conservative management 
system employed by the North Pacific Fishery Management Council 
provides appropriate buffers between actual catch, the Acceptable 
Biological Catch limits, and overfishing limits to take into account 
uncertainty in stock status and prevent overfishing. Management also 
incorporates important monitoring and enforcement programs (onboard 
observers, electronic vessel monitoring systems, etc.) to ensure 
compliance even in distant water fisheries. The result is a robust 
management system that is a model for sustainable fishery management.
    While these are not critical issues in the U.S. Arctic at this 
time, if a redistribution or range extension occurs into U.S. Arctic 
waters, then similar tools and management measures will be important 
components for any sustainable fisheries program. The current Arctic 
FMP provides a framework for obtaining the science necessary to make 
such decisions in the future.
    Question. As you mentioned you have been involved in a number of 
international fisheries agreements such as the Donut Hole Convention. 
You articulated what happened in that area and the risks of repeating a 
situation like that in the Arctic, without some kind of international 
agreement. Do you believe this is something we can achieve? What do you 
see as the sticky points in the negotiations?
    Answer. Yes, I believe that we can secure international agreement 
to prevent a repeat of what happened with the Bering Sea Donut Hole. 
This would be a step wise process that would be executed at several 
levels concurrently. The United States should begin by initiating talks 
with our Russian and Canadian neighbors on a common approach to the 
international waters of the central Arctic Ocean. The goal of such bi-
lateral and tri-lateral discussions should be to seek agreement on a 
moratorium in the international waters of the central Arctic Ocean 
north of Bering Strait and north of Svalbard. Getting agreement will 
not be easy, and sticking points in such talks will include concerns by 
both Russia and Canada of the effect of such provisions on their 
respective territorial claims and sovereignty. Russia will also be 
concerned that this may set the stage for a moratorium in their own 
waters, something we should assure them is not linked to what takes 
place in the international waters of the Arctic Ocean. In fact, because 
of our shared experience with the Bering Sea donut hole, the United 
States should be able to demonstrate to the Russians that we have a 
common goal in the central Arctic.
    The Canadians will have similar concerns, as well as internal 
issues regarding the relationship between the central government and 
the Native peoples of the Canadian Arctic. They will also have concerns 
regarding the United States/Canadian boundary in the Beaufort Sea. This 
can be addressed in a manner similar to how we deal with the disputed 
boundary in Dixon Entrance.
    If we can secure agreement among these three Arctic nations that a 
moratorium makes sense, then a joint initiative to secure such a 
moratorium through appropriate international bodies should have a 
reasonable chance of success. For example, this could be through a 
United Nations resolution similar to the driftnet moratorium enacted in 
the early 1990s. However, the difference here would be that such a 
resolution should set criteria or principles for how and when fisheries 
might be authorized in the international waters of the central Arctic 
Ocean in the future. This would set the stage for future negotiations 
for a more comprehensive international agreement if one is deemed 
necessary.
    At the same time, in various international fora (FAO, ICATT, etc) 
the United States needs to make it clear that it would be inappropriate 
for existing organizations such as the North East Atlantic Fisheries 
Commission (NEAFC) or ICES to attempt to assert jurisdiction in the 
central Arctic Ocean north of Bering Strait and north of Svalbard. 
Arctic fisheries policy needs to be led by the Arctic nations, not 
through fisheries organizations dominated by non-Arctic nations.
    On a separate track, the United States should enter into 
discussions with our Russian and Canadian neighbors for bilateral 
agreements relating to fishery management within our respective 200 
mile zones, including scientific cooperation. I do not believe that 
this necessarily translates into fishing moratoria in Russian or 
Canadian waters. But, as we learned at the Arctic International 
Fisheries Conference held recently in Anchorage, there is little or no 
commercial fishing in either Russia or Canada in Arctic waters adjacent 
to the U.S. EEZ. Because of this, in my view, now is the time to 
discuss how we can work together to meet our respective conservation 
and management objectives. I believe this to be particularly important 
with Russia, because there may be shared stocks that can become 
commercially viable in the near future along our common boundary in the 
Chukchi Sea.
    As a final point, the United States must accede to the United 
Nations Law of the Sea. This is a critical step to protect United 
States interests on a range of maritime issues including Arctic 
fisheries.
    Question. You also stated your support for the action by the North 
Pacific Fisheries Management Council to initiate an Arctic Fisheries 
Management Plan. Why is this FMP important? What level of fisheries 
research have we done in the Arctic and how much more do we need to do?
    Answer. The Arctic FMP is important for a number of reasons. First, 
it affirms the conservative and precautionary approach to fisheries 
management that the NPFMC is well known for. The rate of change in the 
waters north of Bering Strait is having a profound effect on the 
resources and people of the region. The Arctic FMP ensures that 
fisheries will only be established if and when we have a good 
scientific understanding of the status of fishery resources in the 
region including the effects fisheries might have on the Arctic marine 
ecosystem, and only after a transparent and open decision making 
process that includes the people that live there. Because the situation 
with the Arctic is so unique, the Alaska seafood industry strongly 
supported the Council in developing and implementing this FMP.
    The Arctic FMP is also important as a foundation for U.S. policy to 
address international fishery issues in the greater Arctic region. It 
puts the United States on sound footing when discussing the necessity 
for a moratorium in international waters as well as cooperative 
scientific and management programs with Russian and Canada.
    Question. What other proactive steps can the United States take to 
support our commercial fisheries in the northern Bering Sea and Arctic 
region?
    Answer. There are several steps the United States can take to 
support fisheries in the northern Bering Sea and Arctic regions, 
including:
    Step up scientific research. The foundation for sustainable 
fisheries is a strong and ongoing stock assessment and research program 
to assess commercially important stocks and better understand the 
ecosystem functions of the marine environment. This is particularly 
true in these northern waters. This includes efforts to improve and 
expand cooperative research between the fishing industry and 
scientists. Cooperative research can be a cost effective way to develop 
innovative solutions to conservation and management needs.
    Fully fund fisheries management. NOAA fishery management programs, 
including stock assessment programs, are routinely under funded in the 
President's budget. This has been true for multiple administrations, 
including this one. Congress has had to step in and provide funding to 
maintain these programs. The effects of climate change, and the need 
for management to have better tools and more robust data will only 
increase. There is a need to secure this funding as part of the base 
budget, and provide some measure of fiscal stability to these critical 
programs.
    Fully fund the U.S. Coast Guard mission in the Arctic without 
shortchanging existing enforcement and SAR programs elsewhere in 
Alaska. I touched on this in my written and verbal testimony at the 
hearing, and will not go into detail here except to underscore the 
importance of the USCG mission in the North Pacific and Bering Sea 
where over half the Nation's fisheries landings occur, and recognize 
the growing pressure on the USCG as their renewed and vital mission in 
the Arctic Ocean continues to develop and grow.
    Once again, thank you for the opportunity to provide our thoughts 
on Arctic fisheries and the issues that are assuming more and more 
importance both to Alaska but also to the Nation as a whole.
                                 ______
                                 

              Questions Submitted to Dr. Lawson W. Brigham

             Questions Submitted by Senator Lisa Murkowski

    Question. You mentioned some of the recommendations that are based 
on the findings of the report. What do you see as the next steps to get 
the recommendations implemented?
    Answer. There are 17 recommendations based on the nearly 100 
findings of the Arctic Marine Shipping Assessment (AMSA). They are 
organized in three inter-related themes: Enhancing Arctic Marine Safety 
(5); Protecting Arctic People and the Environment (8); and, Building 
the Arctic Marine Infrastructure (4). Some of the recommendations will 
be implemented by the International Maritime Organization (IMO), some 
by the Arctic Council and its working groups, and some by the 
individual Arctic states. All of the recommendations related to 
infrastructure will require long-term, strategic investments by the 
Arctic states and public-private partnerships. Implementation has begun 
for the following topics:
    Arctic Search and Rescue (SAR) Instrument.--The Arctic Ministers in 
April 2009 approved the formation of a Task Force led by the United 
States to develop a SAR agreement including aeronautical and maritime 
SAR. The Task Force will report to the Arctic Council's Senior Arctic 
Officials.
    IMO Measures for Arctic Shipping.--In June the IMO approved 
development of relevant mandatory measures for the Guidelines for Ships 
Operating in Ice-covered Waters (a current voluntary set of guidelines 
for Arctic ships).
    The Arctic Council's working group on Protection of the Arctic 
Marine Environment (PAME) has begun in September 2009 drafting a 
follow-on plan for AMSA. During 22-24 October 2009 the University of 
Alaska Fairbanks (with the University of the Arctic and Dartmouth 
College) is hosting an international workshop titled Considering a 
Roadmap Forward: The Arctic Marine Shipping Assessment. Experts will 
attend from industry, Arctic governments, academe, indigenous groups 
and NGOs. The future of the 17 AMSA recommendations will be fully 
explored and a workshop report will be widely circulated within the 
Arctic and the global maritime industry.
    Question. Many of the recommendations will require the cooperation 
of the other Arctic states. Do you believe that it is possible to have 
the necessary cooperation to get multi-lateral agreements on 
regulations and regimes?
    Answer. To address global maritime use of the Arctic Ocean, the 
appropriate body is the IMO. I believe it is only through IMO that 
mandatory and uniform standards can be approved for Arctic ship 
construction, design, equipment, crewing, training and operations. 
Regulations for shipping to enhance Arctic marine safety and 
environmental protection must come from international cooperation at 
the IMO level. What will be critical (to the successful development of 
Arctic-specific regulations & conventions) is that the Arctic states 
must work closer together at IMO on matters of importance and common 
interest in the Arctic. The Arctic states can also develop their own 
regional agreements on such critical issues as search and rescue (SAR) 
and environmental response capacity. There is today the necessary 
Arctic state cooperation and political will to develop and implement 
these agreements that are of a practical maritime nature.
    Question. The report makes some recommendations about 
infrastructure needs and investments in the Arctic. What do you see as 
the priorities? Why?
    Answer. The following is a priority list of infrastructure 
requirements that are required in the Arctic and in particular, the 
U.S. Arctic in Alaska's coastal seas:
        basic or fundamental requirement to enhance marine safety and 
        marine environmental protection. Without adequate charts, most 
        Arctic navigation will be a high risk venture.
  --Establishment of an Arctic Ocean Observing System.--Adequate 
        circumpolar and regional environmental observations are 
        essential to understanding Arctic climate changes and to the 
        facilitation of marine use of the Arctic Ocean. An enhanced 
        observing network and integrated system around Alaska's waters 
        will greatly improve marine safety and environmental 
        protection.
  --Surveys of Indigenous Arctic Marine Use.--Surveys of marine use by 
        Arctic communities are critical to supporting multiple use 
        management issues and strategies throughout the Arctic Ocean. 
        Such regional and local surveys will provide information (sea 
        ice and waterway uses) key to reducing potential marine user 
        conflicts and mitigating the potential impacts of Arctic 
        shipping.
  --Comprehensive, Regional Risk Assessments.--Risk assessments are 
        crucial for Arctic areas such as the Bering Strait Region. 
        Regulators, enforcement organizations, the marine industry and 
        local communities need to understand the levels of Arctic 
        marine activity (current and future) and the levels of risk 
        associated with marine traffic in regions of limited 
        infrastructure.
  --Arctic Marine Traffic Awareness System.--A circumpolar marine 
        traffic awareness system (called for in a major AMSA 
        recommendation) is important for monitoring and tracking of all 
        commercial shipping in the Arctic Ocean. Data collected in 
        near, real-time from such a system would be passed among the 
        Arctic states to facilitate emergency response, general 
        enforcement and the possible avoidance of user conflict.
  --Oil Spill Response and Research.--AMSA identifies oil spills (from 
        accidental or illegal discharges) as the most significant 
        threat from expanded Arctic marine activity. Increased research 
        & development, international cooperation, and improved 
        regional, environmental response plans are critical to 
        adequately responding to greater marine use of the Arctic 
        Ocean. In the United States, a greater emphasis on and funding 
        of Arctic oil spill research is of the highest priority.
    Question. Dr. Brigham, you were an icebreaker captain. How does 
U.S. icebreaker capability compare with other Arctic nations?
    Answer. Two of the three ships in the U.S. Federal fleet considered 
polar icebreakers, the U.S. Coast Guard cutters Polar Star and Polar 
Sea, have operated in the Arctic and Antarctic for more than 30 years. 
They are in need of immediate replacement. When the Polar class ships 
were newer and fully operational, only the Soviet Union and the Russian 
Federation had more polar icebreaker capability than the United States. 
Russia today operates the world's largest fleet of nuclear and non-
nuclear (true) polar icebreakers in support of their national interests 
in the vast Russian Arctic maritime region. Many of these Russian polar 
ships are aging and several polar icebreakers of Canada (Louis S. St-
Laurent), Sweden (Oden) and Germany (Polarstern) are also older. 
Canada, Sweden, Finland, and Norway also operate other icebreakers that 
are smaller and less capable than the most powerful polar icebreakers 
(many operate in the Baltic and a few operate in the Arctic as well). 
For coastal icebreaking, these nations have capability far exceeding 
anything found in Alaska's coastal seas. Today the U.S. Coast Guard 
does not have adequate icebreaking ships to meet the future, multiple 
maritime needs in the shallow subarctic seas of the Bering Sea region 
and north into the coastal seas in the U.S. Arctic maritime. It is 
important to note that deep draft polar class icebreakers cannot 
usually operate in many shallow Arctic areas.
    It is the current management of the U.S. Federal, polar icebreaker 
fleet--the authority for managing the ships is in the National Science 
Foundation (NSF), not in the U.S. Coast Guard--that is the serious and 
debatable national security issue. The NSF approach to funding polar 
icebreaker capability is to charter foreign polar icebreakers such as 
the Swedish icebreaker Oden for Antarctic operations and fund research 
aboard Russian polar icebreakers in the Arctic (NSF also funds Arctic 
research aboard the U.S. Coast Guard cutter Healy). This NSF strategy, 
supported by OMB, is considered by many as an outsourcing strategy of 
U.S. polar maritime interests. Many of our Federal responsibilities and 
national interests are being chartered to icebreakers operated by 
foreign nations. Unwittingly, this funding strategy allows the foreign 
ships to continue to be fully employed by their foreign national 
operating bodies. This takes place at the expense of having viable, 
U.S. Federal and national polar icebreaker assets. The United States 
has many security, legal, political, economic, environmental, and 
research interests in the Arctic and Antarctic that require Federal, 
maritime polar capacity. The current United States funding strategy 
will result in the absence of a viable U.S. polar icebreaker fleet when 
it is most required to protect and advance our national interests in 
the decades ahead.

                         CONCLUSION OF HEARING

    Senator Murkowski. So with that, I again thank you all and 
we call this subcommittee hearing to a conclusion.
    [Whereupon, at 4:31 p.m., Thursday, August 20, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
